No. 20-828

In the Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
PETITIONERS

v.
YASSIR FAZAGA, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel of Record
for Petitioners

AHILAN T. ARULANANTHAM
UCLA School of Law
385 Charles Young Drive East
Los Angeles, CA. 90095
arulanantham@law.ucla.edu
(310) 825-1029
Counsel of Record
for Respondents
Yassir Fazaga, Ali Uddin Malik,
and Yasser Abdelrahim
CATHERINE M.A. CARROLL
Wilmer Cutler Pickering Hale
and Dorr LLP
1875 Pennsylvania Ave., N.W.
Washington, D.C.
catherine.carroll@wilmerhale.com
(202) 663-6000
Counsel of Record
for Respondents
J. Stephen Tidwell and
Barbara Walls

PETITION FOR A WRIT OF CERTIORARI FILED: DEC. 17, 2020
CERTIORARI GRANTED: JUNE 7, 2021

Additional Counsel Listed on Inside Cover

ALEXANDER HOWARD COTE
Winston & Strawn LLP
333 S. Grand Ave., 38th Floor
Los Angeles, CA. 90071
acote@winston.com
(213) 615-1993
Counsel of Record
for Respondents
Pat Rose, Paul Allen, and
Kevin Armstrong

TABLE OF CONTENTS

Page
Court of appeals docket entries (13-55017) .......................... 1
District court docket entries (8:11-cv-00301-CJC-VBK) ....... 13
Declaration of Eric H. Holder, Attorney General of the
United States .......................................................................... 26
Public declaration of Mark F. Giuliano, Federal Bureau of
Investigation ........................................................................... 41
First amended class action complaint (Sept. 13, 2011) ........... 61
Excerpt from Memorandum of points and authorities
in support of motion to dismiss amended complaint
and for summary judgment (Jan. 30, 2012) ................. 157
Declarations of Craig Monteilh submitted by
plaintiffs in support of their oppositions to motions
to dismiss ....................................................................... 165
Motion for leave to file superseding briefs
(June 25, 2015) ............................................................... 220
Letter from Craig Monteilh to U.S. Court of Appeals
for the Ninth Circuit (June 20, 2019) ........................... 232

(I)

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 13-55017
YASSIR FAZAGA; ALI UDDIN MALIK; YASSER
ABDELRAHIM, PLAINTIFFS-APPELLANTS
v.
FEDERAL BUREAU OF INVESTIGATION, ROBERT
MUELLER, DIRECTOR OF THE FEDERAL BUREAU OF
INVESTIGATION, IN HIS OFFICIAL CAPACITY;
CHRISTOPHER A. WRAY, DIRECTOR OF THE FEDERAL
BUREAU OF INVESTIGATION, IN HIS OFFICIAL CAPACITY;
STEVEN M. MARTINEZ, ASSISTANT DIRECTOR IN
CHARGE, FEDERAL BUREAU OF INVESTIGATION’S
LOS ANGELES DIVISION, IN HIS OFFICIAL CAPACITY;
PAUL DELACOURT, ASSISTANT DIRECTOR IN CHARGE,
FEDERAL BUREAU OF INVESTIGATION’S LOS ANGELES
DIVISION, IN HIS OFFICIAL CAPACITY; J. STEPHEN
TIDWELL; BARBARA WALLS; PAT ROSE; KEVIN
ARMSTRONG; PAUL ALLEN; UNITED STATES OF
AMERICA, DEFENDANTS-APPELLEES
DOCKET ENTRIES
DATE

DOCKET
NUMBER

*

PROCEEDINGS

*

*
(1)

*

*

2
DATE

DOCKET
NUMBER

11/17/14

32

11/17/14

PROCEEDINGS

Submitted (ECF) First Brief
on Cross-Appeal brief for review and filed Motion to file
oversized brief. Submitted by
Appellants Yasser Abdelrahim,
Yassir Fazaga and Ali Uddin
Malik in 13-55017, Appellees
Yasser Abdelrahim, Yassir
Fazaga and Ali Uddin Malik in
12-56867, 12-56874. Date of
service: 11/17/2014. [9316413]
[13-55017, 12-56867, 12-56874]
(Arulanantham, Ahilan) [Entered: 11/17/2014 08:46 PM]
11/17/2014
*

* * * *
Submitted (ECF) excerpts of
record. Submitted by Appellants Yasser Abdelrahim, Yassir Fazaga and Ali Uddin Malik
in 13-55017, Appellees Yasser
Abdelrahim, Yassir Fazaga and
Ali Uddin Malik in 12-56867,
12-56874.
Date of service:
11/17/2014.
[9316414] [1355017, 12-56867, 12-56874]
(Arulanantham, Ahilan) [Entered: 11/17/2014 08:49 PM]

*

*

33

*

*

*

3
DATE

DOCKET
NUMBER

3/17/15

49

3/17/15

50

Submitted (ECF) Answering
Brief and supplemental excerpts of record for review.
Submitted by Appellees FBI,
Steven M. Martinez, Robert
Mueller and USA in 13-55017,
—FBI, Steven M. Martinez and
Robert Mueller in 12-56867,
12-56874.
Date of service:
03/17/2015.
[9461356] [1355017, 12-56867, 12-56874]
(Tenny, Daniel) [Entered:
03/17/2015 04:59 PM]
Filed (ECF) Appellees FBI,
Steven M. Martinez, Robert
Mueller and USA in 13-55017,
—FBI, Steven M. Martinez and
Robert Mueller in 12-56867, 1256874 Correspondence:
Notice of Filing Classified Materials.
Date of service:
03/17/2015 [9461362] [13-55017,
12-56867, 12-56874] (Tenny,
Daniel) [Entered: 03/17/2015
05:02 PM]
*

4/29/15

63

PROCEEDINGS

* * * *
Submitted (ECF) Second Brief
on Cross-Appeal and supplemental excerpts of record for
review. Submitted by Appel-

4
DATE

4/29/15

DOCKET
NUMBER

64

PROCEEDINGS

lants Paul Allen, Kevin Armstrong and Pat Rose in 12-56874,
Appellees Kevin Armstrong,
Paul Allen and Pat Rose in 1355017.
Date
of
service:
04/29/2015.
[9519711]
[1256874, 12-56867, 13-55017]—
[COURT UPDATE: Attached
corrected brief and excerpts of
record. Updated docket text to
reflect correct brief type.
04/30/2015 by TL] (Scheper,
David) [Entered: 04/29/2015
05:34 PM]
Submitted (ECF) Second Brief
on Cross-Appeal and supplemental excerpts of record for
review. Submitted by Appellants J. Stephen Tidwell and
Barbara Walls in 12-56867, —J.
Stephen Tidwell and Barbara
Walls in 12-56874, Appellees J.
Stephen Tidwell and Barbara
Walls in 13-55017.
Date
of service:
04/29/2015.
[9519750] [12-56867, 12-56874,
13-55017]—[COURT UPDATE:
Edited docket text to reflect
correct brief type. 04/30/2015
by RY] (Moran, Katie) [Entered: 04/29/2015 08:58 PM]

5
DATE

DOCKET
NUMBER

*
6/25/15

72

6/25/15

73

PROCEEDINGS

* * * *
Filed (ECF)—FBI, Steven M.
Martinez and Robert Mueller
in 12-56867, 12-56874, Appellees FBI, Steven M. Martinez,
Robert Mueller and USA in 1355017 Motion to file substitute
or corrected brief. Date of 13
pg,
225.33
KB
service:
06/25/2015.
[9587130] [1256867, 12-56874, 13-55017]—
[COURT UPDATE: Removed
brief (refiled in entry [73]).
06/25/2015 by TL] (Tenny, Daniel) [Entered:
06/25/2015
06:36 AM]
Submitted (ECF) Answering
Brief for review. Submitted
by—FBI, Steven M. Martinez
and Robert Mueller in 1256867, 12-56874, Appellees
FBI, Steven M. Martinez, Robert Mueller and USA in 1355017.
Date of service:
06/25/2015.
[9587934]
[1256867, 12-56874, 13-55017]—
[COURT ENTERED FILING
to correct entry [72].] (TYL)
[Entered:
06/25/2015 11:54
AM]

6
DATE

DOCKET
NUMBER

*
7/14/15

76

7/24/15

79

PROCEEDINGS

* * * *
Filed order (Appellate Commissioner): The federal appellees’ opposed motion for
leave to file superseding briefs
is granted. The superseding
briefs are due within 21 days
after the date of this order.
Plaintiffs’ reply/cross-appellee
brief is due within 14 days after
service of the superseding
briefs. The individual-capacity
defendants’ cross-appeal reply
brief is due within 14 days after
service of plaintiffs’ reply/
cross-appellee brief. (Pro Mo)
[9609889] [12-56867, 12-56874,
13-55017]
(IV)
[Entered:
07/14/2015 02:40 PM]
Filed (ECF)—FBI, Steven M.
Martinez and Robert Mueller
in 12-56867, 12-56874, Appellees FBI, Steven M. Martinez,
Robert Mueller and USA in
13-55017
Correspondence:
Notice of Filing Superseding
Briefs.
Date of service:
07/24/2015 [9621720] [12-56867,
12-56874, 13-55017] (Tenny,
Daniel) [Entered: 07/24/2015
12:58 PM]

7
DATE

9/21/15

11/13/15

DOCKET
NUMBER

*

* * * *
Submitted (ECF) Third Brief
on Cross-Appeal brief and Further Excerpts of Record for review and filed Motion to file
oversized brief. Submitted by
Appellants Yasser Abdelrahim,
Yassir Fazaga and Ali Uddin
Malik in 13-55017, Appellees
Yasser Abdelrahim, Yassir
Fazaga and Ali Uddin Malik in
12-56867, 12-56874. Date of
service: 09/21/2015. [9691085]
[13-55017, 12-56867, 12-56874]
(Bibring, Peter) [Entered:
09/21/2015 09:24 PM]

*

* * * *
Submitted
(ECF)
CrossAppeal Reply Brief for review.
Submitted by Appellants Barbara Walls and J. Stephen Tidwell in 12-56867,—Barbara
Walls and J. Stephen Tidwell in
12-56874, Appellees Barbara
Walls and J. Stephen Tidwell in
Date of service:
13-55017.
11/13/2015.
[9755432]
[12-56867, 12-56874, 13-55017]
(Nichols,
Carl)
[Entered:
11/13/2015 03:42 PM]

85

100

PROCEEDINGS

8
DATE

11/13/15

11/23/15

DOCKET
NUMBER

*

* * * *
Submitted (ECF) Cross-Appeal Reply Brief for review.
Submitted by—Paul Allen,
Kevin Armstrong and Pat Rose
in 12-56867, Appellants Paul
Allen, Kevin Armstrong and
Pat Rose in 12-56874, Appellees Paul Allen, Kevin Armstrong and Pat Rose in
13-55017.
Date of service:
11/13/2015.
[9755594] [1256867, 12-56874, 13-55017]—
[COURT UPDATE: Updated
docket text to reflect correct
brief type.
11/13/2015 by
TYL] (Cote, Alexander) [Entered: 11/13/2015 04:41 PM]

*

* * * *
Filed (ECF)—FBI, Steven M.
Martinez and Robert Mueller
in 12-56867, 12-56874, Appellees FBI, Steven M. Martinez,
Robert Mueller and USA in
13-55017
Correspondence:
Notice of Filing Classified Supplemental Excerpts of Record.
Date of service:
11/23/2015
[9767083] [12-56867, 12-56874,

102

107

PROCEEDINGS

9
DATE

DOCKET
NUMBER

PROCEEDINGS

13-55017] (Tenny, Daniel) [Entered: 11/23/2015 01:30 PM]
2/28/19

6/14/19

*

* * * *
FILED OPINION (RONALD
M. GOULD, MARSHA S.
BERZON
and
GEORGE
CARAM STEEH, III) AFFIRMED IN PART, REVERSED IN PART AND REMANDED. Judge:
Judge:
MSB Authoring.
FILED
AND
ENTERED
JUDGMENT.
[11210750] [1256867, 12-56874, 13-55017]—
[Edited:
Replaced PDF of
Opinion (typos corrected).
03/07/2019 by RY] (RMM) [Entered: 02/28/2019 07:05 AM]

*

* * * *
Filed (ECF) Appellees J. Stephen Tidwell and Barbara
Walls in 13-55017, Appellants
J. Stephen Tidwell and Barbara Walls in 12-56867 petition
for panel rehearing and petition for rehearing en banc
(from 02/28/2019 opinion).
Date of service: 06/14/2019.
[11331118] [13-55017, 12-56867,
12-56874] (Shapiro, Howard)

126

138

10
DATE

DOCKET
NUMBER

6/14/19

139

6/14/19

140

[Entered:
06/14/2019 07:41
AM]
Filed (ECF) Appellees Paul
Delacourt, FBI, USA and
Christopher A. Wray in 1355017 petition for panel rehearing and petition for rehearing
en banc (from 02/28/2019 opinion).
Date of service:
06/14/2019.
[11331754] [1256867, 12-56874, 13-55017]
(Busa,
Joseph)
[Entered:
06/14/2019 11:32 AM]
Filed (ECF) Appellants Paul
Allen, Kevin Armstrong and
Pat Rose in 12-56874, Appellees Paul Allen, Kevin Armstrong and Pat Rose in 1355017 petition for panel rehearing and petition for rehearing
en banc (from 02/28/2019 opinDate of service:
ion).
06/14/2019.
[11331898] [1256867, 12-56874, 13-55017]
(Cote, Alexander) [Entered:
06/14/2019 12:34 PM]
*

8/23/19

151

PROCEEDINGS

* * * *
Filed (ECF) Appellants Yasser
Abdelrahim, Yassir Fazaga and
Ali Uddin Malik in 13-55017 response to Combo PFR Panel

11
DATE

DOCKET
NUMBER

PROCEEDINGS

and En Banc (ECF Filing),
Combo PFR Panel and En
Banc (ECF Filing), Combo
PFR Panel and En Banc (ECF
Filing), Combo PFR Panel and
En Banc (ECF Filing), Combo
PFR Panel and En Banc (ECF
Filing), Combo PFR Panel
and En Banc (ECF Filing).
Date of service:
08/23/2019.
[11409025].
[12-56867,
12-56874, 13-55017] (Tajsar,
Mohammad)
[Entered:
08/23/2019 04:18 PM]
*
7/20/20

154

* * * *
Filed order and amended opinion (RONALD M. GOULD,
MARSHA S. BERZON and
GEORGE CARAM STEEH,
III). (Concurrence by Judges
Gould and Berzon) (Statement
by Judge Steeh) (Dissent by
Judge Bumatay) The opinion
filed on February 28, 2019, reported at 916 F.3d 1202, is
hereby amended. An amended
opinion is filed concurrently
with this order. With these
amendments, the panel has
unanimously voted to deny appellees’ petition for rehearing.

12
DATE

DOCKET
NUMBER

PROCEEDINGS

Judges Berzon and Gould have
voted to deny the petition for
rehearing en banc and Judge
Steeh so recommends.
The
full court has been advised of
the petition for rehearing en
banc. A judge of the court requested a vote on en banc rehearing. The matter failed to
receive a majority of votes of
non-recused active judges in favor of en banc consideration.
Fed. R. App. P. 35. The petition for rehearing and the petition for rehearing en banc are
DENIED. No further petitions for panel rehearing or rehearing en banc will be entertained. Judge Berzon’s concurrence with and Judge Bumatay’s dissent from denial of
en banc rehearing are filed concurrently herewith. [11758009]
[12-56867, 12-56874, 13-55017]
(AKM) [Entered: 07/20/2020
07:53 AM]
*

*

*

*

*

13
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
(SOUTHERN DIVISION—SANTA ANA)

Case No. 8:11-cv-00301-CJC-VBK
YASSIR FAZAGA; ALI UDDIN MALIK; YASSER
ABDELRAHIM, PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION, ROBERT
MUELLER, DIRECTOR OF THE FEDERAL BUREAU OF
INVESTIGATION, IN HIS OFFICIAL CAPACITY;
STEVEN M. MARTINEZ, ASSISTANT DIRECTOR IN
CHARGE, FEDERAL BUREAU OF INVESTIGATION’S
LOS ANGELES DIVISION, IN HIS OFFICIAL CAPACITY;
J. STEPHEN TIDWELL; BARBARA WALLS; PAT ROSE;
KEVIN ARMSTRONG; PAUL ALLEN; DOES 1-20;
UNITED STATES OF AMERICA, DEFENDANTS-APPELLEES
DOCKET ENTRIES
DATE

DOCKET
NUMBER

PROCEEDINGS

*
8/1/11

32

* * * *
NOTICE OF MOTION AND
MOTION to Dismiss Case and
for Summary Judgment filed
by Defendants Federal Bureau
of Investigation, Steven M
Martinez, Robert Mueller.
Motion set for hearing on
11/14/2011 at 01:30 PM before
Judge Cormac J. Carney.

14
DATE

DOCKET
NUMBER

8/1/11

33

8/1/11

34

8/1/11

35

PROCEEDINGS

(Attachments: # 1 Declaration Christopher N. Morin,
FBI, # 2 Appendix Statement
of Material Facts, # 3 Declaration Attorney General Eric H.
Holder) (Coppolino, Anthony)
(Entered: 08/01/2011)
DECLARATION of Mark F.
Giuliano, Federal Bureau of Investigation in Support of MOTION to Dismiss Case and for
Summary Judgment 32 filed
by Defendants Federal Bureau
of Investigation, Steven M
Martinez, Robert Mueller.
(Coppolino, Anthony) (Entered: 08/01/2011)
EXHIBIT 1-3 to MOTION to
Dismiss Case and for Summary Judgment 32 Exhibits to
Public Declaration of Mark F.
Giuliano, Federal Bureau of
Investigation filed by Defendants Federal Bureau of Investigation, Steven M Martinez,
Robert Mueller. (Coppolino,
Anthony)
(Entered:
08/01/2011)
NOTICE OF LODGING filed
Notice of Lodging of Classified

15
DATE

8/1/11

DOCKET
NUMBER

In Camera, Ex Parte Declaration of Mark F. Giuliano, Federal Bureau of Investigation
re MOTION to Dismiss Case
and for Summary Judgment
32 (Coppolino, Anthony) (Entered: 08/01/2011)
NOTICE OF LODGING filed
Notice of Lodging of Classified
In Camera, Ex Parte Supplemental Memorandum by Government Defendants re MOTION to Dismiss Case and for
Summary Judgment 32 (Coppolino, Anthony) (Entered:
08/01/2011)

36

*
8/11/11

45

PROCEEDINGS

* * * *
NOTICE OF ERRATA filed by
Defendants Paul Allen, Kevin
Armstrong, Pat Rose.
correcting MOTION to Dismiss
Plaintiffs’ Class Action Complaint; Notice of Joinder in
Motions to Dismiss by (1) Defendants FBI, Robert Mueller,
and Steven Martinez and (2)
Defendants Stephen Tidwell
and Barbara Walls MOTION
to Dismiss Plaintiffs’ Class Action Complaint; Notice of Joinder in Motions to Dismiss by

16
DATE

DOCKET
NUMBER

PROCEEDINGS

(1) Defendants FBI, Robert
Mueller, and Steven Martinez
and (2) Defendants Stephen
Tidwell and Barbara Walls 41
(Attachments: # 1 Exhibit 1
—CORRECTED Motion to
Dismiss) (Machala, Angela)
(Entered: 08/11/2011)
*
9/13/11

49

*
11/4/11

55

* * * *
FIRST AMENDED COMPLAINT against defendants
Paul Allen, Kevin Armstrong,
Federal Bureau of Investigation, Steven M Martinez, Robert Mueller, Pat Rose, J Stephen Tidwell, Barbara Walls,
Does 1-10; amending Complaint
—(Discovery) 1; filed by plaintiffs Ali Uddin Malik, Yasser
Abdelrahim, Yassir Fazaga (Attachments: # 1 PART 2, # 2
PART 3) (rla) (Additional attachment(s)
added
on
9/15/2011:
# 3 SUMMONS
ISSUED) (rla).
(Entered:
09/14/2011)
* * * *
NOTICE OF MOTION AND
MOTION to Dismiss Case
Amended Complaint and for

17
DATE

DOCKET
NUMBER

11/4/11

56

11/11/11

57

PROCEEDINGS

Summary Judgment filed by
Government Defendants Federal Bureau of Investigation,
Steven M Martinez, Robert
Mueller, United States of
America.
Motion set for
hearing on 1/30/2012 at 01:30
PM before Judge Cormac J.
Carney. (Attachments: # 1
Declaration Christopher N.
Morin, Federal Bureau of Investigation, # 2 Appendix
Statement
of
Undisputed
Facts) (Coppolino, Anthony)
(Entered: 11/04/2011)
NOTICE OF LODGING filed
of Classified Supplemental
Declaration of Mark F. Giuliano, Federal Bureau of Investigation for In Camera, Ex
Parte Review re MOTION to
Dismiss Case Amended Complaint and for Summary Judgment 55 (Coppolino, Anthony)
(Entered: 11/04/2011)
NOTICE OF MOTION AND
MOTION to Dismiss Case
First Amended Class Action
Complaint and Joinder in Motions to Dismiss by (1) Defendants United States of America,

18
DATE

11/11/11

DOCKET
NUMBER

Federal Bureau of Investigation, Robert Mueller and Steven Martinez, and (2) Defendants Stephen Tidwell and Barbara Walls filed by Defendants
Paul Allen, Kevin Armstrong,
Pat Rose. Motion set for hearing on 1/30/2012 at 01:30 PM
before Judge Cormac J. Carney.
(Scheper, David) (Entered: 11/11/2011)
NOTICE OF MOTION AND
MOTION to Dismiss Case
First Amended Complaint filed
by Defendants J Stephen Tidwell, Barbara Walls. Motion
set for hearing on 1/30/2012 at
01:30 PM before Judge Cormac
J. Carney. (Li, Peiyin) (Entered: 11/11/2011)

58

*
12/23/11

63

PROCEEDINGS

* * * *
In Opposition re: MOTION
to Dismiss Case First Amended
Class Action Complaint and
Joinder in Motions to Dismiss
by (1) Defendants United States
of America, Federal Bureau of
Investigation, Robert Mueller
and Steven Martinez, and (2)
Defendants Stephen Tidwell
and Ba MOTION to Dismiss

19
DATE

DOCKET
NUMBER

12/23/11

64

12/23/11

65

PROCEEDINGS

Case First Amended Class Action Complaint and Joinder in
Motions to Dismiss by (1) Defendants United States of
America, Federal Bureau of
Investigation, Robert Mueller
and Steven Martinez, and (2)
Defendants Stephen Tidwell
and Ba 57, MOTION to Dismiss Case First Amended
Complaint 58 filed by Plaintiffs Yasser Abdelrahim, Yassir Fazaga, Ali Uddin Malik.
(Attachments:
# 1 Attachment
A—Claims
Chart)
(Bibring, Peter) (Entered:
12/23/2011)
MEMORANDUM in Opposition to MOTION to Dismiss
Case Amended Complaint and
for Summary Judgment 55
filed by Plaintiffs Yasser Abdelrahim, Yassir Fazaga, Ali
Uddin Malik. (Attachments:
# 1 Statement of Genuine Issues) (Arulanantham, Ahilan)
(Entered: 12/23/2011)
DECLARATION of Ahilan
Arulanantham In Opposition to
MOTION to Dismiss Case
First Amended Class Action

20
DATE

12/23/11

DOCKET
NUMBER

66

PROCEEDINGS

Complaint and Joinder in Motions to Dismiss by (1) Defendants United States of America,
Federal Bureau of Investigation, Robert Mueller and Steven Martinez, and (2) Defendants Stephen Tidwell and Ba
MOTION to Dismiss Case
First Amended Class Action
Complaint and Joinder in Motions to Dismiss by (1) Defendants United States of America,
Federal Bureau of Investigation, Robert Mueller and Steven Martinez, and (2) Defendants Stephen Tidwell and Ba
57, MOTION to Dismiss Case
First Amended Complaint 58,
MOTION to Dismiss Case
Amended Complaint and for
Summary Judgment 55 filed
by Plaintiffs Yasser Abdelrahim, Yassir Fazaga, Ali
Uddin Malik. (Attachments:
# 1 Exhibit # 1 - # 3) (Arulanantham, Ahilan) (Entered:
12/23/2011)
DECLARATION of Craig
Monteilh In Opposition to MOTION to Dismiss Case First

21
DATE

DOCKET
NUMBER

PROCEEDINGS

Amended Class Action Complaint and Joinder in Motions
to Dismiss by (1) Defendants
United States of America, Federal Bureau of Investigation,
Robert Mueller and Steven
Martinez, and (2) Defendants
Stephen Tidwell and Ba MOTION to Dismiss Case First
Amended Class Action Complaint and Joinder in Motions
to Dismiss by (1) Defendants
United States of America, Federal Bureau of Investigation,
Robert Mueller and Steven
Martinez, and (2) Defendants
Stephen Tidwell and Ba 57,
MOTION to Dismiss Case
First Amended Complaint 58,
MOTION to Dismiss Case
Amended Complaint and for
Summary Judgment 55 filed
by Plaintiffs Yasser Abdelrahim, Yassir Fazaga, Ali Uddin Malik. (Arulanantham,
Ahilan) (Entered: 12/23/2011)
*
1/20/12

69

* * * *
REPLY support MOTION to
Dismiss Case Amended Com-

22
DATE

1/20/12

DOCKET
NUMBER

70

PROCEEDINGS

plaint and for Summary Judgment 55 Government Defendants’ Reply in Support of Motion to Dismiss Amended Compaint and for Summary Judgment filed by Defendants Federal Bureau of Investigation,
Steven M Martinez, Robert
Mueller, United States of
America.
(Coppolino, Anthony) (Entered: 01/20/2012)
REPLY In Support Of MOTION to Dismiss Case First
Amended Class Action Complaint and Joinder in Motions
to Dismiss by (1) Defendants
United States of America, Federal Bureau of Investigation,
Robert Mueller and Steven
Martinez, and (2) Defendants
Stephen Tidwell and Ba MOTION to Dismiss Case First
Amended Class Action Complaint and Joinder in Motions
to Dismiss by (1) Defendants
United States of America, Federal Bureau of Investigation,
Robert Mueller and Steven
Martinez, and (2) Defendants
Stephen Tidwell and Ba 57

23
DATE

1/20/12

DOCKET
NUMBER

filed by Defendants Paul Allen, Kevin Armstrong, Pat
Rose. (Attachments: # 1 Attachment: 11/3/11 Opinion in
Mirmehdi v. United States)
(Scheper, David) (Entered:
01/20/2012)
REPLY IN SUPPORT OF
MOTION to Dismiss Case
First Amended Complaint 58
filed by Defendants J Stephen
Tidwell, Barbara Walls. (Li,
Peiyin) (Entered: 01/20/2012)

71

*
8/14/12

101

8/14/12

102

PROCEEDINGS

* * * *
ORDER GRANTING DEFENDANTS’ MOTIONS TO
DISMISS BASED ON THE
STATE SECRETS PRIVILEGE by Judge Cormac J.
Carney: (See document for
details.)
Accordingly, all of
Plaintiffs causes of action
against Defendants, aside from
their FISA claim, are DISMISSED.
(rla) (Entered:
08/14/2012)
ORDER by Judge Cormac J.
Carney,
GRANTING
IN
PART DEFENDANTS’ MO-

24
DATE

DOCKET
NUMBER

PROCEEDINGS

TIONS TO DISMISS PLAINTIFFS’ FISA CLAIM: (See
document for details.)
For
the foregoing reasons, with respect to Plaintiffs’ FISA Section 1810 claim, the Government’s motion to dismiss is
GRANTED and the Agent Defendants’ motions to dismiss
are DENIED. (rla) (Entered:
08/14/2012)
10/12/12

10/12/12

*

* * * *
NOTICE OF APPEAL to the
9th CCA filed by IndividualCapacity Defendants J Stephen Tidwell, Barbara Walls.
Appeal of Order, 102 (Appeal
fee FEE NOT PAID.) (Moran,
Katie)
(Entered:
10/12/2012)

*

* * * *
NOTICE OF APPEAL to the
9th CCA filed by Defendants
Paul Allen, Kevin Armstrong,
Pat Rose. Appeal of Order, 102
(Appeal fee of $455 receipt
number 0973-11094403 paid.)
(Attachments:
# 1 Supplement) (Machala, Angela) (Entered: 10/12/2012)

112

115

25
DATE

1/3/13

DOCKET
NUMBER

PROCEEDINGS

*

* * * *
NOTICE OF APPEAL to the
9th CCA filed by Plaintiff Yasser
Abdelrahim, Yassir Fazaga, Ali
Uddin Malik. Appeal of Judgment, 129 (Appeal fee of $455
receipt number 0973-11463653
paid.) (Bibring, Peter) (Entered: 01/03/2013)

*

*

130

*

*

*

26
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SANTA ANA DIVISION

Case No. SA11-CV-00301 CJC (VBKx)
YASSIR FAZAGA ET AL., PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION ET AL.,
DEFENDANTS

Filed: Aug. 8, 2011
DECLARATION OF ERIC H. HOLDER
ATTORNEY GENERAL OF THE UNITED STATES

I, Eric H. Holder, hereby state and declare as follows:
1. I am the Attorney General of the United States
and head of the United States Department of Justice
(‘DOJ’), an Executive Department of the United States.
See 28 U.S.C. §§ 501, 503, 509. The purpose of this declaration is to assert, at the request of the Director of the
Federal Bureau of Investigation (“FBI”), and in my capacity as Attorney General and head of DOJ, a formal
claim of the state secrets privilege in order to protect
the national security interests of the United States.
The statements made herein are based on my personal
knowledge, on information provided to me in my official
capacity, and on my evaluation of that information.
2. In the course of my official duties, I have been
informed that the plaintiffs in this action—three Muslim

27
residents of southern California—have filed a class action against the FBI, FBI Director Robert Mueller and
Steven M. Martinez, Assistant Director in Charge of the
FBI’s Los Angeles Field Office, in their official capacities, claiming alleged violations of the Free Exercise
Clause and Establishment Clause of the First Amendment, the Religious Freedom Restoration Act, the equal
protection principles of the Fifth Amendment, the Privacy Act, the Fourth Amendment, and the Foreign
Intelligence Surveillance Act, and for conspiracy to violate the plaintiff ’s civil rights pursuant to 42 U.S.C.
§ 1985(3). I understand that the plaintiffs allege that
the defendants, through the use of a paid confidential
informant, engaged in an impermissible investigation to
collect personal information indiscriminately on the
plaintiffs and others based solely on their religion in violation of their rights under the Constitution and statutory law.
3. I have read and carefully considered the public
and classified declarations of Mark Giuliano (“Giuliano
Declaration”), Assistant Director of the FBI’s Counterterrorism Division. After careful and actual personal
consideration of the matter, I have concluded that disclosure of the three categories of information described
below and in more detail in the classified Giuliano Declaration could reasonably be expected to cause significant harm to the national security, and I therefore formally assert the state secrets privilege over this information. The classified Giuliano Declaration, which is
available for the Court’s ex parte, in camera review, describes in classified detail the information over which I
am asserting the state secrets privilege. As Attorney
General, I possess original classification authority un-

28
der § 1.3 of Executive Order (“E.O.”) 13526, dated December 29, 2009. See 75 Fed. Reg. 707. The classified
Giuliano Declaration is properly classified under § 1.2
E.O. 13526 because public disclosure of the information
contained in that declaration also could reasonably be
expected to cause significant harm to national security.
4. In unclassified terms, my privilege assertion encompasses information in the following categories:
(i) Subject Identification: Information that could
tend to confirm or deny whether a particular individual
was or was not the subject of an FBI counterterrorism
investigation, including in Operation Flex.
(ii) Reasons for Counterterrorism Investigations
and Results: Information that could tend to reveal the
initial reasons (i.e., predicate) for an FBI counterterrorism investigation of a particular person (including in Operation Flex), any information obtained during the
course of such an investigation, and the status and results of the investigation. This category includes any
information obtained from the U.S. Intelligence Community related to the reasons for an investigation.
(iii) Sources and Methods: Information that could
tend to reveal whether particular sources and methods
were used in a counterterrorism investigation of a particular subject, including in Operation Flex. This category includes previously undisclosed information related to whether court-ordered searches or surveillance,
confidential human sources, and other investigative
sources and methods were used in a counterterrorism
investigation of a particular person, the reasons such
methods were used, the status of the use of such sources

29
and the methods, and any results derived from such
methods.
5. As indicated above and explained further below,
I have determined that disclosure of information falling
into the foregoing categories could reasonably be expected to cause significant harm to national security.
6. First, I concur with the FBI’s determination
that the disclosure of the identities of subjects of counterterrorism investigations, including Operation Flex,
reasonably could be expected to cause significant harm
to national security. As the FBI has explained, such
disclosures would alert those subjects to the FBI’s interest in them and cause them to attempt to flee, destroy
evidence, or alter their conduct so as to avoid detection
of their future activities, which would seriously impede
law enforcement and intelligence officers’ ability to determine their whereabouts or gain further intelligence
on their activities. In addition, as the FBI has explained, knowledge that they were under investigation
could enable subjects to anticipate the actions of law enforcement and intelligence officers, possibly leading to
counter-surveillance that could place federal agents at
higher risk, and to ascertain the identities of confidential informants or other intelligence sources, placing
those sources at risk. Such knowledge, as the FBI has
further explained, could also alert associates of the subjects to the fact that the FBI is likely aware of their associations with the subjects and cause them to take similar steps to avoid scrutiny.
7. Second, I agree with the FBI that disclosure
that an individual is not a subject of a national security
investigation could likewise reasonably be expected to
cause significant harm to national security. As the

30
FBI has explained, disclosure that some persons are not
subject to investigation, while the status of others is left
unconfirmed, would inherently reveal that FBI concerns
remain as to particular persons. Allowing such disclosures, as the FBI indicates, would enable individuals
and terrorist groups alike to manipulate the system to
discover whether they or their members are subject to
investigation. Further, as the FBI has pointed out, individuals who desire to commit terrorist acts could be
motivated to do so upon discovering that they are not
being monitored.
8. In addition, I agree with the FBI’s judgement
that where an investigation of a subject has been closed,
disclosure that an individual was formerly the subject of
a counterterrorism investigation could also reasonably
be expected to cause significant harm to national security. Again, I agree with the FBI that, to the extent
that an individual had terrorist intentions that were not
previously detected, the knowledge that he or she is no
longer the subject of investigative interest could embolden him or her to carry out those intentions. Moreover, as the FBI indicates, the fact that investigations
are closed does not mean that the subjects have necessarily been cleared of wrongdoing, as closed cases are
often reopened based on new information. As the FBI
has also explained, even if the former subjects are lawabiding, the disclosure that they had been investigated
could still provide valuable information to terrorists and
terrorist organizations about the FBI’s intelligence and
concerns, particularly where the former subjects have
associates whom the FBI may still be investigating
based on the FBI’s interest in the closed subject could
alert such associates to the FBI’s interest in them and

31
lead them to destroy evidence or alter their conduct so
as to avoid detection of their future activities.
9. Third, I agree with the FBI’s judgement that disclosure of the reasons for and substance of a counterterrorism investigation—whether the initial predicate for
opening an investigation, information gained during the
investigation, or the status or results of the investigation
—could also reasonably be expected to cause significant
harm to national security. As the FBI has determined,
such disclosures would reveal to subjects who are involved in or planning to undertake terrorist activities
what the FBI knows or does not know about their plans
and the threat they pose to national security. Even if
the subjects have no terrorist intentions, as the FBI has
explained, disclosure of the reasons they came under investigation may reveal sensitive intelligence information about them, their associates, or particular threat
that would harm other investigations. More generally,
as the FBI has also explained, disclosure of the reasons
for an investigation could provide insights to persons intent on committing terrorist attacks as to what type of
information is sufficient to trigger an inquiry by the
FBI, and what sources and methods the FBI employs to
obtain information on a person.
10. Finally, I agree with the FBI that the disclosure
of certain information that would tend to describe, reveal, confirm or deny the existence or use of FBI investigative sources and methods, or techniques used in the
counterterrorism investigations at issue in this case
could likewise be reasonably expected to cause significant harm to national security. This aspect of my privilege assertion would include information that would

32
tend to reveal whether court-ordered searches or surveillance, confidential human sources, and other investigative sources and methods were used in a counterterrorism investigation of a particular person, the reasons
for and the status of the use of such sources and methods, and any results derived from such methods. The
disclosure of such information, as the FBI has explained, could reveal not only the identities of particular
subjects but also the steps taken by the FBI in counterterrorism matters. I agree with the FBI’s assessment
that such information would effectively provide a road
map to adversaries on how the FBI goes about detecting
and preventing terrorist attacks.
11. Any further elaboration concerning the foregoing matters on the public record would reveal information that could cause the very harms my assertion of
the state secrets privilege is intended to prevent. The
classified Giuliano Declaration, submitted for ex parte,
in camera, provides a more detailed explanation of the
information over which I am asserting the privilege and
the harms to national security that would result from
disclosure of that information.
12. On September 23, 2009, I announced a new Executive Branch policy governing the assertion and defense of the state secrets privilege in litigation. Under
the policy, the Department of Justice will defend an assertion of the state secrets privilege in litigation, and
seek dismissal of a claim on that basis, only when “necessary to protect against the risk of significant harm to
national security.” See Exhibit 1 (State Secrets Policy)
¶ 1(A). The policy provides further that an application
of a privilege assertion must be narrowly tailored and

33
that dismissal be sought pursuant to the privilege assertion only when necessary to prevent significant harm to
national security. Id. ¶ 1(B). Moreover, “[t]he Department will not defend an invocation of the privilege
in order to: (i) conceal violations of the law, inefficiency, or administrative error; (ii) prevent embarrassment to a person, organization, or agency of the United
States government; (iii) restrain competition; or (iv)
prevent or delay the release of information the release
of which would not reasonably be expected to cause significant harm to national security.” Id. ¶ 1(C). The
policy also established detailed procedures for review of
a proposed assertion of the state secrets privilege in a
particular case. Id. ¶ 2. Those procedures require
submissions by the relevant government departments
or agencies specifying “(i) the nature of the information
that must be protected from unauthorized disclosure;
(ii) the significant harm to national security that disclosure can reasonably be expected to cause; [and] (iii) the
reason why unauthorized disclosure is reasonably likely
to cause such harm.” Id. ¶ 2(A). Based on my personal consideration of the matter, I have determined
that the requirements for an assertion and defense of
the state secrets privilege have been met in this case in
accord with the September 2009 State Secrets Policy.
I declare under penalty of perjury that the foregoing
is true and correct
Executed this [29th] day of July, 2011, In Washington, D.C.
/s/

ERIC H. HOLDER
ERIC H. HOLDER
Attorney General of the United States

34

EXHIBIT 1 TO DECLARATION OF
ATTORNEY GENERAL ERIC H. HOLDER

35
Office of the Attorney General
Washington, D.C. 20530

Sept. 23, 2009
MEMORANDUM FOR HEADS OF EXECUTIVE
DEPARTMENTS AND AGENCIES
MEMORANDUM FOR THE HEADS OF DEPARTMENT COMPONENTS
FROM:

[EH] THE ATTORNEY GENERAL

SUBJECT:

Policies and Procedures Governing
Invocation of the State Secrets Privilege

I am issuing today new Department of Justice policies and administrative procedures that will provide
greater accountability and reliability in the invocation of
the state secrets privilege in litigation. The Department is adopting these policies and procedures to
strengthen public confidence that the U.S. Government
will invoke privilege in court only when genuine and significant harm to national defense or foreign relations is
at stake and only to the extent necessary to safeguard
those interests. The policies and procedures set forth
in this Memorandum are effective as of October 1, 2009,
and the Department shall apply them in all cases in
which a government department or agency thereafter
seeks to invoke the state secrets privilege in litigation.

36
1.

Standards for Determination

The Department will defend
an assertion of the state secrets privilege (‘privilege”)
in litigation when a government department or
agency seeking to assert the privilege makes a sufficient showing that assertion of the privilege is necessary to protect information the unauthorized disclosure of which reasonably could be expected to cause
significant harm to the national defense or foreign relations (‘national security”) of the United States.
With respect to classified information, the Department will defend invocation of the privilege to protect
information properly classified pursuant to Executive Order 12958, as amended, or any successor order, at any level of classification, so long as the unauthorized disclosure of such information reasonably
could be expected to cause significant harm to the national security of the United States. With respect to
information that is nonpublic but not classified, the
Department will also defend invocation of the privilege so long as the disclosure of such information reasonably could be expected to cause significant harm
to the national security of the United States.
A.

Legal Standard.

B. Narrow Tailoring. The Department’s policy is
that the privilege should be invoked only to the extent necessary to protect against the risk of significant harm to national security. The Department
will seek to dismiss a litigant’s claim or case on the
basis of the state secrets privilege only when doing
so is necessary to protect against the risk of significant harm to national security.
Limitations.

The Department will not defend
an invocation of the privilege in order to: (i) conceal
C.

37
violations of the law, inefficiency, or administrative
error; (ii) prevent embarrassment to a person, organization, or agency of the United States government;
(iii) restrain competition; or (iv) prevent or delay the
release of information the release of which would not
reasonably be expected to cause significant harm to
national security.
2.

Initial Procedures for Invocation of the Privilege
A. Evidentiary Support.
A government department or agency seeking invocation of the privilege in
litigation must submit to the Division in the Department with responsibility for the litigation in question 1
a detailed declaration based on personal knowledge
that specifies in detail: (i) the nature of the information that must be protected from unauthorized
disclosure; (ii) the significant harm to national security that disclosure can reasonably be expected to
cause; (iii) the reason why unauthorized disclosure is
reasonably likely to cause such harm; and (iv) any
other information relevant to the decision whether
the privilege should be invoked in litigation.

The question whether to invoke the privilege typically arises in
civil litigation. Requests for invocation of the privilege in those
cases shall be addressed to the Civil Division. The question whether to invoke the privilege also may arise in cases handled by the Environment and Natural Resources Division (ENRD), and requests
for invocation of the privilege shall addressed to ENRD in those instances. It is also possible that a court may require the Government to satisfy the standards for invoking the privilege in criminal
proceedings. See United States v. Araf, 533 F.3d 72, 78-80 (2d Cir.
2008); but see United States v. Rosen, 557 F.3d 192,198 (4th Cir.
2009). In such instances, requests to submit filings to satisfy the
standard shall be directed to the National Security Division.
1

38
B. Recommendation from the Assistant Attorney
General. The Assistant Attorney General for the

Division responsible for the matter shall formally
recommend in writing whether or not the Department should defend the assertion of the privilege in
litigation. In order to make a formal recommendation to defend the assertion of the privilege, the Assistant Attorney General must conclude, based on a
personal evaluation of the evidence submitted by the
department or agency seeking invocation of the privilege, that the standards set forth in Section 1(a) of
this Memorandum are satisfied. The recommendation of the Assistant Attorney General shall be made
in a timely manner to ensure that the State Secrets
Review Committee has adequate time to give meaningful consideration to the recommendation.
3.

State Secrets Review Committee
Review Committee.

A State Secrets Review
Committee consisting of senior Department of Justice officials designated by the Attorney General will
evaluate the Assistant Attorney General’s recommendation to determine whether invocation of the
privilege in litigation is warranted.
A.

Consultation.

The Review Committee will consult as necessary and appropriate with the department or agency seeking invocation of the privilege in
litigation and with the Office of the Director of National Intelligence. The Review Committee must
engage in such consultation prior to making any recommendation against defending the invocation of the
privilege in litigation.
B.

39
C.

Recommendation by the Review Committee.

The Review Committee shall make a recommendation to the Deputy Attorney General, who shall in
turn make a recommendation to the Attorney General. 2 The recommendations shall be made in a
timely manner to ensure that the Attorney General
has adequate time to give emeaningful consideration
to such recommendations.
4.

Attorney General Approval
Attorney General Approval.

The Department
will not defend an assertion of the privilege in litigation without the personal approval of the Attorney
General (or, in the absence or recusal of the Attorney
General, the Deputy Attorney General or the Acting
Attorney General).
A.

Notification to the Agency or Department Head.
In the event that the Attorney General does not approve invocation of the privilege in litigation with respect to some or all of the information a requesting
department or agency seeks to protect, the Department will provide prompt notice to the head of the
requesting department or agency.
B.

C. Referral to Agency or Department Inspector General. If the Attorney General concludes that it would

be proper to defend invocation of the privilege in a
case, and that invocation of the privilege would preclude adjudication of particular claims, but that the

In civil cases, the review committee’s recommendation should be
made through the Associate Attorney General to the Deputy Attorney General, who shall in turn make a recommendation to the Attorney General.
2

40
case raises credible allegations of government wrongdoing, the Department will refer those allegations to
the Inspector General of the appropriate department
or agency for further investigation, and will provide
prompt notice of the referral to the head of the appropriate department or agency.
5.

Reporting to Congress

The Department will provide periodic reports to appropriate oversight committees of Congress with respect to all cases in which the Department invokes the
privilege on behalf of departments or agencies in litigation, explaining the basis for invoking the privilege.
6.

Classification Authority

The department or agency with classification authority over information potentially subject to an invocation
of the privilege at all times retains its classification authority under Executive Order 12958, as amended, or
any successor order.
7.

No Substantive or Procedural Rights Created

This policy statement is not intended to, and does not,
create any right or benefit, substantive or procedural,
enforceable at law or in equity, by any party against the
United States, its departments, agencies, or entities, its
officers, employees, or agents, or any other person.

41
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SANTA ANA DIVISION

Case No. SACV11-00301 CJC (VBKx)
YASSER FAZAGA, ET AL., PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATIONS, ET AL.,
DEFENDANTS

Filed: Aug. 1, 2011
PUBLIC DECLARATION OF MARK F. GIULIANO
FEDERAL BUREAU OF INVESTIGATION

I, Mark F. Giuliano, hereby declare the following:
1. I am the Assistant Director, Counterterrorism
Division, Federal Bureau of Investigation (the FBI),
United States Department of Justice. I am responsible for, among other things, directing the conduct of
FBI counterterrorism investigations. As Assistant Director, I have official supervision and control over the
files and records of the Counterterrorism Division, FBI
Headquarters, Washington, D.C. In addition, I have
been delegated original classification authority by the
Director of the FBI. See Executive Order 13,526, Section 1.3(c).v
As a result, and pursuant to all applicable Executive Orders, I am responsible for the protection of classified national security information within the
Counterterrorism Division of the FBI, including the
sources and methods used by the FBI in the collection

42
of national security information. I have been authorized by the Director of the FBI to execute declarations
and affidavits in order to protect such information.
The matters stated herein are based on my personal
knowledge and on information furnished to me in the
course of my official duties.
2. I submit this declaration in support of the Attorney General’s assertion of the state secrets privilege in
this case. I describe below, as best I am able to do in
unclassified terms, certain information related to FBI
counterterrorism investigations that is implicated by
the allegations of this lawsuit and which in my judgment
should be protected from disclosure to avoid significant
harm to national security. 1 As an original FBI classification authority and the official charged with general
supervisory responsibilities for the FBI’s counterterrorism investigations, I have concluded that the unauthorized disclosure of the privileged information described herein reasonably could be expected to cause
significant harm to the national security.
SUMMARY

3. I have reviewed the Complaint in this matter and
I am aware of the allegations it contains that the FBI,
through Craig Monteilh acting as an informant for the
FBI in an investigation known as Operation Flex, infiltrated mosques in Southern California and indiscriminately collected personal information on hundreds and

I am also separately providing a declaration solely for the Court’s
ex parte, in camera review, that discusses these matters in more detail with reference to information that cannot be disclosed on the
public record.
1

43
perhaps thousands of innocent Muslim Americans, including the three named plaintiffs, Yassir Fazaga, Ali
Uddin Malik and Yasser AbdelRahim, due solely to their
religion. See Complaint, ¶¶ 1-3, 6, 84. The plaintiffs
specifically allege that, after attacks of September 11 ,
2001, the FBI has improperly focused its counterterrorism efforts on the Muslim community in the United
States. See id. ¶¶ 24-27. The plaintiffs also cite guidelines issued by the Attorney General for counterterrorism investigations and assert that “the combined effect”
of these guidelines was to authorize the FBI to engage
in intrusive investigation of First Amendment protected
activity, and specifically religious practices, without any
factual basis to believe any criminal violations or threat
to national security existed. See Compl. ¶¶ 28-35.
Plaintiffs also allege that guidelines issued by the Attorney General in 2008, as well as the FBI’s Domestic Intelligence and Operations Guides (“DIOG”) published
in December 2008, permit investigative activity “based
on extremely limited information, including information
about the First Amendment expression of subjects.”
See Compl. ¶¶ 36-37. Accordingly, this lawsuit puts at
issue whether the FBI has undertaken counterterrorism investigative activity of Muslim Americans and
mosques in Southern California, and of the three plaintiffs in particular, through the use of Monteilh as an informant, which was impermissibly based solely on religion or First Amendment-protected activities.
4. The Attorney General Guidelines and FBI policies cited by the plaintiffs in the Complaint include a
prohibition on the FBI's undertaking investigative activity based solely on First Amendment activities. For
example, The Attorney General’s Guidelines for FBI

44
National Security Investigations and Foreign Intelligence Collection, effective October 31, 2003 (Excerpts at
Tab 1) (“AG 2003”), and the Guidelines which superseded them, The Attorney General’s Guidelines for Domestic FBI Operations issued by the Attorney General
on September 29, 2008 (Excerpts at Tab 2) (“AG 2008”),
state: “These guidelines do not authorize investigating
or collecting or maintaining information on United
States persons solely for the purpose of monitoring activities protected by the First Amendment or the lawful
exercise of other rights secured by the Constitution or
laws of the United States.” See Tab 2, AG 2008 at 13;
see also Tab 1, AG 2003 at 7-8.
5. Likewise, the FBI’s DIOG contains an extensive
discussion of the FBI’s policy to undertake its investigations with full adherence to the Constitutional protections and civil liberties of the American people. See
Tab 3 (DIOG Excerpts). In particular, the DIOG prohibits investigative activity conducted for the sole purpose of monitoring the exercise of Constitutional rights
or on the basis of race, ethnicity, national origin, or religion. See DIOG at 21-38. Under the DIOG, there must
be an authorized purpose for investigative activity that
could have an impact on religious practice. Id. at 21.
The DIOG provides that an authorized purpose of FBI
investigative activity must avoid actual—and the appearance of—interference with religious practice to the
maximum extent possible. Id. at 27. The DIOG also
explains, however, that this policy does not mean that
religious practitioners or religious facilities are completely free from being examined as part of FBI investigative activity. If such practitioners are involved in
—or such facilities are used for—activities that are the

45
proper subject of FBI-authorized investigative or intelligence collection activities, religious affiliation does not
immunize them to any degree from FBI investigative action. Id. Nonetheless, FBI policy states that the authorized purpose of an investigation must be properly
documented and that investigative activity directed at
religious leaders or occurring at religious facilities must
be focused in time and manner so as not to infringe on
legitimate religious practice by any individual but especially by those who appear unconnected to the activities
under investigation. Id.
6. Addressing plaintiffs’ allegations in this case will
risk or require the disclosure of certain sensitive information concerning counterterrorism investigative activity in Southern California, including in particular the nature and scope of Operation Flex. As indicated below,
the FBI previously has acknowledged that it utilized
Mr. Monteilh as a confidential human source and has
disclosed some limited information concerning his actions. However, certain specific information pertinent
to the allegations about Operation Flex and Monteilh’s
activities remains highly sensitive information concerning counterterrorism matters that if disclosed reasonably could be expected to cause significant harm to national security. As described below, this includes:
(i) the identities of individuals who have or have
not been the subject of counterterrorism investigations, including in Operation Flex, and the status and
results of any such investigations;
(ii) information concerning why particular individuals were subject to investigation, including in Operation Flex; and

46
(iii) particular sources and methods used in obtaining information for counterterrorism investigations,
including in Operation Flex.
BACKGROUND
A.

The Continuing Terrorist Threat Since September 11,
2001

7. Before describing the information that the FBI
seeks to protect in this case through the Attorney General’s privilege assertion, I set forth some background
on the FBI’s counterterrorism actions since the 9/11 attacks. FBI Director Robert Mueller has made clear
that the FBI's number one priority continues to be the
prevention of terrorist attacks against the United
States. 2 As Director Mueller explained in Congressional testimony, since the 2001 terrorist attacks, al
Qaeda’s intent to conduct high-profile attacks inside the
United States has been unwavering. Recent investigations reveal that the group has adapted its strategy for
conducting such attacks. In the immediate aftermath
of 9/11, al Qaeda’s plots and plans primarily focused on
using individuals from the Middle East or South Asia for
such attacks. More recent plots—beginning in August
2006 with the attempted plan to commit attacks against
U.S.-bound aircraft using improvised explosive devices
—suggest al Qaeda is also putting more emphasis on
finding recruits or trainees from the West to play key
roles for these homeland specific operations.
See Testimony of Director Mueller before the Senate Committee
on Homeland Security and Governmental Affairs (Sept. 22, 2010)
(available at http://www.fbi.gov/news/testimony/nine-years-after-911-confronting-the­terrorist-threat-to-the-u.s (last visited on July
20, 2011).
2

47
8. Al Qaeda’s effort to recruit, train, and deploy operatives to attack worldwide, but specifically in the
United States, was demonstrated with the arrest of
Najibullah Zazi, who was plotting to attack the New
York City subway system. The fact that Zazi and his
associates had access to the United States and were familiar with the environment here from an operational
security and targeting perspective demonstrates how al
Qaeda can leverage Americans. The potential exists
for al Qaeda to use and train other Americans for additional homeland attacks. Identifying these individuals
is among the FBI’s highest counterterrorism priorities.
9. A similar example may be seen in the May 2010
failed attempt of Faisal Shazad to detonate a car bomb
in Times Square, an attack for which Tehrik-e­Taliban
in Pakistan (TTP) claimed responsibility. Like al Qaeda’s
use of Zazi, TTP’s use of Shazad—a naturalized U.S. citizen who had lived for years in the United States—to attempt to attack the homeland underscores the operational role people in the United States can play for al
Qaeda and its affiliates. Similarly, al Qaeda of the Arabian Peninsula (AQAP) demonstrated its intent to target the U.S. homeland in the failed attempt by Umar
Farouk Abdulmutallab to bomb Northwest Flight 253 to
Chicago on December 25, 2009. Much like the other attacks, AQAP was able to identify a willing recruit who
was committed to attacking the United States and whose
background did not raise traditional security scrutiny.
10. The threat of homegrown violent extremists—
those who have lived primarily inside the United States
and may commit acts of violence in furtherance of the
objectives of a foreign terrorist organization—also remains a particular concern. Such individuals may be

48
inspired by the global jihadist movement to commit violent acts inside the United States but do not necessarily
receive direct guidance from terrorist groups overseas.
A good example of this type of homegrown threat occurred in the Los Angeles area. On September 11,
2005, a group of armed men planned to enter a military
recruiting center on a busy street in Santa Monica and
kill everyone inside. Their plan was to then go underground for a month and re-emerge on Yom Kippur.
They plotted to open fire on families gathered outside a
temple in West Los Angeles, preparing to celebrate the
holy day. The members of this homegrown cell planned
these attacks in a jail cell in Folsom Prison. They had
no official connection to al Qaeda, but they had adopted
its cause. They had raised the money, recruited the
participants, chosen the targets, obtained the weapons,
and set the date. These terrorists were poised to
strike, but they made a key mistake by first committing
a series of gas station robberies to raise money to finance their attacks. Police in Torrance, California, arrested two of the men for robbery and, when their apartment was searched, documents were discovered that
listed the addresses of military recruiting stations and
local synagogues. The Torrance police then contacted
the Los Angeles Joint Terrorism Task Force (JTTF).
From that point, hundreds of investigators worked at an
FBI command post to identify other members of the
cell. Ultimately, the FBI, working through the JTTF,
was able to disrupt this particular home grown attack.
But the threat of such attacks persists, and the FBI continues to devote extensive effort to detecting and preventing other such attacks.

49
B.

The FBI’s Use of Monteilh as Confidential Source

11. In 2009, the FBI acknowledged that it utilized
Monteilh as a confidential human source during a criminal proceeding in this district involving Ahmadullah Niazi. 3 From 2006-2007, Monteilh reported on a group of
counterterrorism investigations that was given the
name Operation Flex.
Operation Flex focused on
fewer than 25 individuals and was directed at detecting
and preventing possible terrorist attacks. The goal of
Operation Flex was to determine whether particular individuals were involved in the recruitment and training
of individuals in the United States or overseas for possible terrorist activity.
12. The FBI has previously disclosed some of the actions Mr. Monteilh undertook as a confidential informant for the FBI and some of the information he collected
for the FBI. Specifically, during the Niazi criminal
case noted above, the FBI disclosed to the defendant in
that case the content of some of the audio and video recordings containing conversations between Mr. Monteilh and the defendant and others. The FBI also
acknowledged in the Niazi case that Mr. Monteilh provided handwritten notes to the FBI, and it produced cer-

In the criminal case United States v. Ahmadullah Niazi,
U.S.D.C., C.D. Cal., No. SACR 09-28-AN, FBI Special Agent Thomas
Ropel testified at a detention hearing in that case that an FBI informant who had provided information concerning Mr. Niazi was the
same person Mr. Niazi had reported to the FBI as a possible terrorist. Although SA Ropel did not identify Mr. Monteilh by name, Mr.
Niazi knew that Monteilh was the person he had reported to the FBI
as a possible terrorist. (The Niazi indictment in that criminal case
was later dismissed by the United States without prejudice.)
3

50
tain notes provided by Mr. Monteilh concerning Mr. Niazi. The FBI is presently assessing whether additional
audio, video, or notes can be disclosed without risking
disclosure of the privileged information described below
and significant harm to national security interests in
protecting counterterrorism investigations.
13. However, as set forth below, the FBI must protect certain specific information concerning counterterrorism investigative matters related to the allegations
of this case, including Operation Flex in which Monteilh
was involved. In particular, the FBI cannot publicly
disclose the identities of specific subjects of counterterrorism investigations (some of which remain open), the
identities of those who have not been subject to investigation, the precise number of Operation Flex subjects,
the reasons particular individuals were subject to investigation, or particular sources and methods of investigation used in counterterrorism cases.
14. Monteilh has provided numerous statements to
the media discussing his purported activities on behalf
of the FBI. He has also filed his own lawsuit against
the FBI and agents in their personal capacity in which
he makes allegations related to his work as an FBI
source. See Monteilh v. FBI, et al., U.S.D.C., C.D.
Cal., Civil Action No. 10-102. The FBI has not confirmed or denied any of Monteilh’s public allegations
concerning his work for the FBI, and his allegations do
not constitute a disclosure or confirmation by the FBI
of any information concerning his activities as an informant.

51
INFORMATION SUBJECT TO STATE SECRETS
PRIVILEGE AND HARM TO NATIONAL SECURITY
FROM DISCLOSURE

15. The categories of information that the FBI seeks
to protect in this case through the Attorney General’s
privilege assertion are described below. Upon my personal consideration, I have determined that disclosure
of information in these categories reasonably could be
expected to cause significant harm to national security:
(1) Subject Identification: Information that could
tend to confirm or deny whether a particular individual was or was not the subject of an FBI counterterrorism investigation, including in Operation Flex.
(2) Reasons for Counterterrorism Investigations and
Results: Information that could tend to reveal the
initial reasons (i.e. predicate) for an FBI counterterrorism investigation of a particular person (including
in Operation Flex), any information obtained during
the course of such an investigation, and the status
and results of the investigation. This category includes information obtained from the U.S. Intelligence Community related to the reasons for an investigation.
(3) Sources and Methods: Information that could
tend to reveal whether particular sources and methods were used in a counterterrorism investigation of
a particular subject, including in Operation Flex.
This category includes previously undisclosed information related to whether court-ordered searches or
surveillance, confidential human sources, and other
investigative sources and methods, were used in a

52
counterterrorism investigation of a particular person, the reasons such methods were used, the status
of the use of such sources and methods, and any results derived from such methods. 4
I.

Subject Identification and Reasons for Investigation

16. The FBI seeks to protect through the Attorney
General's privilege assertion information that would
confirm or deny whether particular individuals were the
subjects of FBI counterterrorism investigations, and
the predicate for, information obtained in, and the status
and results of any counterterrorism investigations action of particular persons. I describe below in unclassified terms why the disclosure of such information reasonably could be expected to cause significant harm to
national security. I address first the process for approval and oversight of FBI counterterrorism investigations under then-applicable Attorney General Guidelines.
A.

Counterterrorism Guidelines Applicable to Operation Flex

17. At the time the investigations at issue in this
case were opened, the October 31, 2003 Attorney General Guidelines for FBI National Security Investigations and Foreign Intelligence Collection (NSIG) were

This description of the broad categories of information subject
to the Attorney General’s claim of privilege is not meant to foreclose
the possibility that other information related to FBI counterterrorism investigations including Operation Flex may be identified in
later proceedings as subject to privilege.
4

53
in effect. The NSIG authorized three levels of investigative activity: threat assessments, preliminary investigations and full investigations.
18. The 2003 AG Guidelines authorized the FBI to
undertake threat assessments to proactively draw on
available sources of information to identify terrorist
threats and activities through non-intrusive investigative techniques, including obtaining publicly available
information, accessing information available within the
FBI and Department of Justice, requesting information
from other government entities, using online resources,
interviewing previously established assets, and conducting non-pretextual interviews of members of the public
and private entities. The authority to undertake threat
assessments could be used in cases in which information
or an allegation concerning possible terrorist activity or
other national security threats by an individual, group,
or organization were received by the FBI and the matter could be checked promptly through the relatively
non-intrusive means described above.
19. A Preliminary Investigation could be initiated
under the 2003 guidelines to determine whether a full
investigation was appropriate based upon “information
or an allegation” indicating a threat to the national security, for example, that an individual is or may be an
international terrorist or an agent of a foreign power; an
individual, group or organization is or may be engaging,
or has or may have engaged, in activities constituting a
threat to the national security (or related preparatory
or support activities) for or on behalf of a foreign power;
or an individual, group or organization is, or may be, the
target of a recruitment or infiltration effort by an international terrorist, foreign power, or agent of a foreign

54
power under circumstances related to a threat to the national security. Most Preliminary Investigations could
be approved by either the Special Agent in Charge
(SAC) of the field office or, as authorized by the Special
Agent in Charge, by an Assistant Special Agent in
Charge (ASAC) or squad supervisor with responsibility
for national security investigations. A field office was
required under the 2003 guidelines to notify FBI Headquarters of the initiation of the investigation and to identify the grounds for the investigation. FBI Headquarters, in turn, was required to provide notice of the initiation of the investigation to the Department of Justice’s
Office of Intelligence Policy and Review (OIPR). 5 All
lawful investigative techniques could be used in a Preliminary Investigation except for mail opening, physical
search, or electronic surveillance requiring judicial order or warrant.
20. A Preliminary Investigation was to be completed
within six months of the date of initiation, but if warranted by facts or information obtained in the course of
the investigation, senior field office managers could authorize a six-month extension. An extension of a Preliminary Investigation beyond the initial one-year period required FBI Headquarters approval and could be
granted in six-month increments. FBI Headquarters
was required to notify OIPR of any extensions by FBI
Headquarters beyond the initial one-year period.

The Office of Intelligence Policy and Review became part of the
National Security Division (NSD) in the Department of Justice and
has been renamed the Office of Intelligence.
5

55
21. A Full Investigation was authorized under the
same circumstances as a Preliminary Investigation except that instead of “information or an allegation” of a
threat to the national security the SIG required that
“specific and articulable facts” gave reason to believe
that a threat to the national security may exist. Most
Full Investigations could be approved by either the SAC
of the field office or, as authorized by the SAC, by an
ASAC. The notice requirements for the initiation of a
Full Investigation were the same as for the initiation of
a Preliminary Investigation. All lawful investigative
techniques could be used in a Full Investigation. The
FBI was required under the 2003 guidelines to notify
OIPR and the Criminal Division at the end of each year
a full investigation continued and to provide OIPR and
the Criminal Division with a summary of the investigation.
22. All of the investigations of Operation Flex subjects were opened with supervisory authority and subject to internal FBI and DOJ oversight.
B.

Harm to National Security from Disclosure of
Counterterrorism Investigation Subjects and
Reasons for Investigation

23. Disclosure of the identity of subjects of counterterrorism investigations could reasonably be expected
to result in significant harm to national security. First,
disclosure of the subjects of open counterterrorism investigations would obviously alert those subjects to the
fact of the FBI’s current interest in them. Such knowledge would cause significant harm to FBI counterterrorism investigations, as subjects could attempt to flee,
destroy evidence or take steps to alter their conduct so

56
as to avoid detection of their future activities by law enforcement. In these circumstances, law enforcement
and intelligence officers would be significantly hindered
in gathering further intelligence on their activities or determine their whereabouts. In addition, knowledge that they
were under investigation might enable subjects to anticipate the activities of law enforcement and intelligence officers, perhaps conducting counter-surveillance activities
that could place Federal agents at greater risk. Such
knowledge would also alert associates of the subjects to
the fact that the FBI is likely aware of their associations
with the subject, causing them to take similar steps to
avoid scrutiny. Disclosing the identities of counterterrorism subjects also could enable subjects to ascertain the
identities of confidential informants or other sources of intelligence, putting those sources at risk.
24. Disclosure that an individual is not a subject of a
national security investigation also reasonably could be
expected to cause significant harm to national security.
Individuals or terrorist groups could manipulate the
system to discover whether they or their members are
subject to investigation. Disclosure that some persons
are not subject to investigation, while the status of others is not confirmed, would inherently reveal that concerns remains as to particular persons. Also, if individuals desire to commit terrorist acts, notification that
they are not under investigation would inform them that
they can move without detection. Indeed, confirmation
that an individual is not under investigation could provide an incentive to those so inclined to commit a terrorist act before becoming subject to investigative interest.
25. Similarly, even where an investigation has been
closed, disclosing that an individual formerly was the

57
subject of a counterterrorism investigation reasonably
could be expected to cause significant harm to national
security. Disclosure that an individual had been, but is
no longer, under investigation might induce that subject
to evaluate previous conduct and interactions to determine what information the Government may have obtained about them. As noted, to the extent that the individual's terrorism-related intentions were not previously detected and the individual later decided to undertake terrorist activity, knowing one was no longer the
subject of investigative interest might embolden that
person to operate confident that there is not a threat of
detection. In addition, the fact that investigations are
closed typically does not indicate that the subjects have
been “cleared” of wrongdoing. Closed cases are often
reopened based on new information.
26. Even if individuals are entirely law-abiding, disclosure that they were once, but no longer are, the subjects of counterterrorism investigations would provide
valuable intelligence to suspected terrorists and terrorist
organizations regarding the intelligence and suspicions
the FBI has regarding them. Indeed, even if the FBI
has closed an investigation on one subject, it may have
open investigations on the associates of that subject who
are engaged in or still suspected of ties to terrorist activity. Disclosing that investigations on certain persons
are closed where the FBI has not found a current nexus
to terrorism could still alert their associates of the FBI
interests in them, which could lead these associates to destroy evidence or alter their conduct so as to avoid detection of their future activities by law enforcement.
27. In addition, disclosure that a person had been a
subject of a closed counterterrorism investigation would

58
also provide an important insight into the FBI’s investigative sources and methods. The FBI may open a counterterrorism investigation based on an individual’s association with a subject of another open counterterrorism
investigation, when the association is close enough to indicate a threat to the national security. If the subjects
of FBI investigations were disclosed, individuals closely
associated with that subject would be on notice that they
may be subjects of investigations, and thus take steps to
avoid detection.
28. Even if a person believes that he or she might
have been under investigation based on unconfirmed
public speculation or other information, confirmation of
that fact by the Government in litigation would remove
all doubt and would not only confirm who was or was not
subject to investigation, but would tend to reveal why
the Government had a particular interest or concern
with certain individuals. This would inherently reveal
the focus (or lack thereof ) of investigative action.
29. Similarly, disclosure of the substance of a counterterrorism investigation—whether the initial predicate, information gained during the investigation, status, and results—would reveal a range of sensitive counterterrorism investigative in formation, even if the investigation does not identify any nexus to terrorism.
There is, first, the obvious harm of revealing to subjects
who may in fact be bent on terrorist activity what the
FBI knows or does not know about their plans and the
threat they pose to national security. Even if a person
is not intent on committing terrorist acts, the reasons
they came under suspicion may involve sensitive intelligence information about them, their associates, or a particular threat, the disclosure of which could harm other

59
pending or future investigations. More generally, disclosure of the reasons for an investigation could indicate
what kind of information is sufficient to trigger an inquiry by the FBI, thus providing insights to those intent
on terrorism on how to avoid detection. Finally, as discussed further below, disclosure of the reasons for an investigation may reveal sensitive sources and methods related to how the FBI may obtain information on a person.
II. FBI Investigative Sources, Methods, Techniques in
Operation Flex

30. The FBI also seeks to protect through the Attorney General’s privilege assertion information that would
tend to describe, reveal, confirm or deny the existence
or use of FBI investigative sources, methods, or techniques of counterterrorism investigations that were utilized in Operation Flex against particular subjects.
This category includes previously undisclosed information related to whether court-ordered searches or
surveillance, confidential human sources, and other investigative sources and methods, were used in a counterterrorism investigation of a particular person, the
reasons such methods were used, the status of the use
of such sources and methods, and any results derived
from such methods
31. The disclosure of the information in this category reasonably could be expected to cause significant
harm to the national security. The disclosure of sources
and methods used in a particular investigation would reveal not only the identities of particular subjects but the
steps taken by the FBI in counterterrorism investigations. FBI sources and methods for investigating potential terrorist threats are of the utmost significance,
because the FBI’s top priority is to detect and prevent

60
terrorist attacks. The disclosure of sources and methods, such as confidential human sources, the existence
of surveillance, and the use of other techniques, would
provide a roadmap to adversaries as to how the FBI
goes about this vital task. For these reasons, disclosure of the sources and methods used by the FBI in a
particular counterterrorism investigation, including in
Operation Flex, reasonably could be expected to cause
significant harm to national security.
CONCLUSION

32. For the reasons set forth above, based on my
personal consideration of the matter, I have determined
that disclosure of the information in the three categories
described above reasonably could be expected to cause
significant harm to national security. I refer the Court
to my classified declaration, submitted solely for in
camera, ex parte review, for further details concerning
the information subject to the Attorney General’s privilege assertion.
I declare under penalty of perjury that the foregoing
is true and correct.
DATE:

[7/25/11]
/s/

MARK F. GIULIANO
MARK F. GIULIANO
Assistant Director
Counterterrorism Division
Federal Bureau of Investigation
Unites States Department of Justice

61
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

Case No.: SA CV 11-00301 CJC (VBKx)
YASSIR FAZAGA, ALI UDDIN MALIK, YASSER
ABDELRAHIM, PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION; UNITED STATES
OF AMERICA; ROBERT MUELLER, DIRECTOR OF THE
FEDERAL BUREAU INVESTIGATION, IN HIS OFFICIAL
CAPACITY; STEVEN MARTINEZ, ASSISTANT DIRECTOR
IN CHARGE, FEDERAL BUREAU OF INVESTIGATION’S
LOS ANGELES DIVISION, IN HIS OFFICIAL CAPACITY;
J. STEPHEN TIDWELL; BARBARA WALLS; PAT ROSE;
KEVIN ARMSTRONG; PAUL ALLEN; DOES 1-20,
DEFENDANTS

Filed: [Sep. 13, 2011]
FIRST AMENDED COMPLAINT
CLASS ACTION

Before:

HONORABLE CORMAC J. CARNEY.
PRELIMINARY STATEMENT

1. This case concerns an FBI-paid agent provocateur who, by misrepresenting his identity, infiltrated
several mainstream mosques in Southern California,
based on the FBI’s instructions that he gather information on Muslims.
2. The FBI then used him to indiscriminately collect personal information on hundreds and perhaps

62
thousands of innocent Muslim Americans in Southern
California. Over the course of fourteen months, the
agents supervising this informant sent him into various
Southern California mosques, and through his surveillance gathered hundreds of phone numbers, thousands
of email addresses, hundreds of hours of video recordings that captured the interiors of mosques, homes, businesses, and the associations of hundreds of Muslims,
thousands of hours of audio recording of conversations
—both where he was and was not present—as well as
recordings of religious lectures, discussion groups, classes, and other Muslim religious and cultural events occurring in mosques.
3. This dragnet investigation did not result in even
a single conviction related to counterterrorism. This is
unsurprising, because the FBI did not gather the information based on suspicion of criminal activity, but instead gathered the information simply because the targets were Muslim.
4. Ironically, the operation ended when members of
the Muslim communities of Southern California reported
the informant to the police because of his violent rhetoric,
and ultimately obtained a restraining order against him.
5. After this, the informant's identity was revealed,
first in court documents where the FBI and local law enforcement revealed his role, and then through his own
statements which were reported widely in the press. 1
See, e.g., Jerry Markon, Tension grows between Calif. Muslims,
FBI after informant infiltrates mosque, WASH. POST (Dec. 5, 2010);
Gillian Flaccus, Calif. case highlights use of mosque informants,
ASSOC. PRESS (Mar. 1, 2009); Matt Coker, A look at Craig
1

63
6. By targeting Muslims in the Orange County and
Los Angeles areas for surveillance because of their religion and religious practice, the FBI’s operation not only
undermined the trust between law enforcement and the
Southern California Muslim communities, it also violated the Constitution’s fundamental guarantee of government neutrality toward all religions.
7. The First Amendment guarantees that no person should be singled out for different treatment by government because of his or her religion. “The First
Amendment mandates governmental neutrality between religion and religion. The State may not adopt
programs or practices which aid or oppose any religion.
This prohibition is absolute.” Larson v. Valente, 456
U.S. 228, 246 (1982) (quotations and citations omitted).
8. By this class action, Plaintiffs seek injunctive relief for themselves and the class of individuals whom Defendants subjected to surveillance and gathered identifiable information about because they are Muslim.
Specifically, they seek an order requiring the federal
government to destroy the information about them
which it collected through this unlawful operation. The
named Plaintiffs also seek damages for themselves as
individuals based on the claims set forth below.
JURISDICTION AND VENUE

9. This Court has subject matter jurisdiction pursuant to 28 U.S.C. § 1331. Because this lawsuit alleges
violation of the United States Constitution and federal
statutes, it raises questions of federal law. Because
Monteilh, OC WEEKLY (Mar. 4, 2009); Teresa Watanabe and
Paloma Esquivel, L.A. area Muslims say FBI Surveillance has a
chilling effect L.A. TIMES (Mar. 1, 2009).

64
those violations include violations of 42 U.S.C. § 1985
and laws to protect civil rights, this Court also has jurisdiction under 28 U.S.C. § 1343. Because those violations include violations of the Privacy Act, see 5 U.S.C.
552a(e)(7), this Court also has jurisdiction under 5
U.S.C. 552a(g)(l)(D).
10. This Court has the authority to grant damages,
declaratory and injunctive relief, and any other appropriate relief pursuant to Bivens v. Six Unknown Agents,
403 U.S. 388 (1971); 28 U.S.C. 1331; 28 U.S.C. § 1343; 42
U.S.C. § 1985; 42 U.S.C. § 2000bb; 5 U.S.C. 552a; and
the Declaratory Judgment Act, 28 U.S.C. §§ 2201 and
2202. A substantial, actual, and continuing controversy
exists between the parties, with respect to both the
class’s claim for injunctive relief in the form of file destruction and the individual claims for damages.
11. Venue is proper in the Central District of California under 28 U.S.C. § 1391(b) because a substantial
part of the events or omissions giving rise to the claims
herein occurred in this District.
PARTIES

12. Plaintiff Sheikh Yassir Fazaga is a thirty-eight
year-old U.S. citizen born in Eritrea, who moved to the
United States at age fifteen and attended high school in
Orange County. From about 1998 to the present, Plaintiff Fazaga served as an imam, or religious leader, of the
Orange County Islamic Foundation, a mosque in Mission Viejo, California. His duties there have included
directing the religious affairs of the mosque, leading

65
prayer, and conducting educational, spiritual, and recreational activities for the entire mosque community and
its youth. 2
13. Plaintiff Ali Malik is a twenty-six year-old U.S.
citizen born in Southern California. Malik’s parents
came to the United States from Pakistan before he was
born. From the time of his birth through the events
alleged herein, Plaintiff Malik resided in and around Orange County, California. Plaintiff Malik is a practicing
Muslim who, from about 2004 through the events alleged
herein, regularly attended religious services at the Islamic Center of Irvine (“ICOI”), a mosque in Irvine, California. ICOI is a mainstream mosque and one of the
largest mosques in Southern California, with a congregants at times numbering in the thousands, including
Muslims from a wide variety of national and ethnic backgrounds.
14. Plaintiff Yasser AbdelRahim, is a thirty-four
year-old lawful permanent resident of the United States,
who emigrated from Egypt when he was twenty-one
years old. Plaintiff AbdelRahim first attended business school in Arizona, then moved to Southern California after he obtained his degree in 1999 to work in business consulting. AbdelRahim is a practicing Muslim
and has attended religious services regularly at ICOI
since about 2005.
15. Defendant the Federal Bureau of Investigations
(FBI) is an agency of the United States government
within the meaning of the Privacy Act and the Federal
Tort Claims Act. It maintains records on individual
Plaintiff Fazaga’s legal name is Yassir Mohammed; but he uses
the name “Fazaga” in all his personal and professional dealings.
2

66
whom its agents have investigated, including Plaintiffs
and the putative class they seek to represent. The FBI
is sued for injunctive relief only.
16. Defendant Robert Mueller is the Director of the
FBI. In that capacity he is responsible for the direction and oversight of all operations of the FBI, including
the retention of records arising out of the investigations
of FBI agents. He is sued in his official capacity for
injunctive relief only.
17. Defendant Steven M. Martinez is the Assistant
Director In Charge of the FBI’s Los Angeles Field office. 3 In that capacity, he is responsible for the direction and oversight of all operations of the FBI in Los
Angeles and Orange Counties, including the retention of
records arising out of the investigations of FBI agents
in his jurisdiction. He is sued in his official capacity for
injunctive relief only.
18. Upon information and belief, Defendant Kevin
Armstrong was, at all times relevant to this action, employed by the FBI, and acting within the scope of his
employment, as a Special Agent assigned to the Orange
County area, and a handler for Craig Monteilh. Agent
Armstrong met with Monteilh repeatedly and on a regular basis during the time period at issue in this lawsuit.
He directed Craig Monteilh to indiscriminately gather
information on the Muslim community in Orange County,

In addition to its national headquarters and various specialized
facilities operations, the FBI maintains 56 field offices in major cities, nearly 400 smaller offices called resident agencies in cities and
towns across the nation, and more than 60 international offices in
U.S. embassies worldwide.
3

67
and personally supervised and directed Monteilh’s surveillance activities as described herein.
19. Upon information and belief, Defendant Paul Allen was, at all times relevant to this action, employed by
the FBI, and acting within the scope of his employment,
as a Special Agent assigned to the Orange County area,
and a handler for Craig Monteilh. Agent Allen met
with Monteilh repeatedly and on a regular basis during
the time period at issue in this lawsuit. He directed
Craig Monteilh to indiscriminately gather information
on the Muslim community in Orange County, and personally supervised and directed Monteilh’s surveillance
activities as described herein.
20. Defendant J. Stephen Tidwell, at all times relevant to this action, was an employee of the FBI and acting within the scope of his employment. Defendant
Tidwell served as the Assistant Director in Charge of
the FBI’s Los Angeles Field Office from August 2005 to
December 2007, in which capacity he supervised operations in the Central District of California. Upon information and belief, Defendant Tidwell authorized the
search for an informant to go into mosques in Orange
County to collect information on Muslims, authorized
the selection of Craig Monteilh as that informant, authorized the nature and scope of the operation and its
targeting of Muslims, read Monteilh’s notes of his activities, and authorized and actively directed the actions of
Agents Armstrong, Allen, Rose, Walls and other agents
in the handling of Monteilh at all times relevant in this
action, for the purpose of surveilling Plaintiffs and other
putative class members because they were Muslim.

68
21. Upon information and belief, Defendant Barbara Walls was, at all times relevant to this action, employed by the FBI, and acting within the scope of her
employment as Special Agent in Charge of the Santa
Ana branch office, one of ten satellite offices of the FBI’s
Los Angeles field office, where she was one of the direct
supervisors of Agents Allen, Armstrong, and Rose.
Upon information and belief, Defendant Walls was regularly apprised of the information Agents Armstrong
and Allen collected through Monteilh; directed the action of FBI agents on various instances based on that
information; and actively monitored, directed, and authorized the actions of Agents Armstrong and Allen and
other agents at all times relevant in this action, for the
purpose of surveilling Plaintiffs and other putative class
members because they were Muslim. Eventually, she
ordered that Agents Armstrong and Allen cease using
Monteilh as an informant because she no longer trusted
him.
22. Upon information and belief, Defendant Pat
Rose was, at all times relevant to this action, employed
by the FBI and acting in the scope of her employment
as a Special Agent. Upon information and belief, Agent
Rose was assigned to the FBI’s Santa Ana branch office,
where she supervised the FBI’s Orange County national
security investigations and was one of the direct supervisors of Agents Allen and Armstrong. Upon information and belief, Defendant Rose was regularly apprised of the information Agents Armstrong and Allen
collected through Monteilh; directed the action of FBI
agents on various occasions based on that information;
and actively monitored, directed, and authorized the actions of Agents Armstrong and Allen and other agents
at all times relevant in this action, for the purpose of

69
surveilling Plaintiffs and other putative class members
because they were Muslim. Agent Rose also sought
additional authorization to expand the scope of the surveillance program described herein, in an effort to create a Muslim gym that the FBI would use to gather yet
more information about the class.
23. Defendant Does 1-20 are agents of the Federal
Bureau of Investigation and United States Department
of Justice, whose identities are not yet known to Plaintiffs, who authorized, directed, and actively monitored
the actions alleged herein in order to engage in surveillance of the Plaintiffs and putative class members because they were Muslim.
FACTUAL ALLEGATIONS
FBI Focus On Islam Since 2001

24. Since September 11, 2001, the FBI has focused
much of its counterterrorism efforts on broad investigations in the Muslim communities of the United States.
In the weeks and months following 9/11, the United
States detained hundreds of “suspects” across the country, the vast majority of whom were Muslim. Over the
next few years, the FBI engaged in a program to conduct interviews of thousands of individuals who had immigrated to the U.S. from countries in which intelligence allegedly indicated al-Qaeda operated, a burden
that fell overwhelmingly on Muslims. 4

Homeland Security: Justice Department’s Project to Interview Aliens after September 11, 2001, U.S. Gen. Accounting Office,
G.A.O. No. GAO-03-459 (April 2003) available at http://www.gao.gov/
new.items/d03459.pdf.
4

70
25. In January 2003, the FBI ordered its field supervisors to count the number of mosques and Muslims in
their jurisdictions to aid in counterterrorism investigations. 5
26. Starting in 2002 and continuing through 2005,
the FBI engaged in a program of monitoring radiation
levels across the country, including at more than one
hundred “Muslim sites,” though officials indicated that
religion was not the “only criterion.” According to one
official, Muslim sites were picked because, in the past,
terrorists or people close to them had tended to live in
Muslim areas or attend local mosques. 6
27. In a 2006 briefing to reporters, the FBI official
second-in-command over the National Security Branch
displayed a map of the San Francisco area showing
where Iranian immigrants were clustered—and where,
he said, an F.B.I. squad was “hunting.” 7

Eric Lichtblau, F.B.I. Tells Offices to Count Local Muslims and
Mosques, N.Y. TIMES (Jan. 28, 2003), available at http://www.nytimes.com/2003/01/28/politics/28MOSO.html.
6
Kevin Bohn and Jeanne Meserve, Officials: Muslim sites subject to secret monitoring for radiation, C.N.N. (Dec. 24, 2005), available at http://articles.cnn.com/2005-12-23/us/nuke.monitoring_1_
radiation-levels­_radioactive-material-fbi-program; Mary Beth Sheridan, Mosques Among Sites Monitored for Radiation, WASH. POST
(Dec. 29, 2005).
7
Scott Shane and Lowell Bergman, F.B.I Struggling to Reinvent
Itself to Fight Terror, N.Y. TIMES (Oct. 9, 2006), available at http://
www.nytimes.com/2006/10/10/us/10fbi.html.
5

71
Evolution of FBI Policies on Use of Religion in Investigation

28. The FBI has been accused of targeting people
based on their First Amendment activity before. During the 1960s and 1970s, domestic intelligence­gathering
activities by the FBI came under increasing scrutiny,
culminating in the “Church Committee,” a Senate Select
Committee that investigated the FBI’s COINTELPRO
operation.
29. In 1976, the Church Committee wrote that “The
Government has often undertaken the secret surveillance of citizens on the basis of their political beliefs,
even when those beliefs posed no threat of violence or
illegal acts on behalf of a hostile foreign power. The
Government, operating primarily through secret Informants . . . has swept in vast amounts of information about the personal lives, views, and associations
of American citizens. Investigations of groups deemed
potentially dangerous—and even of groups suspected of
associating with potentially dangerous organizations—
have continued for decades, despite the fact that those
groups did not engage in unlawful activity. Groups and
individuals have been harassed and disrupted because of
their political views and their lifestyles. Investigations
have been based upon vague standards whose breadth
made excessive collection inevitable.” 8

Final Report of the Select Committee to Study Governmental
Operations with Respect to Intelligence Activities, “Book II: Intelligence Activities and the Rights of Americans,” at 5, U.S. Senate,
94th Cong., 2nd Sess. (Apr. 26, 1976), available at http://www.aarclibrary.org/publib/church/reports/book2/html/ChurchB2_0009a.htm.
8

72
30. After uncovering rampant abuses in the FBI’s
domestic intelligence programs, the Church Committee
recommended a series of reforms that were ultimately
adopted, including new laws to restrict domestic surveillance for national security purposes under the Foreign
Intelligence Surveillance Act, 50 U.S.C. § 1801 et seq.,
and guidelines issued by Attorney General Edward Levi
(known as “Attorney General’s Guidelines”) to regulate
domestic intelligence­gathering by the FBI.
31. The Levi Guidelines restricted the FBI’s domestic intelligence collection authorities to investigations of
potential violations of federal law, and limited the use of
specific investigative techniques, including informants.
The Guidelines allowed the FBI to conduct full domestic
security investigations only on the basis of “specific and
articulable facts giving reason to believe that an individual or group is or may be engaged in activities which involve the use of force or violence and which involve or
will involve the violation of federal law
. . .
”9
More limited Preliminary Investigations could be authorized for 90 days based on receipt of “allegations or
other information that an individual or group is or may
be engaged in activities which involve the use of force or
violence and which involve or will involve the violation of
federal law,” but only to determine whether there is a
sufficient factual basis for opening a full investigation. 10
32. In 2002, Attorney General John Ashcroft revised
the Guidelines for General Crimes, Racketeering Enter-

FBI Statutory Charter: Hearings Before the Senate Committee on the Judiciary, 95th Cong. pt. 1, p. 22 (1978).
10
Id., at 21.
9

73
prise and Terrorism Enterprise Investigations, respectively, significantly reducing or eliminating the requirement of a factual basis to believe federal crimes would
be committed before the FBI could initiate investigations. 11 Significant changes to the General Crimes
guidelines included expanding the duration and type of
investigative techniques that could be utilized in preliminary investigations and creating new authorities for the
FBI to proactively conduct internet and commercial database searches and attend public places and events for
the purpose of detecting or preventing terrorist activities, all without any factual basis or allegation indicating
a possible violation of federal law. Attorney General
Ashcroft said terrorism prevention was the key objective of these new Guidelines, arguing that “Our philosophy today is not to wait and sift through the rubble following a terrorist attack. Rather, the FBI must intervene early and investigate aggressively where information exists suggesting the possibility of terrorism, so
as to prevent acts of terrorism. The new guidelines advance this strategy of prevention by strengthening investigative authority at the early stage of preliminary
inquiries.
Also, even absent specific investigative
predicates, FBI agents under the new guidelines are

Attorney General’s Guidelines for General Crimes, Racketeering Enterprise and Terrorism Enterprise Investigations, (May
2002), available at: http://www.fas.org/irp/agency/doj/fbi/generalcrimes2.pdf and, Attorney General’s Guidelines for National Security Investigations and Foreign Intelligence Collection, (Oct. 2003),
available at: http://www.fas.org/irp/agency/doj/fbi/nsiguidelines.pdf
11

74
empowered to scour public sources for information on
future terrorist threats.” 12
33. In June 2003 the Department of Justice issued
“Guidance on the Use of Race by Federal Law Enforcement Agencies,” purporting to ban the use of racial or
ethnic profiling. 13 This Guidance explicitly failed to include religion as an attribute that could not be used by
federal law enforcement officials in making law enforcement decisions. In addition, the Guidance contained
broad exemptions for the use of racial profiling in national security and border integrity investigations. 14
34. In October 2003 Attorney General Ashcroft revised the Guidelines for FBI National Security Investigations and Foreign Intelligence Collection, to authorize the “proactive collection of information concerning
threats to the national security, including information
on individuals, groups and organizations of possible investigative interest, and information on possible targets
of international terrorist activities or other national security threats.” 15
These Guidelines authorized the
FBI to conduct “threat assessments” without opening

Remarks of Attorney General John Ashcroft, Attorney General
Guidelines May 30, 2002, at: http://www.justice.gov/archive/ag/
speeches/2002/53002agpreparedremarks.htm
13
Department of Justice Civil Rights Division, “Guidance Regarding the Use of Race by Federal Law Enforcement Authorities, (June
2003), available at:
http://www.scribd.com/doc/22092319/DOJGuidance-Regarding-the-Use-of-Race­by-Federal-Law-EnforcementAgencies-June-2003.
14
Id.
15
Attorney General Guidelines for FBI National Security Investigations and Foreign Intelligence Collection (Oct. 2003), available at:
http://www.fas.org/irp/agency/doj/fbi/nsiguidelines.pdf
12

75
preliminary or full investigations—in other words without the required factual basis to justify such investigations. 16
35. The combined effect of these Guidelines and
Guidance was to authorize the FBI to engage in intrusive investigations of First Amendment protected activity, and specifically religious practices, without any factual basis to believe any criminal violations or threat to
the national security existed.
36. In 2008, Attorney General Mukasey revised the
guidelines further, explicitly eliminating the need for
any factual predicate before FBI agents are allowed to
conduct a new category of investigation called “assessments.” The 2008 revisions allow FBI agents to use an
array of intrusive investigative techniques during assessments, including physical surveillance, recruiting
and tasking informants, and pre-textual interviews by
FBI agents acting in ruse. In response, the FBI revised its internal policy, publishing the FBI’s Domestic
Intelligence and Operations Guides (“DIOG”) in December 2008. 17 The DIOG only requires an “authorized
purpose” to conduct an assessment, which is defined
broadly as “a national security, criminal or foreign intelligence collection purpose.” 18 Requiring only an authorized purpose rather than a factual predicate means
that the authority to conduct investigations in this cate-

Id., at 3.
Federal Bureau of Investigation Domestic Investigations and Operations Guide, (Dec. 2008), available at: http://www.muslimadvocates.
org/DIOGs_ptl.pdf
18
DIOG p. 21.
16
17

76
gory is based on the subjective intent of the agent, rather than any factual information regarding the potential subjects of the assessment establishing suspicion of
wrongdoing.
Moreover, the DIOG authorizes FBI
headquarters and field offices to conduct “Domain Management” assessments to “identify locations of concentrated ethnic communities in the Field Office’s domain”
and to collect, analyze and map racial and ethnic “behaviors,” “cultural traditions,” and “life style characteristics” in local communities.
FBI Director Robert
Mueller issued a broad mandate for FBI offices to “know
your domain,” which meant “understanding every inch of
a given community—its geography, its populations, its
economy, and its vulnerabilities.” 19 Domain Management assessments appear to be mandated as a matter of
course, and require no specific threat or criminal predicate to justify the collection of information regarding
the makeup of American communities.
37. Upon information and belief, Defendants operated under the principles set forth in the revised
Mukasey Guidelines and DIOGs even before the Attorney General formally issued them. For instance, a
2010 report by the Department of Justice Inspector
General revealed that from 2002 to 2006 the FBI engaged in a number of investigations of domestic advocacy groups based on “factually weak” or “speculative”
predication. 20 The Inspector General (IG) determined
Robert Mueller, Speech to the International Association of
Chiefs of Police, San Diego, CA California, Nov. 10, 2008, at: http://www.
fbi.gov/news/speeches/using­intelligence-to-protect-our-communities
(last visited Sept. 13, 2011).
20
Department of Justice Inspector General Review of FBI's Investigations of Certain Advocacy Groups (Sept 2010) (hereinafter
19

77
many of the investigations were opened based upon the
FBI agents’ mere speculation that the individuals or
groups might commit some federal crime in the future.
The IG determined that most of these investigations did
not violate the 2002 Attorney General’s Guidelines in effect at the time because all that was required to initiate
a preliminary inquiry was “information indicating the
possibility of a federal crime,” which illustrated “the
broad scope of the FBI’s authority under the Attorney
General’s Guidelines to open preliminary inquiries
based on extremely limited information, including information about the First Amendment expressions of subjects.” 21 Moreover, the IG noted that while the FBI’s
collection and retention of First Amendment material in
these cases often violated the 2002 Guidelines, it would
not have violated the revised 2008 Guidelines: “Therefore, some of the violations of policy we found in this review would not be violations if they occurred today.” 22
Additionally, a 2006 New York Times report indicated
that FBI Associate Executive Assistant Director Phil
Mudd was “pitching” a vague domestic intelligence program called “Domain Management,” which vaguely implied “ethnic targeting.” 23
38. Upon information and belief, trainings offered
by the FBI have also reflected broad generalizations
“IG Report”): http://www.justice.gov/oig/special/s1009r.pdf (last
visited Sept. 13, 2011).
21
IG Report at 87.
22
IG Report at 189.
23
Scott Shane and Lowell Bergman, “FBI Struggling to Reinvent
Itself to Fight Terror,” NY Times (Oct. 10, 2006), available at
http://www.nytimes.com/2006/l0/10/us/10fbi.html (last visited Sept.
13, 2011).

78
about Muslims supporting the view that Islam and those
who practice it inherently condone violence and should
be regarded with suspicion. As recently as 2009, the
FBI training for newly recruited agents included a
power-point presentation that makes gross generalizations about Islam and Muslims. The presentation included slide entitled “Islam 101” that stated Islam
“transforms country’s culture into 7th century Arabians
ways” and claimed that “it is characteristic of the Arabic
mind to be swayed more by words than ideas and more
by ideas than by facts.” Of the eight books that the
training listed as “recommended reading,” at least three
of them have been widely criticized as setting forth stereotypes about Muslims and Islam. Two listed were by
Robert Spencer, founder of the group “Stop the Islamization of America,” including his book, “The Politically
Incorrect Guide to Islam,” which asserts on its cover (reproduced in the training’s slides) that “Islam teaches
that Muslims must wage war to impose Islamic law on
non-Muslim states” and “American Muslim groups are
engaged in a huge cover-up of Islamic doctrine and history,” and has chapters titled “The Qur’an: Book of
War,” “Islam: Religion of War” and “Islamic Law:
Lie, Steal and Kill,” in which it argues that Islam condones violence, criminality, and terrorism. 24
39. Upon information and belief, William Gawthrop,
an FBI senior intelligence analyst who has presented
and continues to present trainings at conferences to local law enforcement, has offered trainings or training
Spencer Ackerman, FBI ‘Islam 1O1’ Guide Depicted Muslims
as 7th-Century Simpletons, WIRED (July 27, 2011), available at
http://www.wired.com/dangerroom/2011/07/fbi-islam-101-guide (last
visited Sept. 13, 2011).
24

79
materials on the “Sources and Patterns of Terrorism in
Islamic Law” in which he takes selected quotes from
Quran and other Islamic texts out of context to teach
that Islam inherently mandates violent action against
non-Muslims.
FBI Investigation of Muslims in Orange County, California

40. Approximately 500,000 Muslims live in Southern
California, more than 120,000 of them in Orange County,
making the area home to the second­largest population
of Muslims in the United States.
41. The FBI has surveilled Muslims in Southern
California and Orange County for at least several years.
42. In about late 2001 or 2002, the FBI approached
at least one Muslim leader asking who the Muslim leaders in the Southern California area are and for a list of
mosques.
43. In May 2006, Defendant Rose, a supervisor of
the FBI’s Orange County counterterrorism operations,
spoke to the Pacific Club in Irvine about the FBI’s counterterrorism efforts. There, she stated that “[t]here
are a lot of individuals of interest right here in Orange
County.” 25 She described recent efforts the FBI had
taken in the region: planting bugs and closed-circuit
TV cameras, examining computer use and email, and establishing units on both foreigners and domestic suspects. She indicated that the FBI frequently received
Frank Mickadeit, Feds warn O.C. of terror lurking ‘down the
street’, THE ORANGE COUNTY REGISTER (May 25, 2005), available at
http://www.ocregister.com/news/fbi-194882-county-orange.html (last
visited Sept. 13, 2011).
25

80
calls from people who wanted to tell them about situations like a Muslim neighbor who is changing his license
plates or someone who has an apartment with only a
mattress and five computers, stating, “I can’t tell you
how many” tips like that paid off. When asked whether
citizens should be worried about activist Muslim students at University of California at Irvine, Rose characterized that as a “tough question,” but indicated the FBI
was aware of large numbers of Muslim students at UCI
and the University of Southern California. “We live in
Irvine. I can’t tell you how many subjects’ names come
up, and they live right down the street from me,” she
stated. “I think we need to be concerned with everybody, including our next-door neighbor.” 26
44. In 2006 and 2007, authorities arrested reserve
officers who worked at the Strategic Technical Operations Center, an intelligence unit at Camp Pendleton, for
stealing classified intelligence documents and providing
them to local law enforcement. According to reports,
the theft ring had operated since 2001, and the documents seized from the participants included more than
100 FBI and Defense Department files, including documents establishing the existence of programs to surveil
Muslim communities and mosques in Southern California. 27
45. Documents obtained by the ACLU of Southern
California via the Freedom of Information Act show that

Id.
Rick Rogers, Records detail security failure in base file theft,
SAN DIEGO UNION­TRIBUNE (May 22, 2008), available at http://www.
signonsandiego.com/uniontrib/20080522/news_1n22theft. html (last
visited Sept 13, 2011).
26
27

81
the FBI has collected information about the membership of the Shura Council (an association of mosques in
the Southern California area), as well as information
about activities or events organized at or by mosques or
Muslim organizations—including individuals handing
out flyers for fundraising, events on political issues such
as the war in Iraq or immigration reform, and a wide
variety of fundraising efforts.
46. The FBI has sought and continues to seek interviews of hundreds of people in the Southern California
Muslim community, often by sending FBI agents to appear unannounced at the homes or workplaces of people
to request an interview. During these interviews, FBI
agents have often questioned interviewees about religious practices that have no discernible relationship to
criminal activity, such as what mosque interviewees attend, how many times a day they pray, who the imam of
their mosque is, or what they think of particular religious scholars.
Monteilh’s Role in the FBI’s Investigation of Muslims

47. In the face of substantial evidence of the FBI's
particular focus on investigating Muslims, in June 2006,
Los Angeles FBI Assistant Director Stephen Tidwell attended a forum for the Muslim community at the Islamic
Center of Irvine (“ICOI”), where he assured an audience of about two hundred people that the FBI would
enter mosques only openly to outreach to the community
and would not send covert informants into mosques for
the purpose of monitoring the Muslim community. 28
At some point during the spring of 2007, Agents Armstrong and
Allen told Monteilh that the Assistant Director in Charge of the
FBI’s Los Angeles Field Office had told the Muslim community that
28

82
48. At some time prior to July 2006, the FBI hired
Craig Monteilh to become a paid informant for them to
covertly gather information about Muslims in the Irvine
area.
49. In about July 2006, Monteilh requested a meeting with the imam of the Islamic Center of Irvine
(“ICOI”). Monteilh told the imam that he was of French
and Syrian descent, and that he wanted to embrace his
roots by formally converting to Islam. The following
Friday, Monteilh attended the jummah prayer (the Friday afternoon prayer that is the most important service
of the week), where he went before the congregation of
hundreds and made a public declaration of his Muslim
faith. This declaration, known as shahadah, is one of
the five pillars of Islam. After this, Monteilh began going to ICOI on a daily basis, often attending multiple
prayers a day. About a week later, he began using the
Muslim name Farouk al-Aziz.
50. After taking shahadah, Monteilh attended prayers at ICOI on a daily basis. He attended prayers at
mosque multiple times per day, and was often waiting
for the mosque to open before dawn prayers at about 5
a.m. He also attended classes and special events. He
primarily attended ICOI, but also went with some regularity to about five of the other largest mosques in Orange County.

there would be no undercover informants placed in mosques at a
meeting held only about a month or so before Monteilh had publicly
“converted,” on their instructions, at the ICOI mosque. They told
him that at the time Tidwell made this statement, they had already
been looking for someone to send into the mosques, and that Tidwell
had approved recruitment of an informant.

83
51. Congregants at ICOI generally welcomed Monteilh. People introduced themselves, spoke with him
about his conversion and their faith, and offered to help
him learn about Islam and Muslims in America. Various congregants offered help by buying him books on
Islam, talked with him about the tenets of the religion,
and showed him the movements of prayers. Congregants invited him to have meals or tea outside of the
mosque to help welcome him to the mosque’s community
and discuss questions he might have.
52. After several months, Monteilh began wearing
traditional Muslim robes and skull caps both at mosque
and in public, in place of his “western” clothes.
53. After Monteilh had attended ICOI for some
time, Muslim community leaders began to hear concerns
voiced by the congregants about Monteilh’s behavior.
Monteilh engaged people in conversations in which he
aggressively probed their views on religion and American foreign policy. Soon leaders began hearing that he
was asking people’s opinions on jihad and its meaning in
Islam, and that he was resisting their claims that Islam
did not condone terrorism.
54. Among the many people Monteilh met during his
time as an FBI informant were Plaintiffs Fazaga, Malik,
and AbdelRahim.
Plaintiff Sheikh Yassir Fazaga

55. Plaintiff Sheikh Yassir Fazaga is a thirty-eight
year-old U.S. citizen born in Eritrea, who has lived here
since he was a teenager. He attended high school in
Orange County. Sheikh Fazaga has an undergraduate
degree in Islamic Studies from the Institute of Islamic
and Arabic Sciences in Virginia and a masters degree in

84
marriage and family counseling from the California
State University of Long Beach, and has taken coursework toward a masters degree in Christian Theology at
Loyola Marymount University. From about 1998 to
the present, Sheikh Fazaga has served as an imam of the
Orange County Islamic Foundation (OCIF), a mosque in
Mission Viejo, California. His duties there have included directing the religious affairs of the mosque,
leading prayer, and conducting educational, spiritual,
and recreational activities for the entire mosque community and its youth.
56. Sheikh Fazaga earned a national reputation for
his contemporary American teaching of Islam. He has
spoken at numerous conferences, colleges, and other
fora both in the United States and abroad on the topics
of Islam and the American Muslim. In 2007, he traveled to Romania at the invitation and expense of the U.S.
State Department to speak on terrorism, radicalism and
extremism. He has also been interviewed for print, television and radio media, including for NBC’s Today
show on spirituality in America and for a New York
Times article on American imams in which he was featured. 29
57. Over the years, Sheikh Fazaga’s mosque conducted a number of events in conjunction with various
other mosques in the area, including ICOI. Sheikh
Fazaga was, and still is, concerned about the erosion of
civil rights for people in the Muslim community, and he
often took actions to advocate on behalf of that issue.

See Neil MacFarquhar, A Growing Demand for the Rare American Imam, N.Y. Times (June 1, 2007), available at http://www.nytimes.com/2007/06/01/us/01imam.html (last visited Sept. 13, 2011).
29

85
58. On one occasion in early 2006 he attended one
such event, which Defendant Stephen Tidwell, Assistant
Director in Charge of the Los Angeles FBI Field Office,
also attended. At the event, Fazaga asked questions to
Tidwell concerning the FBI’s use of informants in
mosques.
59. Shortly afterward, Sheikh Fazaga came into
contact with Craig Monteilh, because Monteilh came to
attend prayers and other events at his mosque, OCIF,
starting in approximately 2006.
60. Some time after Monteilh began attending his
mosque, Sheikh Fazaga hosted a famous Islamic speaker
named Yusuf Estes at his mosque. Estes is a former
National Muslim Chaplain for the United States Bureau
of Prisons, and was a Delegate to the United Nations
World Peace Conference for Religious Leaders several
years before being invited to speak at the OCIF.
61. A number of Sheikh Fazaga’s congregants, including Monteilh, attended the lecture.
62. Several months after Monteilh first began attending events at OCIF, another member of the OCIF
community formally introduced Fazaga to Monteilh.
63. After Monteilh’s role as an FBI informant became publicly known in February 2009, a number of
Sheikh Fazaga’s congregants expressed their dismay to
him, because Monteilh had spent a considerable amount
of time at the OCIF.
64. Sheikh Fazaga had to spend considerable time
counseling his congregants who were afraid that they
were being targeted for FBI surveillance because of
their faith. He often conducted this counseling away

86
from the mosque and in person, rather than over the telephone, because of his congregants’ fear of surveillance.
65. Sheikh Fazaga also observed the trust within
and cohesion of his congregation, and of other Muslim
communities in Southern California, to be significantly
damaged, and that this damage directly undermined the
Islamic practice of jama’ah, or worship in a congregation. In part because of this, he devoted two whole sermons to addressing the fears of the congregation about
surveillance, rather than addressing religious subjects.
Plaintiff Ali Uddin Malik

66. Plaintiff Malik grew up in Orange County, California. When Malik was growing up, his family were
strong supporters of the Republican Party. Malik started
a young Republicans club at his high school. During
high school, Malik aspired to work for the U.S. State Department or elsewhere in government.
67. Plaintiff Malik attended the University of California, Irvine (“UCI”) from about 2007 to 2009. While
at Irvine, Malik co-founded the Olive Tree Initiative, a
peace-building program through which a culturally and
religiously diverse group of UCI students take joint
factfinding trips to Israel and Palestine to better understand the Israel-Palestine conflict and report on their
findings to the UCI community. Malik and the other
founders were recognized for their work with the University of California President’s Award for Outstanding
Student Leadership, UCI Chancellor’s Living Our Values Award, and recognition by the Orange County Human Relations Commission and the U.S. State Department.

87
68. When Malik was about twenty years old, he developed an interest in religion. His family had always
attended the mosque, but he started attending more
regularly and trying to study Islam with more seriousness. Malik began wearing traditional robes and head
covering when he went to the mosque to pray. He also
grew a full, long beard in a traditional fashion. Because Islam encourages Muslims to follow the “Sunnah”
or practices of the Prophet Muhammad, who had a beard
and required his followers to grow beards, observant
Muslim men commonly grow their beards as a part of
their religious practice and as a form of modesty, Most
observant Muslim men in Orange County wear beards
of some sort, and many or most try to grow long beards
at some point in their lives. Similarly, many Muslim
men wear traditional clothes to pray as part of their religious practice, as a form of modesty. As such, an
emulation of the practices of Muhammad is also “sunnah.” Malik also found that wearing his clothes and
beard in this way helped serve as a reminder of his faith.
69. In about summer 2006, as part of his efforts to
study Islam more seriously, Malik attended a six-week
summer course on Islam at Dar al-Mustafa, a seminary
in Yemen. Islam emphasizes the importance of gaining
religious knowledge, and encourages its adherents to
seek knowledge, so much so that for Muslims gaining
religious knowledge is a faith practice in and of itself.
Dar al­Mustafa is a mainstream religious school whose
leaders are internationally known in the Muslim community for advocating justice, equality, and peaceful co­existence between religious groups, and have been active
in interfaith efforts in these areas with religious leaders
of other faiths. Upon information and belief, the school
and its leaders enjoyed a similar reputation with the

88
United States government and the FBI. At the time
Malik attended the summer course, both Yemen and
Dar al-Mustafa were popular places for American Muslims who wanted to pursue Arabic language or religious
studies abroad for a variety of reasons: Southern
Yemen, where Dar al-Mustafa is located, was known for
its spiritual Sufi religious scholarship, for having a clear
and eloquent form of the Arabic language, and for being
scenic and affordable, if slightly rustic. Plaintiff Malik
attended ICOI and was present when Monteilh took
shahadah in about July 2006. Plaintiff Malik, along
with many other congregants, approached Monteilh after he took shahadah, offering his well-wishes and assistance.
70. In about August 2006, the imam at ICOI asked
Plaintiff Malik to teach Monteilh how to pray and to
guide him through the basics of Islam.
71. At the imam’s request, Plaintiff Malik approached Monteilh. Malik talked with Monteilh about
the basics of Islam, including the basic tenets, how to
pray, and the development of faith. Monteilh asked for
Malik’s cell phone number and email address, which Malik provided. He tried to offer Monteilh support and
welcome him in the community, and talked about inviting him over to his family’s house for dinner.
72. To help Monteilh learn about Islam, Plaintiff
Malik gave him a very basic book on the religion. The
book is commonly used to teach Sunday school classes
to children, and Malik knew that his father had taught
Sunday school and had used the same book.
73. Monteilh talked frequently with Malik at the
mosque. He also suggested that they talk at a nearby

89
gym, which they did in part because Monteilh worked
out there. Shortly after their meeting, Monteilh began
asking Malik things that made Malik uncomfortable.
At one point Monteilh asked Plaintiff Malik what would
happen if someone went up to the imam at ICOI and told
him they wanted to blow themselves up. Plaintiff Malik replied that the imam would think this person was
crazy. Monteilh persisted, and asked Plaintiff Malik if
there were other imams in the area that would respond
to someone who wanted to blow themselves up. Plaintiff Malik told Monteilh that there are no such imams or
mosques in Southern California as far as he knew.
74. On another occasion, Monteith asked Malik
about jihad, citing specific pages in the children’s book
Malik had given him that mentioned jihad. When Malik answered that jihad meant a “struggle,” and that the
concept referred to the spiritual struggle to purify oneself, Monteilh pressed him about whether it meant physical violence, and resisted Malik’s answer that it did not.
75. These conversations deeply concerned Malik
and made him very uncomfortable around Monteilh.
Malik thought that Monteilh had strange ideas about Islam from movies or media, and urged him to go talk to
the imam so that the imam could guide him.
76. When Monteilh persisted in talking with Malik
about his violent ideas, Malik began trying to avoid Monteilh. He would avoid answering or returning Monteilh’s calls, although Monteilh called repeatedly. Malik also began trying to go to the gym at times Monteilh
did not attend.

90
77. Malik also noticed that Monteilh spoke with
many others at the mosque. For example, Malik occasionally saw Monteilh praying near meetings of a youth
group Malik attended in the mosque’s prayer hall. Malik noticed on several occasions that when Monteilh
would pray near the group, he would leave his belongings in the prayer hall while he went elsewhere.
78. Finally, Malik stopped attending the mosque altogether because Monteilh was there so often. Malik
also stopped attending the mosque in Tustin because he
heard that Monteilh had also been seen at that mosque.
Malik resumed attending ICOI only after Monteilh began approaching other people and speaking to him less
often. Even since returning to the mosque, Malik attends less often than he had before he had contact with
Monteilh.
79. In about spring 2007, Monteilh asked Malik
about studying Islam abroad. Malik suggested that
Monteilh look into the seminary where Malik had studied, Dar al-Mustafa, which Malik had enjoyed very
much.
Plaintiff Vasser AbdelRahim

80. Plaintiff AbdelRahim was another victim of
Monteilh’s dragnet surveillance of Muslims in Irvine.
AbdelRahim started attending ICOI in about 2005.
Shortly afterwards, he rented a room in a large house
where a friend he met through the mosque lived. Over
the next few months, two other mutual friends from
ICOI, and AbdelRahim’s brother, moved into the house
as other roommates left. All five of the housemates
were, like AbdelRahim, of Egyptian origin.

91
81. In about July 2006, one of AbdelRahim’s roommates told him about a guy who had taken shahadah at
the mosque. The following Saturday, they saw Monteilh and introduced themselves, offering to help him
learn about Islam if he had any questions. Monteilh
said that he appreciated it and took their phone numbers.
82. Shortly afterward, Monteilh called AbdelRahim
and began socializing with AbdelRahim and his roommates. They talked, went out to get coffee, and soon
AbdelRahim invited Monteilh to their house for iftar (a
meal eaten during Ramadan).
Monteilh began to
spend time with them at their house watching TV or
playing X-box. AbdelRahim and his roommates also
tried to help Monteilh feel welcome by introducing him
to other people in the Muslim community.
83. Initially, Monteilh talked with AbdelRahim and
his roommates about a variety of innocuous topics—not
only about Islam, but about politics, world affairs, movies, and sports. At some point, however, Monteilh began asking questions about jihad, again with a focus on
violence. AbdelRahim found this odd, and responded
that Monteilh should not concern himself with that, but
instead should concentrate on developing his faith, and
should talk to the imam at ICOI if he had questions
about the meaning of jihad. However, Monteilh persisted in raising the subject. AbdelRahim eventually
became worried that Monteilh had asked him several
times about jihad, particularly when he heard from several of his friends at the mosque that Monteilh had made
similar inquiries with them. AbdelRahim also noticed
that Monteilh guided conversations to political subjects

92
like the wars in Iraq and Afghanistan, and would say inflammatory things that seemed aimed at eliciting agreement or angry responses from others.
84. Shortly afterward, a friend of AbdelRahim reported to him that Monteilh had asked the friend to coffee to discuss a personal issue, but then started asking
particularly pointed questions about jihad. Upon hearing this, AbdelRahim confronted Monteilh.
AbdelRahim told Monteilh that if someone was teaching
him this view of jihad, then he needed to find another
teacher.
85. After this conversation, AbdelRahim stopped
speaking with Monteilh or returning his calls. Over
the next several months, AbdelRahim noticed that Monteilh was spending time with different people at the
mosque, and AbdelRahim warned a few of them about
his concerns regarding Monteilh.
The FBl’s “Dragnet” Approach

86. The interactions between Monteilh and Plaintiffs Fazaga, Malik, and AbdelRahim were part of a
broader pattern of dragnet surveillance that Monteilh
engaged in at the behest of his FBI handlers. Two FBI
Special Agents instructed Monteilh to gather information on Muslims in general, and instructed him to
adopt strategies of information-gathering and surveillance that ensured that he would obtain that information
in an indiscriminate manner, such that Plaintiffs and numerous other people were surveilled solely due to their
religion. They also provided Monteilh with the tools
needed to conduct this indiscriminate surveillance, including sophisticated audio and video recording devices.

93
Again, their instructions ensured that the surveillance
tools would target people solely due to their religion.
87. Monteilh’s handlers at the FBI were FBI Special Agent Kevin Armstrong and FBI Special Agent
Paul Allen. Agents Armstrong and Allen supervised
all of Monteilh’s work with the FBI. The FBI paid
Monteilh for the duration of his work for Agents Armstrong and Allen, in amounts ranging from about $6,000
to over $11,000 per month.
88. Agents Armstrong and Allen told Monteilh that
the FBI used the name “Operation Flex” for the surveillance program that used him, and used that term repeatedly. Agents Armstrong and Allen told Monteilh that
the name referenced him, since he operated under the
cover of a fitness consultant. But they also told Monteilh that Operation Flex was a broader surveillance
program that went beyond just his work.
89. The central feature of the FBI agents’ instructions to Monteilh was their directive that he gather information on Muslims, without any further specification.
Agents Armstrong and Allen did not limit Monteilh to
specific targets on which they wanted information. On
the contrary, they repeatedly made clear that they were
interested simply in Muslims. To the extent they differentiated within that group, they held a heightened interest in Muslims who were particularly religious.
90. When Agents Armstrong and Allen first sent
Monteilh to meet the imam at ICOI and began infiltrating the Muslim community, they gave him no specific
targets, but instead told him to gather as much information on as many people in the Muslim community as
possible. Agent Allen told Monteilh, “We want to get

94
as many files on this community as possible.” Agents
Armstrong and Allen told Monteilh that the United
States was five to ten years behind Europe in the extent
of Islamic presence, and that they needed to build files
on as many individuals as possible so that when things
started to happen, they would know where to go. They
said they were building files in areas with the biggest
concentrations of Muslim Americans—New York; the
Dearborn, Michigan area; and the Orange County/Los
Angeles area.
91. In addition to information about the membership of each mosque, Agents Armstrong and Allen instructed Monteilh to get the names of all board members, imams, people who taught classes at the mosques,
and other leadership figures within the mosques.
92. Over the course of the investigation, Agents
Armstrong and Allen sent Monteith to about ten mosques
to conduct surveillance and audio recording in each one.
Monteith spent the most time at ICOI, which he attended daily, but spent significant time at other mosques,
including the Orange County Islamic Foundation
mosque in Mission Viejo, Durol Falah in Tustin, Omar
al-Farouq mosque in Anaheim, Islamic Society of Orange County in Garden Grove, Al-Fatiha in the West
Covina/Azusa area, the mosque in Lomita, and King
Fahd mosque in Culver City. For about five or six
months Monteilh went at least once a week to each of
these mosques, and would go to as many as four different mosques in a day to meet with and talk to people, if
not to pray.
93. Agents Armstrong and Allen initially told Monteilh he would make his first contact with the community
by attending services at a mosque in Anaheim, but then

95
instructed him to attend ICOI instead because it was
closer to where he lived, so he could spend more time
there.
94. Agents Armstrong and Allen also informed Monteith that the surveillance program was itself spread indiscriminately across the area’s mosques. Electronic
surveillance equipment was installed in at least eight
area mosques including ICOI, and mosques in Tustin,
Mission Viejo, Culver City, Lomita, West Covina, and
Upland. They told him at one point that they could get
in a lot of trouble if people found out what surveillance
they had in the mosques, which Monteith understood to
mean that they did not have warrants. Nonetheless,
Agent Armstrong told Monteith that the FBI had every
mosque in the area under surveillance—including both
the ones he went to and the ones he didn’t.
95. Upon information and belief, Agents Allen and
Armstrong caused such electronic surveillance equipment to be installed at the Mission Viejo mosque and
used it to monitor conversations of Plaintiff Yassir
Fazaga, including conversations held in parts of the
mosque not open to the public, including Sheikh Fazaga’s
office.
96. Apart from the electronic surveillance program,
Agents Armstrong and Allen also directed their surveillance at people on the basis of their religion by instructing Monteilh to look for and identify to them people with
certain religious backgrounds or traits, such as anyone
who studied fiqh (a strand of Islamic law concerning
morals and etiquette), who was an imam or sheikh; who
went on Hajj; who played a leadership role at a mosque
or in the Muslim community; who expressed sympathies

96
to mujahideen; who was a “white” Muslim; or who went
to an Islamic school overseas.
97. Even with respect to these categories of Muslims, Monteith’s handlers did not tell him to limit the information he collected to those people. Agents Armstrong and Allen would occasionally instruct Monteith
to spend more time with or find out more about particular people he identified, but these were always people
Monteith had identified to them during the course of the
operation, not people who had been targeted from the
outset.
98. Agents Armstrong and Allen also instructed
Monteith to focus on Muslim youth by keeping an eye
out for people who tended to attract young Muslims.
They instructed him to identify and gather information
on such people. For example, Monteith told them about
a popular youth group on Tuesdays at ICOI run by the
imam. Students from the Muslim Student Union at the
University of California, Irvine (“UCI’’) would attend.
On many occasions, Monteith recorded the youth group
meetings at ICOI by leaving his possessions, including
the recording key fob, near where the group met in the
prayer hall so that all of their discussions could be recorded. Monteilh did this by going into the prayer hall
during their meetings to pray, and then leaving behind
his possessions as if he had forgotten them or just chosen to leave them there while he did other things.
Monteith would go to another part of the mosque or the
courtyard, and return sometime later to collect his
things. Monteilh told his handlers he did this in his
written reports. His handlers never instructed him to
stop this practice, and instead repeatedly discussed with

97
him the contents of the recordings obtained in this manner.
The FBl’s Surveillance Strategies

99. The FBI agents instructed Monteilh to engage
in a number of surveillance strategies, all of which served
to gather information on Muslims in an indiscriminate
manner.
100. After Monteilh agreed to work as a confidential
informant and underwent some training under the supervision Agents Armstrong and Allen, Agents Armstrong and Allen instructed him to make the appointment to see the imam at the ICOI. Once Monteilh had
taken shahadah and began attending both ICOI and
other mosques, Agents Armstrong and Allen instructed
him to gather information on the Muslims at the
mosques.
101. Agents Armstrong and Allen instructed Monteilh to obtain information through various methods.
They told him to take every opportunity to meet people,
get their contact information, meet them privately to get
to know them, find out their background, find out their
religious and political views, and get any information
about them that he could to pass on to the FBI.
102. As a result, over the time he spent at ICOI and
other mosques Monteilh did not focus on any particular
group of people, such as those who may have engaged in
criminal activity or even those from a particular country, but instead socialized widely with different groups
and individuals. ICOI is a multi­lingual, multi-ethnic
mosque, with separate social groups that form around

98
common language or country of origin. Monteilh surveilled people from every social group regardless of
their ethnic origin or dominant language.
103. Pursuant to his handlers’ instructions, Monteilh
went out of his way to engage all of these different
groups, even when he had no natural connection to them.
For example, he attended religion classes given in Arabic even when he did not speak Arabic, and questioned
17 and 18 year olds about religious doctrine and politics,
when a stranger in his forties might be expected to ask
such questions of adults, not youth. Similarly, Monteilh spent significant time with a group of Egyptians, a
group of Pakistanis and Indians, a group from Syria and
Lebanon, and with the younger, second-generation social groups (generally identified as “Muslim Students
Union,” or MSU, in reference to on-campus Muslim organizations). Within each group, he spoke to large
numbers of people so as to probe their views on religion,
politics and violence, and then report them back to his
handlers at the FBI.
104. Within these groups, Monteilh tended to focus
more heavily on people who were more religious; people
who came to the mosque only to attend Friday prayers
were less likely to be recipients of his attention.
105. Agents Armstrong and Allen also gave Monteilh a standing order to gather information on Muslims’
charitable giving. They instructed him to collect any
pamphlet or brochure at any mosque that concerned
charitable donations, to inquire of Muslims about which
charities and Islamic schools to give to, and to then pass
on the names of the charities and Islamic schools to
them.

99
106. Monteilh’s handlers also instructed him to attend Muslim fundraising events, to interact with the
community and gather information, to identify people
who attended and who they came with, and, if there were
any speakers, to record what those speakers said.
107. Agents Armstrong and Allen also asked Monteilh to collect information on the travel plans of Muslims in the community. They told him that they shared
this information with the Department of Homeland Security so as to be able to monitor or search people during
their travels.
108. Monteilh’s handlers also instructed him to attend lectures by Muslim scholars and other guest speakers. Because Monteilh’s handlers wanted to know both
what the lecturers said and who attended these lectures,
they equipped Monteilh with a video surveillance device
that had a camera in a shirt button, so that he could both
record lectures and film attendees socializing. Monteilh also collected license plate numbers from the parking lots to identify those who attended.
109. In keeping with his handlers’ orders, Monteilh
also attended classes at the mosque so as to obtain more
information on Muslim community members. For example, he attended an Arabic language class at ICOI
from about December 2006 to March 2007. On his handlers’ instructions, he obtained and provided them with
the lists of the individuals who attended the class.
Monteilh also attended a course in fiqh, and obtained
and provided the class list to his handlers, as per their
instructions.
110. Agents Armstrong and Allen also instructed
Monteilh to attend fajr (dawn) prayers, which are held

100
about 4 a.m., or ishaa (late) prayers, which are held
about 9:30 p.m. Agents Armstrong and Allen told him
that people who attended prayers very early in the
morning or late at night, and especially both, were very
devout and therefore more suspicious.
They instructed him to obtain the names and the license plate
numbers of individuals who attended these prayers.
Agents Armstrong and Allen increased his pay when he
agreed to go to fajr prayer four days a week.
111. Agents Armstrong and Allen also instructed
Monteilh to memorize certain ayas and surahs (verses
and chapters from the Quran) and to ask Muslims about
them. They said they had picked these verses because
they believed them to be susceptible to a “jihadist” interpretation, so that people’s reactions to them would
help discern who was and was not a threat. They told
Monteilh that discussions about these verses would
elicit responses that could be used to justify additional
surveillance measures.
112. Agents Armstrong and Allen also expressed interest in any Muslims who followed websites that the
agents believed were “jihadist,” including Mission
Islam.com and CagePrisoners.com (a site devoted to
raising awareness about the detainees at Guantanamo
Bay). Agent Allen told Monteilh to encourage people
he spoke with to go to these websites because they could
document people’s visits to the website and use that either to pressure them to become informants or to justify
further surveillance on them.
113. Agents Armstrong and Allen also encouraged
Monteith to bring up in conversation certain Muslim
scholars and thinkers whom they believed were extremist, so as to elicit people’s views on them. The scholars

101
they instructed him to discuss included a number of Islamic scholars who, at the time, were both widely popular and moderate, such as Sheikh Suhaib Webb and
Yusef Estes.
114. Monteith also used his cover as a fitness consultant to gather information on the Muslims with whom
he interacted. During his time working on Operation
Flex, Monteith told people in the Muslim community
that he worked as a fitness consultant. In about November 2006, Agent Allen instructed Monteith to start
going to the gym to work out with people he met from
the Muslim community, in order to get close to them and
obtain information about them. Again, Monteilh’s handlers did not limit the scope of their instructions; the directive included anyone from any mosque without any
specific target, for the purpose of collecting as much information as possible about Muslims in the community.
Pursuant to these instructions, Monteith worked out
with Muslims in various gyms around the Orange County
area and elicited a wide variety of information, including
travel plans, political and religious views.
115. The goal of these conversations was to obtain
compromising information that his handlers could use to
pressure the Muslims with whom Monteith interacted
into providing information or becoming informants.
Monteith recorded these conversations using the equipment on his key fob or cell phone. This surveillance
was so fruitful that Monteilh’s handlers eventually told
him they were seeking approval to have him open a Muslim gym.
116. Agents Armstrong and Allen talked repeatedly
with Monteilh about obtaining new informants within

102
the Muslim community, primarily by getting information on potential informants that could be used against
them if they refused to inform—such as immigration issues, sexual activity, business problems, or crimes like
drug use. Agents Armstrong and Allen instructed
Monteilh to pay attention to people’s problems, to talk
about and record them, including marital problems,
business problems, and petty criminal issues. Agents
Armstrong and Allen on several occasions talked about
different individuals that they believed might be susceptible to rumors about their sexual orientation, so that
they could be persuaded to become informants through
the threat of such rumors being started.
117. Agents Armstrong and Allen also often spoke
with Monteilh about a maxim that “everybody knows
somebody.” They explained that if someone is from Afghanistan, that meant that they would likely have some
distant member of their family or acquaintance who has
some connection with the Taliban. If they are from
Lebanon, it might be Hezbollah; if they are from Palestine, it might be Hamas. By finding out what connections they might have to these terrorist groups, no matter how distant, they could threaten the individuals and
pressure them to provide information, or could justify
additional surveillance.
118. Agents Armstrong and Allen also instructed
Monteilh to engage in acts that would build his reputation as a devout Muslim who had access to black market
items. On one occasion, Agents Armstrong and Allen
instructed Monteilh to provide Vicodin to a person
whose father was sick in a foreign country. On another
occasion, Agent Allen instructed Monteilh to provide

103
prescription anabolic steroids to another two individuals
to similarly further his credibility, which he did.
119. During their regular meetings with Monteilh,
Agents Armstrong and Allen also showed him photographs of Muslims from the community, taken from
many of the methods identified above (e.g. at the gym,
at fajr prayer, etc.), asked him to identify the people in
those photographs, and then directed him to provide as
much information as possible about each person, including what mosque they attended, their ethnicity or country of origin, the languages they spoke, the people they
associated with, what kind of car they drove, their occupation or whether they were a student, as well as any
other information Monteilh could obtain.
120. One theme ran throughout all of these different
surveillance gathering strategies: Agents Armstrong
and Allen expressed interest in gathering information
only on Muslims, and they set aside any non-Muslims
who were identified through surveillance Monteilh performed.
For example, on several occasions when
Agents Armstrong and Allen asked Monteilh to identify
individuals from photographs taken by surveillance
cameras at the entrances to gyms, they presented him
with photographs of individuals who were not Muslim—
usually Latino—who Monteilh had spoken to or who had
simply helped him lift weights. Each time Monteilh indicated to Armstrong and Allen that the individual identified was not a Muslim, they discarded the picture.
121. Indeed, both Agent Armstrong and Agent Allen, as well as other agents, explicitly told Monteilh that
Islam was a threat to America’s national security.

104
The FBl’s Surveillance Tools

122. Agents Armstrong and Allen recorded information about virtually all of the people with whom Monteilh interacted in several different ways—through audio recording, video recording, extensive review of Monteilh’s handwritten notes about all aspects of his daily
interactions, and a dragnet program to obtain cellphone
numbers, email addresses, and information about internet usage.
123. Upon information and belief, virtually all ofMonteilh’s interactions with Muslims in the mosques
were recorded by audio, video, or both. The recordings
were then transcribed and reviewed by officials within
the FBI. Agent Allen told Monteith that there was a
team transcribing all of his recorded conversations.
124. Agents Armstrong and Allen instructed Monteilh that because of his criminal background, all information he collected would have to be recorded. After
about September 2006, Armstrong and Allen gave Monteilh a cell phone and two key fobs (which resembled the
remote controls for car locks) with audio recording devices in them, and which Monteilh used to record all day,
every moment he worked undercover, regardless of
whom he was meeting or what was discussed.
125. People at ICOI noticed that Monteilh would often forget his keys, so that they would be delivered to
the imam’s office. People joked about Monteilh frequently forgetting his keys, and for having his keys out
during lectures and conversations, even if he had to get
them out after he sat down.

105
126. In fact, Monteilh utilized the trick of leaving his
keys around the mosque to allow audio recording of conversations to take place even when he was not present.
127. On several occasions, Monteilh also left the recording devices in locations in mosques in the area.
For example, in a large mosque in Culver City, Monteilh
several times attended with a friend who changed in the
office from business clothes to more traditional dress
before they went into the mosque to pray. Monteilh
left his keys in the office so that the key fob would record
staff and board members who came in and talked, then
retrieved his keys from the office when they were finished in the mosque. Monteilh did this several times,
and in several different mosques. Agents Armstrong
and Allen received the notes where Monteilh said he did
this but never instructed him to stop.
128. Monteilh’s recording activity was not limited to
audio. Beginning in about February 2007, on numerous occasions Agents Armstrong and Allen outfitted
Monteilh with video surveillance equipment that recorded through a camera hidden in a button in the front
of his shirt, while recording audio as well. Toward the
end of his assignment, Agents Armstrong and Allen had
equipped Monteilh to use this video surveillance as often
as several days per week.
129. Agents Armstrong and Allen instructed Monteilh to use the video camera for various specific purposes, including to capture the internal layout of
mosques, to film basketball or soccer games to see who
associated with whom, to film guest lectures at mosques
to see what was said and who attended, and to record
the interiors of people’s houses. Monteilh’s handlers at

106
various times instructed him to open particular doors in
homes or mosques and film the room behind.
130. Agents Armstrong and Allen also used Monteilh’s activities to gather telephone and cell phone numbers, email addresses, and other electronic information
for indiscriminate surveillance.
131. Agents Armstrong and Allen told Monteilh they
wanted him to collect contact information, particularly
email addresses and phone numbers. At times, they
even gave Monteilh quotas to collect contact information
for ten new Muslims per day. Agents Armstrong and
Allen told Monteilh that they monitored his email and
cell phones to obtain the telephone numbers and email
addresses of people with whom he corresponded. Agent
Allen instructed him to give out his cell phone number
widely so that people would call him or give their cell
numbers in return, so that the FBI could then collect
those numbers. Armstrong and Allen also instructed
him to email frequently with people, so that the FBI
could collect their email addresses. Agents Armstrong
and Allen told Monteilh that they used the cell phone
numbers and email addresses of individuals who contacted him to obtain information from those individuals’
phone and email accounts, including the list of people
they contacted.
132. Agents Armstrong and Allen told Monteilh that
they kept the numbers and emails he collected in a database that could be monitored for international calls, or
cross-referenced against phone calls or emails to persons of interest who were believed to be linked to terrorism. Monteilh’s handlers also told him that the
emails could be used to determine if the person was vis-

107
iting certain websites, and with whom they were emailing. Monteilh joined email distribution lists for many
of the mosques he surveilled, and would forward messages from the mosques to the FBI so they would be informed about events and bulletins, and so they would
have the email addresses of anybody else who received
the message.
133. Agents Armstrong and Allen also instructed
Monteith to gather all available information, including
literature, on events occurring at the mosques. Following these instructions, Monteilh would collect brochures on charities that were distributed in the mosques,
visit the mosques’ libraries or book areas, collect newsletters and bulletins to see what activities were going on
in the mosque, and collect the names of individuals who
attended, as well as their cell phone numbers and license
plates when possible. He would record this information either electronically or through a system of
notes.
134. Agents Armstrong and Allen instructed Monteilh to compose daily notes of his activities and the surveillance he had undertaken. These notes were extensive
—Agents Armstrong and Allen instructed Monteilh to
“empty [his] head” about what he had learned that
day—so that Monteilh regularly spent an hour or two
each evening writing notes. After a while, these notes
became so voluminous that Armstrong and Allen instructed Monteilh to prepare separate “supplemental
notes” containing any sensitive or particularly valuable
information. These were all handwritten. Armstrong
and Allen took these notes from Monteilh when they met
him twice a week.

108
135. At times, Monteilh reported to Agents Armstrong and Allen that when he was left alone in a mosque
office, he had looked in drawers for information. Armstrong and Allen never instructed him not to do this.
136. Agents Armstrong and Allen were well aware
that many of the surveillance tools that they had given
Monteilh were being used illegally. Agent Armstrong
once told Monteilh that while warrants were needed to
conduct most surveillance for criminal investigations,
“National security is different. Kevin is God.” Agent
Armstrong also told Monteilh more than once that they
did not always need warrants, and that even if they could
not use the information in court because they did not
have a warrant, it was still useful to have the information. He said that they could attribute the information to a confidential source if they needed to.
137. Over the course of the fourteen months that
Agents Armstrong and Allen supervised Monteilh’s work
as an informant in the Los Angeles and Orange County
Muslim communities, they gathered hundreds of phone
numbers and thousands of email addresses of Muslims.
They also obtained background information on hundreds
of individuals, gathered hundreds of hours of video recordings that captured the interiors of mosques, homes,
businesses, and the associations of hundreds of Muslims. They also obtained thousands of hours of audio
recording of conversations—both where Monteilh was
and was not present—as well as recordings of public discussion groups, classes, and lectures occurring in
mosques and at other Muslim religious and cultural
events.

109
The FBl’s Oversight, Supervision, and Use of Monteilh

138. Upon information and belief, FBI Agents Armstrong and Allen, as well as their superiors Director Tidwell, and Agents Walls and Rose, maintained extremely
close oversight and supervision of Monteilh. Moreover, because they made extensive use of the results of
his surveillance, they knew in great detail the nature
and scope of the operation, including the methods of surveillance Monteilh used and the criteria used to decide
his targets, and continually authorized their ongomg
use.
139. From about August 2006 to October 2007,
Agents Armstrong and Allen met with Monteilh about
twice per week for meetings to discuss their assignments for him, to give him instructions, to obtain his
daily notes, and to either exchange his recording devices
for fresh ones or upload the recordings to a computer.
These meetings were held in public places, outside the
areas where the Muslim community lived. About once
per month, they met with Monteilh in a room at the Anaheim Hilton Hotel, where they discussed the information he had obtained and gave him instructions in
greater detail.
140. Agents Armstrong and Allen monitored and supervised Monteilh’s work as an undercover informant
closely. Through the daily notes they collected from
him and the twice-weekly meetings, Monteilh told them
about virtually everything he did and all the information
he had obtained. They gave Monteilh instructions, or
“tasking orders,” regularly.
They gave him both
standing instructions on kinds of information to gather
whenever possible—for example, to meet and get contact information for a certain number of Muslims per

110
day—and also gave him specific instructions on information they wanted, often in response to information he
provided—such as, for example, instructions to get inside a certain house within the week or to have lunch
with a particular person two times. Agents Armstrong
and Allen also gave Monteilh standing orders to call one
of them every day, even on his days off, which Monteilh
would do, apprising them on the call of his day’s activities.
141. Agents Armstrong and Allen at various times
discussed with Monteilh what happened to these notes.
They said that their supervisors read the notes, that the
notes were seen in “the Beltway,” that they were seen
by people with “a lot of authority,” and that the Assistant Director in Charge of the FBI’s Los Angeles field
office, who at that time was Stephen Tidwell, read all of
Monteilh’s daily notes.
142. During the course of the investigation, Agents
Armstrong and Allen discussed with Monteilh how the
information he collected was actually being used. They
assured him that all the information he collected was retained, and that they discarded none of it. They also
told him that the information was used to build files on
individuals: that every person he contacted—whose
phone number he got, who he emailed, who he identified
through photographs—had an individual file in which
the information he gathered was retained.
143. On about four different occasions, during the
meetings between Agents Armstrong and Allen and
Monteilh at the hotel room, they showed him a huge
photo array on a large board consisting of the photos of
around two hundred Muslims from the Orange County/
Los Angeles area. Agents Armstrong and Allen used

111
different sets of photographs for each of these meetings,
so that Monteilh saw hundreds of photographs over the
four meetings. They instructed him to arrange the
photos from the most dangerous to the least based on
his knowledge and experience. The entire leadership
of the Islamic community were in the photos—sheikhs,
imams, board members; prayer leaders, leaders of civic
organizations, and youth groups. The process took
hours. Agents Armstrong and Allen also asked Monteilh to assist them in organizing the photos according
to categories such as financial, operative, and leadership; to divide photos into possible cells according to
mosques and ethnicity or nationality. The first of these
meetings was in about 16 March 2007, and the last was
in about September 2007.
144. Over the course of several conversations, Agents
Armstrong and Allen told Monteilh that they considered
the leaders in the Muslim community—board members
and leadership at mosques and leaders of Muslim
organizations—to be potential threats, and that they
regularly surveilled them and maintained more detailed
files of information on their background and activities.
145. In about early spring of 2007, Agents Armstrong and Allen told Monteilh that information he had
provided was particularly valuable, and told him he was
“gold” in Los Angeles and in Washington. Agent Allen
said that information from the operation was followed
by people “at the highest levels,” and that the operation
was among the ten most important intelligence investigations going on in the country. In about March or April
2007, Agent Allen said that he had meetings with Ste-

112
phen Tidwell and one of his supervisors from Washington, D.C., Joseph Billy, Jr., about the operation.301 Around
the same time period, Agent Allen flew to Washington,
D.C. with his supervisor, Pat Rose, in part to meet with
high-level FBI officials to get approval to open a gym
for Muslims that would function in part as a mosque with
a prayer room. Agent Allen told Monteilh that approval
to open the gym had been granted.
146. At around that time, Agents Armstrong and Allen told Monteilh that information from the operation
would be shared with other agencies—that information
obtained on people’s finances or foreign assets was shared
with the Treasury Department, and that information
about people’s immigration issues would be sent to immigration officials.
The End of the Monteilh Operation

147. Agents Allen and Armstrong had instructed
Monteilh to ask general questions about jihad from the
beginning of the operation. In early 2007, they instructed him to start asking more pointedly about jihad and
armed conflict, then to more openly suggest his own willingness to engage in violence. Pursuant to these instructions, in one-on-one conversations, Monteilh began
asking people about violent jihad, expressing frustration over the oppression of Muslims around the world,
pressing them for their views, and implying that he
might be willing or able to take action.
148. In about May 2007, on instructions from his
handlers, Monteilh told a number of individuals that he
Upon information and belief, Billy was at the time the FBI’s Assistant Director in Charge of the agency’s Counterterrorism Division.
30

113
believed it was his duty as a Muslim to take violent actions, and that he had access to weapons. Many members of the Muslim community at ICOI then reported
these statements to community leaders, including Hussam Ayloush. Ayloush both called the FBI to report
the statements and instructed the individuals who had
heard the statements to report them to the Irvine Police
Department, which they did.
149. As a community, ICOI also brought an action
for a restraining order against Monteilh to bar him from
the mosque. A California Superior Court granted the
restraining order in June 2007.
150. After the court granted the restraining order,
Monteilh continued going to other mosques for a month
or two, but then disappeared from the Muslim community.
151. At around the same time—during the summer
of 2007—Agents Armstrong and Allen told Monteilh
that Defendant Barbara Walls, then the Assistant Special Agent in Charge of the FBI’s Santa Ana office, had
come to distrust him and did not want him working any
more. They told him there was significant conflict between Agent Walls and field agents over how to handle
the operation, and that there had been an audit team
sent from Washington, D.C., to examine Agent Walls’
handling of one of the leads from the operation. Because of this conflict and complications surrounding the
restraining order, Agents Armstrong and Allen told
Monteilh in about September 2007 that he would be going on hiatus from undercover work in the Orange
County Muslim community.

114
152. During one of their final meetings with Monteilh in about October 2007, Agent Allen told Monteilh
that although his role was over, Operation Flex and the
FBI’s operations in Orange County and Los Angeles
would continue. He said that the information Monteilh
had provided was a valuable foundation for the FBI’s
continuing work.
153. During one of the final meetings between Agents
Armstrong and Allen and Monteilh, Agent Walls was also
present. She warned Monteilh to stay silent about the
operation.
154. In August 2008, Monteilh returned to Irvine
and contacted the Irvine Police Department to voice
concerns about his safety because of his role as an informant. He spoke with a detective, as well as a sergeant that he recognized as someone who had once escorted him when he was undercover with his handlers.
The sergeant knew very specific information about individuals Monteilh had surveilled who he had concerns
about, and told Monteilh in this meeting that he worked
for JTTF. He told Monteilh that several individuals he
had asked him about were still under surveillance. He
also specifically mentioned that surveillance was ongoing at gyms and at least two mosques.
Monteilh’s Identity Revealed

155. On or about about February 20, 2009, a man
named Ahmed Niazi was arrested in Orange County and
charged in federal criminal court with immigration
fraud for lying on his naturalization application.
156. Niazi had met Monteith at ICOI and had spent
a significant amount of time with him. Niazi had heard
Monteilh’s most direct statements about jihad and had

115
reported those statements to Hussam Ayloush and to
the Irvine Police Department.
157. At Niazi’s bail hearing, which occurred on February 24, 2009 in federal district court in Santa Ana, California, FBI Special Agent Thomas Ropel testified that
Niazi presented a threat to national security. Agent
Ropel testified that he had heard numerous recordings
of conversations between Niazi and a confidential informant. Agent Ropel stated that this confidential informant was the man Hussam Ayloush had reported to
the FBI, and that Niazi and another individual had reported to the Irvine Police Department. Together,
these statements confirmed that the informant was Craig
Monteilh, and that he had recorded numerous conversations that he had while an informant.
158. Charges against Niazi were dismissed at the
request of the United States Attorney’s office on about
September 30, 2010.
159. Agent Ropel’s testimony on February 24, 2009
confirmed for the first time that Monteilh was a confidential informant for the FBI who had recorded numerous conversations.
160. Prior to that testimony, Plaintiffs did not know
and could not reasonably have known that Monteilh was
working for the FBI as an informant; that the FBI and
Defendants, through Monteilh, had surveilled and gathered information about them from their interactions
with Monteilh; and that the FBI had subjected them to
this surveillance because of their religion. Upon information and belief, prior to February 2009, Monteilh never

116
told anyone outside of law enforcement and his immediate family that he was working as an informant for the
FBI.
161. Subsequent to Ropel’s testimony, a number of
different sources have confirmed that Monteilh worked
for the FBI, including Monteilh himself.
162. In news accounts of the investigation, Monteilh
himself has stated to reporters that the FBI paid him
more than $170,000 over fifteen months to be an undercover informant in mosques in Orange County, that “he
was instructed to infiltrate mosques throughout Orange
[County] and two neighboring counties in Southern California,” that he was “ordered to randomly surveil and
spy on Muslims to ferret out potential terrorists,” and
that his handlers told him that “Islam is a threat to our
national security.”312
163. Upon information and belief, on August 20,
2007, the district attorney in a state criminal case
against Monteilh from 2003 moved to terminate his probation early. In the proceeding, the district attorney
explained the basis for the termination:
Apparently, [Monteilh] is working with F.B.I. Agent
Kevin Armstrong. He has given Agent Armstrong
very, very valuable information that has proven to be
essential in an F.B.I. prosecution. It was Agent

See Jerry Markon, Tension grows between Calif. Muslims, FBI
after informant infiltrates mosque, WASH. POST (Dec. 5, 2010).
31

117
Armstrong that contacted the head deputy and the
head deputy instructed us to ask for termination. 32
A copy of the transcript is attached hereto as Attachment 1.
164. Further confirmation comes from court documents filed in a civil action that Monteilh brought
against the FBI and the City of Irvine. In some of
those documents, the City of Irvine acknowledged that
while a pending criminal investigation of Monteilh was
underway, members of the FBI’s Orange County Joint
Terrorism Task Force approached members of the Irvine police force and asked them to delay any action
against Monteilh.334
165. In discovery served by Monteilh in that same
federal lawsuit, the City of Irvine admitted that it and
its agents ‘‘were aware that [Monteilh] was an FBI informant,” and that the City of Irvine “[was] informed by
the FBI that [Monteilh] was an FBI informant.”34 5
166. Correspondence in connection with that lawsuit provides yet more evidence of Monteilh’s work as an
FBI informant. Upon information and belief, on June
Transcript of Proceedings held Aug. 20, 2007, Probation Termination, People v. Monteilh, L.A. Sup. Ct. No. KA059040, filed in support of Motion to Set Aside Conviction, Exh. I, Monteilh v. Federal
Bureau of Investigation, Dkt. 89-9, Case No. 10-cv-00102 JVS
(RNBx) (C.D. Cal.).
33
See Answer to Complaint of City of Irvine and Ronald Carr,
Monteilh v. Federal Bureau of Investigation, Dkt. 23, Case No. 10cv-00102 JVS (RNBx) (C.D. Cal.).
34
See Motion to Set Aside Conviction, Exh. G, Monteilh v. Federal
Bureau of Investigation, Dkt. 89-7, Case No. 10-cv-00102 JVS
(RNBx) (C.D. Cal.) (exceprts of City of Irvine’s responses to requests for admissions).
32

118
16, 2010, Associate General Counsel for the FBI, Henry
R. Felix, sent a letter to Adam Krolikowsi, an attorney
representing Monteilh in his civil action against the
FBI, in reply to a letter Krolikowski had sent the previous day. Felix’s June 16 letter indicated that Monteilh
had signed a non-disclosure agreement with the FBI on
October 5, 2007. Felix noted that Krolikowsi had sent
previous letters, but stated that his most recent letter
mentioned “Operation Flex” and that this was “the first
letter in which [Krolikowski] reference[d] a particular
FBI operation or investigation.” A copy of this letter
is attached hereto as Attachment 2.356
167. Monteilh himself confirms many of the abovedescribed details of his work as an informant, including
that he worked for the FBI to infiltrate the Muslim community of Southern California from about July 2006 until October 2007; that, during this time, he spent about
six or seven days a week posing as a Muslim convert
named Farouk al-Aziz; that he conducted surveillance
and other information-gathering on a wide variety of individuals and organizations in the Muslim community,
solely because they were Muslim; and that he conducted
surveillance of Plaintiffs as alleged below.
Monteilh’s Interactions with Sheikh Yassir Fazaga

168. Agents Armstrong and Allen instructed Monteilh to conduct surveillance of the Orange County Is-

A copy of the letter was filed by Monteilh in his damages action
against the FBI. See Motion to Set Aside Conviction, Exh. D, Monteilh v. Federal Bureau of Investigation, Dkt. 89-4, Case No. 10-cv00102 JVS (RNBx) (C.D. Cal.).
35

119
lamic Foundation (OCIF) mosque in Mission Viejo, California. The imam of that mosque is Plaintiff Yassir
Fazaga.
169. Agents Armstrong and Allen told Monteilh
they believed that Plaintiff Fazaga, the imam of OCIF,
was a radical, for several reasons: They said that
Fazaga directed students on how to conduct demonstrations and encouraged them to speak out. They said
that when the FBI Assistant Director in Charge of the
Los Angeles Field Office, Stephen Tidwell, attended a
meeting at an Orange County mosque in about spring
2006, Fazaga openly pressed Tidwell about FBI informants in mosques, and when Tidwell denied putting informants in mosques, Fazaga had openly said he did not
believe Tidwell. They also said that Fazaga was a person of interest because he was a board member of “In
Focus News,” a prominent Muslim newspaper that was
vocal in speaking out against U.S. government actions
that negatively affected Muslims and which Agents
Armstrong and Allen believed was anti-American and
linked to Muslim civil rights groups.367
Southern California InFocus News is the largest Muslim newspaper in California, with a circulation of about 25,000 and distribution at over 350 Muslim businesses and mosques throughout California, including every major mosque in Los Angeles and Orange County. According to its website, the paper’s objective is to provide honest, effective and professional reporting, with a focus on California
Muslims that both brings forth issues of concern to the California
Muslim communities and provides a window into the American Muslim experience for all Californians. The paper has not only covered
stories on local Muslim events and leaders, but has examined taboo
topics such as domestic violence in the Muslim community and written stories to bridge community divides, such as by profiling families
of other religions. Like many other newspapers, InFocus News has
36

120
170. Agents Armstrong and Allen told Monteilh that
OCIF was linked to ICOI, a mosque they were also interested in, because the two mosques held joint events
and jointly organized foreign trips, including the hajj
pilgrimage to Mecca. They referred to OCIF as a “definite hotspot.”
171. Agents Armstrong and Allen also told Monteilh
that OCIF was radical because it had certain religious
scholars as guest speakers whom they believed were
radical—particularly Yusef Estes, Suhaib Webb, and a
local imam, Ahmad Sakr. They said that a moderate
mosque would not have chosen these guest speakers.
172. Agents Armstrong and Allen instructed Monteilh to attend the Yusef Estes lecture which Sheikh
Fazaga’s mosque hosted. They equipped him with hidden video equipment that he used to video record the
entire lecture, the literature Estes had set out, and the
people who attended.
173. Pursuant to Agent Armstrong and Allen’s instructions, Monteilh attended OCIF a number of times
to conduct surveillance, including during Sheikh
Fazaga’s sermons.
174. Agent Armstrong and Allen also equipped
Monteilh with a video camera hidden in a shirt button
that he used to take video of the interior of OCIF.
Agents Armstrong and Allen instructed Monteilh to get
a sense of the schematics of the place—entrances, exits,
at times given news coverage or printed opinion pieces that supported or opposed various policies of the United States government.
The paper has never advocated violence against the United States
or its citizens or done anything else that would reasonably justify
characterizing it as “anti-American.”

121
rooms, bathrooms, locked doors, storage rooms, as well
as security measures and whether any security guards
were armed. Agent Armstrong later told Monteilh
that they had used the information he gathered to enter
the mosque.
175. On the instructions of Agents Armstrong and
Allen, Monteilh made video recordings of an area in the
back of OCIF where there were religious books available for congregants to use, so that they could determine
if any of the literature there was extremist.
176. Agents Armstrong and Allen also instructed
Monteilh to make contacts within Sheikh Fazaga’s Mission Viejo congregation. To comply, Monteilh worked
out on various different occasions with about 40 of their
congregants, usually in groups, obtaining the email address and cell phone number of anyone he worked out
with and passing that information on to his handlers.
177. Agents Armstrong and Allen instructed Monteilh to gather additional information on a few individuals within the congregation who seemed to have the
most direct access to Fazaga—to gather their email addresses, cell phone numbers, and addresses, as well as
basic background information such as their occupation,
whether they were married or had children, and what
prayers they attended. Monteilh gathered this information and passed it on to Armstrong and Allen.
178. Agents Armstrong and Allen instructed Monteilh to monitor Fazaga at the prayers he conducted, to
record and report on what he said, to talk with him afterwards and see who else talked to him afterwards, and
to note individuals who appeared to be close to him.
Monteilh also monitored what was said by a member of

122
the congregation who substituted for Fazaga during one
of the prayers.
179. In about April 2007, a member of the community introduced Monteilh to Fazaga while he was recording with a hidden video camera. Monteilh also obtained Fazaga’s cell phone number and email address
(not through Fazaga, but through others) and passed
those on to Agents Armstrong and Allen, who told him
they used the email addresses and telephone numbers
gathered to monitor communications and conduct further surveillance.
180. Monteilh also gave Agents Armstrong and Allen the license plate numbers of cars Fazaga traveled in
and the people with whom Monteilh saw him associate.
181. Agents Armstrong and Allen instructed Monteilh that whenever he saw Fazaga at another mosque
or anywhere outside OCIF, he should call them and let
them know immediately. Monteilh did this at least
once when he saw Fazaga at another mosque.
182. On one occasion, during Friday afternoon prayer
at OCIF, the mosque had a booth set up to collect donations for some kind of relief for Muslims abroad. Pursuant to Agents Armstrong and Allen’s orders to monitor donations, Monteilh stood near the booth and used
the hidden video camera to make video recordings of
people who went up to the booth to contribute money.
183. After Monteilh’s role as an FBI informant became publicly known in 22 February 2009, many members of the OCIF congregation were horrified to learn
that the man who spent so much time in their mosque

123
was an informant. This revelation significantly undermined the trust within that community, which in turm
deterred members from worshipping as a congregation.
184. Since he had contact with Monteilh, Fazaga has
also been subjected to secondary screening and searches upon return to the U.S. from various international
trips, being held between 45 minutes and three hours
most times he travels.
185. Since discovering the FBI surveilled him and
the mosque where he serves as imam, Sheikh Fazaga believes that any of his communications in the mosque and
over telephones may be monitored, and indeed that he
may be under surveillance at any time. As an intern
therapist as well as an imam, Fazaga provided counseling to congregants and Muslims at the mosque as part
of his service to the Muslim community. Since learning
of the FBI’s surveillance, he no longer counsels congregants at the mosque for fear that their conversations are
monitored and therefore the personal information
shared is not confidential, which has limited his capacity
to provide such counseling. The constant fear of being
under surveillance, the scrutiny during travel, the effect
on the sense of community at his mosque and others, and
the additional difficult in providing counseling to clients
have all caused Sheikh Fazaga severe and ongoing anxiety and emotional distress.
Monteilh’s Interaction with Plaintiff Ali Uddin Malik

186. In their early meetings with Monteilh, Agents
Armstrong and Allen showed Monteilh a picture of a
young man who they identified as Plaintiff Ali Malik.
They told him Malik had been a surfer kid in Newport
Beach who wore dyed hair, but had travelled to Yemen

124
to attend a religious school, and had returned to the U.S.
wearing traditional Muslim dress and a full beard.
187. Agents Armstrong and Allen told Monteilh that
Malik’s change in behavior in embracing religion and
traditional dress was highly suspicious and for that reason they needed to investigate him. They also told him
they were suspicious of Malik because he was involved
with people from the “MSU.” (“MSU” stands for
“Muslim Student Union,” which is the name of Muslim
student groups at many colleges and universities, including U.C. Irvine.) Agent Armstrong told Monteilh
that before he was assigned to be his handler, he had
been assigned to investigate the MSUs and young Muslims, including Ali Malik.
188. Agents Armstrong and Allen told Monteilh that
the way that Malik groomed his beard indicated that he
was a radical.
189. Agents Armstrong and Allen already had information on Malik and his family before they assigned
Monteilh to do anything, but they told Monteilh to get
more information on one of his brothers; on another individual who Malik was close to; on Malik’s associations
from the Irvine mosque, and on anyone with whom Malik hung out at the gym.
190. Agents Armstrong and Allen said that they
knew Malik had been to an Islamic religious school in
Yemen, and that he had been blocked from entering
Saudi Arabia after he had traveled to Yemen. They
tasked Monteilh with finding out what school he had
been to and why he had been denied entry into Saudi
Arabia. Upon information and belief, Armstrong and
Allen already had knowledge of this information. When

125
re-entering the country in 2006, Malik had been interviewed at length by U.S. officials and had fully disclosed
the nature of his travels, including his study at Dar alMustafa. Malik also disclosed that while abroad, he
had traveled to Abu Dhabi in hopes of getting a visa to
Saudi Arabia for Umrah (the minor pilgrimage in Islam). However, Malik was informed by individuals
both at Dar al-Mustafa and in Abu Dhabi that he needed
to apply for a visa with the Saudi embassy in the United
States, which was logistically impossible to do during his
trip, so that Malik did not attempt to enter Saudi Arabia
or even apply for a visa during his 2006 trip.
191. In about April 2007, Agents Armstrong and Allen began discussing the possibility of sending Monteilh
abroad to study Islam and Arabic. When Monteilh
started asking about a school to go to, Malik told him
that he had attended Dar al-Mustafa in Tarim, in
Yemen. Monteilh reported this information to Agents
Armstrong and Allen.
192. On several occasions, Monteilh used the key fob
or cell phone recording devices provided by Agents Armstrong and Allen to record groups of young Muslims
talking in the prayer hall, particularly after ishaa prayer.
On these occasions, Monteilh greeted people, left his
things—including the recording device—near where
they were talking, and then went to another part of the
mosque (or a different part of the prayer hall) to pray so
that the recording device would capture their conversation when he was gone. On several of these occasions,
Ali Malik was one of the people in the group Monteilh
recorded.
Monteilh recorded these conversations
when he was not present, then gave notes that detailed
the people he saw there to Agents Armstrong and Allen,

126
so they would be able to identify the voices. Agents
Armstrong and Allen received notes in which Monteilh
said that he had recorded these conversations without
being physically present, and never told him not to do
this.
193. The prayer hall of a mosque is sacred space
where particular rules and expectations apply. Shoes
are prohibited, one must be in a state of ablution, discussing worldly matters is discouraged, and the moral
standards and codes of conduct are at their strongest.
Gossiping, eavesdropping, or talebearing (namima—
revealing anything where disclosure is resented) is forbidden. Halaqas, or small group meetings, are understood by attendees of the mosque to be safe environments in which to discuss theology or matters related to
the practice of Islam, and that correspondingly ensure
some measure of confidentiality among participants.
In addition, audio and video recording without permission were barred at ICOI, and on rare occasions where
an outside entity recorded an event or speaker, signs notified congregants of the recording.
194. Malik more than once told Monteilh that he
heard Monteilh was going regularly to fajr, or early
morning prayer. Malik commended Monteith on his
commitment—he said that he had gotten into the routine of attending fajr prayers daily when he had been
studying abroad, but that, regrettably, it was easy to fall
into attending prayers only when it was convenient.
He stated that he wanted to get back to that kind of regimen. Agents Armstrong and Allen told Monteilh this
was significant information that indicated Malik was returning to extremist beliefs, which justified further surveillance.

127
195. Agents Armstrong and Allen received significant information on Malik. In addition to the surveillance described above, including recordings of all Monteilh’s conversations with Malik, they several times
showed Monteilh photos with people they said had seen
with Malik and asked him to identify them. The pictures sometimes had Malik in them.
196. Since his contact with Monteilh, Malik has repeatedly been subjected to extended interviews with
FBI and Customs upon re-entering the country, including one interview that lasted for several hours, resulted
in him missing a connecting flight, and consequently
missing a summer school class that made him lose credit
for the class and required that he push his college graduation back by several months at considerable financial
expense.
197. Also as a result of the FBI’s surveillance, Malik
altered his religious practices. Because he understood
he was targeted because of his outwardly religious appearance, adherence to Islamic ritual practice, and involvement with the mosque and Muslim Student Union
at UCI, Malik trimmed his beard, does not regularly
wear a skull cap any longer, and stopped attending the
mosque regularly for an extended period of time. To
this day, he attends mosque less frequently than he did
before having contact with Monteilh because of his fear
of being monitored at mosque and the effect that this
fear has on his sense of the mosque as a place of peace
and spiritual refuge. This interference with his religious practice results from Defendants’ actions and has
caused Malik severe and ongoing anxiety and emotional
distress.

128
198. Malik also believes his reputation in the community to have been damaged. He believes that because of his association with Monteilh, people have also
assumed that he is a government informant and act as if
they are suspicious of him. He believes that he does
not have the full trust of the Muslim community. This
belief that others suspect him because of Defendants’
actions has caused Malik severe and ongoing anxiety
and emotional distress.
199. Since discovering the FBI surveilled him and
the mosque he attended, Malik believes that any of his
communications in the mosque and over telephones may
be monitored, and indeed that he may be under surveillance at any time. He curtails phone and email conversations with his friends and family because of his belief
that they may be monitored. He also suspects that any
newcomer to a mosque may be an FBI informant, and
has refused to be as welcoming to newcomers as he believes his religion requires. This constant fear of being
under surveillance because of Defendants’ acts has
caused Malik severe and ongoing anxiety and emotional
distress.
Monteilh’s Interaction with Yasser AbdelRahim

200. A few weeks after Monteilh took shahadah at
ICOI, a group of young men approached him at the
mosque, said they were impressed that he attended
mosque so regularly and invited him to socialize with
them at their house. Agents Armstrong and Allen told
Monteilh that the men’s home was already under surveillance because it was shared by five young, unmarried Muslim Egyptian men with different skills and
backgrounds—including a computer analyst, a pharmacist, an accountant, and one who handled logistics—and

129
that for that reason they believed they might be a Muslim Brotherhood cell.
201. A few days after this invitation, Monteilh told
Agents Armstrong and Allen that one of the young men
who lived at the house, Plaintiff Yasser Abdel AbdelRahim, was a person who seemed to attract and have influence with young Muslims. Agents Armstrong and
Allen told him they thought AbdelRahim was the leader
of the cell, and that he should spend time at their house,
and with AbdelRahim in particular, and gather as much
information as he could. Monteilh did so, and gave recordings of all the conversations he had with AbdelRahim and the other members of the house to Agents
Armstrong and Allen, along with notes about his observations.
202. Agents Armstrong and Allen told Monteilh to
get into every room in AbdelRahim’s house to see what
was in there, and include that information in his reports.
Later, in about February or March of 2007, Armstrong
and Allen equipped Monteilh with a video camera hidden
in a shirt button and instructed him to conduct video surveillance of the layout and contents of the house, which
he did.
203. Shortly after first meeting Monteilh, AbdelRahim and one of his roommates bought Monteilh some
books on Islam, and later asked he what thought of
them. Some time after that, AbdelRahim agreed to
meet with Monteilh to teach him various prayers.
Agents Armstrong and Allen expressed excitement at
this, and asked for the first sheet of paper on which AbdelRahim had written a prayer for Monteilh to learn,
telling him when they gave it back a few days later that
they had lifted AbdelRahim’s fingerprints from it.

130
204. When Monteilh reported that AbdelRahim always led prayer in the house, Agents Armstrong and Allen said that showed leadership, and confirmed that the
surveillance should focus on him.
205. Pursuant to standing instructions from Agents
Armstrong and Allen, Monteilh gathered and provided
them information about AbdelRahim’s travel plans, particularly when AbdelRahim was going to or from Egypt
to see his family or his fiance’s family. After one of
these trips to Egypt, AbdelRahim complained that he
had questioned for a long time when he re-entered the
country—that he expected some delay but this had been
way too long. Agents Armstrong and Allen told Monteilh they had been responsible for that questioning.
206. During this time, AbdelRahim played pick-up
soccer with other Muslim youth. Monteilh attended
some of these games and took down the license plates of
people who attended. On more than one occasion, he
made a video recording with a hidden camera Agents
Armstrong and Allen provided him, in order to document who was attending and socializing with one another.
207. After Monteilh learned through conversations
that AbdelRahim traveled to a particular city for his job,
Agents Armstrong and Allen had a particular group of
Muslims in that city surveilled and believed he went
there to report or get instructions from this group. As
Agents Armstrong and Allen had told Monteilh to report
all travel plans, he reported AbdelRahim’s travel plans
on several occasions. Agents Armstrong and Allen told
Monteilh that they had AbdelRahim surveilled when he
traveled, based on Monteilh’s information.

131
208. Monteilh talked to AbdelRahim about his fiancee, who lived in Detroit, and her family, and transmitted what information he learned to Agents Armstrong
and Allen—including her email address.
209. On different occasions, Agents Armstrong and
Allen told Monteilh that the FBI had electronic listening
devices in AbdelRahim’s house, as well as in AbdelRahim’s car and phone. For example, one day, one ofMonteilh’s handlers called to tell him that a friend had
driven up to AbdelRahim’s house quickly in an agitated
state, and asked Monteilh to go down there to find out
what was going on. When Monteilh asked how he knew
this, he indicated they had video outside the house.
Another time, Agents Armstrong and Allen asked him
about something that happened inside the house that he
hadn’t yet put in his notes, then told him that they knew
because they had audio surveillance in the home.
210. Agents Armstrong and Allen said that AbdelRahim was donating money to a charitable organization
in Egypt and that these donations had been tracked by
the Treasury Department. They said that these donations were not unlawful, but that they could make them
seem suspicious in order to threaten him and pressure
him to provide information and become an informant.
211. On many Tuesday nights, an imam from the
Garden Grove mosque gave Arabic language teachings
at ICOI. AbdelRahim often attended. On several occasions, Monteilh used recording devices provided by
his handlers to record these teachings and the discussions afterward by going into the prayer hall to pray
near the group, then leaving his things—including the
recording device (disguised as a key fob or cell phone)—

132
near to where the group was talking, and then go to another part of the mosque or a different part of the prayer
hall to pray. The recording device would capture their
conversation when Monteilh was not within earshot.
AbdelRahim was part of the group when Monteilh recorded on several occasions.
212. On instructions from Agents Armstrong and
Allen, Monteilh asked AbdelRahim questions about
jihad and pressed him on his views about religious matters and certain religious scholars (particularly Egyptian ones) in order to get him to say something that
might be incriminating or provide a way to pressure him
to provide information to the FBI. AbdelRahim told
Monteilh that there was more to Islam than jihad: that
jihad is a personal struggle, and that to the extent that
there is such thing as a fighting jihad, the Quran places
very strict rules that prohibit harming plants or trees,
infants, elderly or women, and that terrorists who say
they are engaged in jihad are committing murder.
When Monteilh brought up religious scholars Agents
Armstrong and Allen had instructed him to mention,
like Hassan al-Banna and Sayid Qutb, AbdelRahim said
that he did not agree with them, but thought that the
Egyptian government should not have executed them.
213. When Monteilh was reported to the FBI by
Muslim community members, AbdelRahim was contacted by FBI agents and met with them to offer information about Monteilh and his extremist rhetoric.
Upon information and belief, one of these agents was
Defendant Paul Allen.
214. A few months later, AbdelRahim unexpectedly
met the same FBI agents, who were waiting for him outside the office of his chiropractor. He was surprised to

133
see them there as he had scheduled an appointment with
the chiropractor just an hour or so prior. They went to
a coffee shop and showed him a search warrant and told
him that his storage unit was being searched by the FBI.
Two days later, they met again with AbdelRahim and
asked him if he knew of any person engaged in any suspicious activity at the mosque or elsewhere. They
asked AbdelRahim if he minded contacting the agents if
he came across any information of anyone doing anything. AbdelRahim understood that they were asking
him to be an informant, and he refused. The FBI
agents asked not to mention the offer to anyone.
215. Since he had contact with Monteith, AbdelRahim has also been subjected to extensive secondary
questioning and searches most of the times he has returned to the U.S. from trips abroad. These interrogations and the fear that he will be subjected to them when
he travels have caused AbdelRahim severe anxiety and
emotional distress.
216. Since discovering the FBI surveilled him and
the mosque he attended, AbdelRahim believes that any
of his communications in the mosque and over telephones or email may be monitored, and indeed that he
may be under surveillance at any time. He also suspects that any newcomer to a mosque may be an FBI
informant, and has refused to be as welcoming to newcomers as he believes his religion requires. This constant fear of being under surveillance because of Defendants’ acts has caused AbdelRahim severe and ongoing anxiety and emotional distress.
217. Since these incidents, AbdelRahim’s confidence in the mosque as a sanctuary has been ruined.
He significantly decreased his attendance to mosque

134
services for fear of surveillance, and as such his donations to mosque institutions also decreased. This interference with his religious practice has caused AbdelRahim severe and ongoing anxiety and emotional distress.
CLASS ALLEGATIONS

218. Plaintiffs, as class representatives, bring claims
for injunctive relief on behalf of themselves and all similarly situated persons pursuant to Rule 23(a) and 27
(b)(2).
219. Plaintiffs, as class representatives, bring this
action on their own behalf and on behalf of the following
class:
All individuals targeted by Defendants for surveillance or information-gathering through Monteilh and
Operation Flex, on account of their religion, and about
whom the FBI thereby gathered personally identifiable information.
220. Numerosity. The size of the class makes a
class action both necessary and efficient. Plaintiffs estimate that the class consist of hundreds if not thousands of current and former residents of Southern California. Members of the class are ascertainable through a
review of Defendants’ files on Operation Flex, but so numerous that joinder is impracticable.
221. Typicality. The claims of the Plaintiffs are
typical of the claims of the class as a whole. Each of
the Plaintiffs was subjected to surveillance by Defendants during the relevant period. As a result of Defendants’ practices, Defendants have discriminated against
each of Plaintiffs on the basis of their religion and reli-

135
gious practices, in violation of law. The unlawful policies and practices that have operated to discriminate
against the Plaintiffs are typical of the unlawful practices that operated to discriminate against other class
members so as to unlawfully target them for surveillance because of their religion and religious practices.
222. Common Questions of Law and Fact. This
case poses common questions of law and fact affecting
the rights of all members of the class, including, but not
limited to:
a.

Whether Defendants engaged in a program of
conducting surveillance of mosques in Orange
County, and the Plaintiffs and class members
who attended those mosques;

b.

Whether Defendants targeted Plaintiffs and
class members for surveillance through Monteilh because they were Muslims or because of
their practice of Islam;

c.

Whether Defendants’ practice of targeting Plaintiffs and class members for surveillance because
they were Muslim or because of their practice of
Islam constitutes impermissible religious discrimination under the First Amendment;

d.

Whether Defendants’ practice of targeting
Plaintiffs and class members for surveillance because they were Muslim or because of their practice of Islam violates the guarantee of equal protection of the laws under the Fifth Amendment;

e.

Whether Defendants’ practice of targeting Plaintiffs and class members for surveillance because
they were Muslim or because of their practice of

136
Islam places a substantial burden on the religious exercise of Plaintiffs and class members
under the First Amendment;
f.

Whether Defendant FBI maintains records on
Plaintiffs and class members, arising out of the
investigation at issue, describing how they exercise rights guaranteed by the First Amendment;

g.

Whether the maintenance by Defendant FBI of
records on Plaintiffs and class members describing how they exercise rights guaranteed by the
First Amendment is pertinent to and within the
scope of lawful, authorized law enforcement activity;

h.

Whether information gathered by Defendants
pursuant to unlawful surveillance should be disgorged and purged from their files;

i.

Whether Defendants conspired for the purpose
of depriving Plaintiffs and other class members
of their rights for purposes of 42 U.S.C. § 1985;

j.

Whether and what kinds of declaratory and injunctive relief are appropriate.

223. Adequacy of Class Representation. Plaintiffs
can adequately and fairly represent the interests of the
class as defined above, because their individual interests
are consistent with, and not antagonistic to, the interests of the class.
224. Adequacy of Counsel for the Class. Counsel
for Plaintiffs possess the requisite resources and ability
to prosecute this case as a class action and are experienced civil rights attorneys who have successfully litigated other cases involving similar issues.

137
225. Propriety of Class Action Mechanism. Class
certification is appropriate because the prosecution of
separate actions against Defendants by individual class
members would create a risk of inconsistent or varying
adjudications that would establish incompatible standards of conduct for Defendants and because Defendants
have acted or refused to act on grounds that apply generally to the class.
CLAIMS FOR RELIEF
First Cause of Action
Violation of the First Amendment Establishment Clause
Claim under Bivens; 28 U.S.C. § 1331
(Against All Defendants except the FBI and United
States by all Plaintiffs.)37 8

226. Plaintiffs incorporate Paragraphs 1-225 as if
fully set forth herein.
227. As set forth above, Defendants engaged in a
scheme to target Plaintiffs for surveillance because of
Plaintiffs’ adherence to and practice of the religion of
Islam. This scheme discriminates against Muslims, in
violation of the Establishment Clause of the First Amendment to the United States Constitution.

Plaintiffs’ claims for damages under Bivens are made against
those Defendants named in their individual capacities, while their
claims for injunctive relief under Section 1331 are made against Defendants named in their official capacities.
37

138
Second Cause of Action
Violation of the First Amendment Establishment Clause
Claim under 42 U.S.C. § 1985(3); 28 U.S.C. § 1343
(Against Individual Capacity Defendants by all
Plaintiffs.)

228. Plaintiffs incorporate Paragraphs 1-227 as if
fully set forth herein.
229. As set forth above, Defendants engaged in a
scheme to target Plaintiffs for surveillance because of
Plaintiffs’ adherence to and practice of the religion of
Islam and for the purpose of discriminating against
Plaintiffs, as Muslims, in violation of the Establishment
Clause of the First Amendment to the United States
Constitution.
230. Through their scheme, Defendants conspired,
and conspired to go in disguise on the premises of another, for the purpose of depriving Plaintiffs, directly or
indirectly, of the equal protection of the laws, and of
equal privileges and immunities under the laws, because
of their adherence to and practice of Islam. Defendants performed these acts with discriminatory animus
against Muslims.
Third Cause of Action
Violation of the First Amendment Free Exercise Clause
Claim under Bivens; 28 U.S.C. § 1331
(Against All Defendants except the FBI and United
States by all Plaintiffs.)

231. Plaintiffs incorporate Paragraphs 1-230 as if
fully set forth herein.

139
232. As set forth above, Defendants engaged in a
scheme to target Plaintiffs for surveillance because of
Plaintiffs’ adherence to and practice of the religion of
Islam. This scheme discriminates against Muslims, in
violation of the Free Exercise Clause of the First Amendment to the United States Constitution.
233. As set forth above, Defendants’ surveillance
placed a substantial burden on Plaintiffs’ religious exercise in their practice of Islam and is justified by no legitimate government interest.
Fourth Cause of Action
Violation of the First Amendment Free Exercise Clause
Claim under 42 U.S.C. § 1985(3); 28 U.S.C. § 1343
(Against Individual Capacity Defendants by all
Plaintiffs.)

234. Plaintiffs incorporate Paragraphs 1-233 as if
fully set forth herein.
235. As set forth above, Defendants engaged in a
scheme to target Plaintiffs for surveillance because of
Plaintiffs’ adherence to and practice of the religion of
Islam and for the purpose of discriminating against
Plaintiffs, as Muslims in violation of the Free Exercise
Clause of the First Amendment to the United States
Constitution.
236. As set forth above, Defendants’ surveillance
placed a substantial burden on Plaintiffs’ religious exercise in their practice of Islam and is justified by no legitimate government interest.

140
237. Defendants have conspired, and conspired to
go in disguise on the premises of another, for the purpose of depriving Plaintiffs, directly or indirectly, of the
equal protection of the laws, and of equal privileges and
immunities under the laws, because of their adherence
to and practice of Islam. Defendants performed these
acts with discriminatory animus against Muslims.
Fifth Cause of Action
Violation of Religious Freedom Restoration Act,
42 U.S.C. § 2000bb-1
(Against All Defendants by all Plaintiffs.)

238. Plaintiffs incorporate Paragraphs 1-237 as if
fully set forth herein.
239. The actions of Defendants substantially burdened Plaintiffs’ exercise of religion, and are neither in
furtherance of a compelling governmental interest nor
the least restrictive means of furthering any compelling
governmental interest.
Sixth Cause of Action
Violation of Fifth Amendment Equal Protection Clause
Claim under Bivens; 28 U.S.C. § 1331
(Against All Defendants except the FBI and United
States by all Plaintiffs.)

240. Plaintiffs incorporate Paragraphs 1-239 as if
fully set forth herein.
241. As set forth above, Defendants have engaged
in a scheme to target Plaintiffs for surveillance because
of Plaintiffs’ adherence to and practice of the religion of
Islam. This scheme discriminates against Muslims, in

141
violation of the Equal Protection Clause of the Fifth
Amendment to the United States Constitution.
Seventh Cause of Action
Violation of the Equal Protection Clause
Claim under 42 U.S.C. § 1985(3); 28 U.S.C. § 1343
(Against Individual Capacity Defendants by all
Plaintiffs.)

242. Plaintiffs incorporate Paragraphs 1-241 as if
fully set forth herein.
243. As set forth above, Defendants have engaged
in a scheme to target Plaintiffs for surveillance because
of Plaintiffs’ adherence to and practice of the religion of
Islam. This scheme discriminates against Muslims, in
violation of the Equal Protection Clause of the Fifth
Amendment to the United States Constitution.
244. Defendants have conspired, and conspired to
go in disguise on the premises of another, for the purpose of depriving Plaintiffs, directly or indirectly, of the
equal protection of the laws, and of equal privileges and
immunities under the laws, because of their adherence
to and practice of Islam. Defendants performed these
acts with discriminatory animus against Muslims.
Eighth Cause of Action
Violation of the Privacy Act, 5 U.S.C. § 552a(a)-(l)
(Against Defendant FBI by all Plaintiffs.)

245. Plaintiffs incorporate Paragraphs 1-244 as if
fully set forth herein.

142
246. Defendant FBI, through Monteith, collected
and maintained records describing how Plaintiffs exercised their First Amendment rights, in violation of 5
U.S.C. § 552a(e)(7). Collection and maintenance of
these records is not expressly authorized by statute, not
authorized by Plaintiffs, and is neither pertinent to nor
within the scope of an authorized law enforcement activity.
247. Defendant FBI’s collection and maintenance of
records of Plaintiffs’ First Amendment activities was intentional and willful, insofar as Defendants gathered the
information for the purpose of collecting and maintaining records of Plaintiffs’ First Amendment activities.
248. On or about September 6 and 12, 2011, Plaintiffs submitted letters to the FBI requesting that the
FBI disclose all records in the possession of the FBI,
associated with each Plaintiff, that were “gathered
through the surveillance of former FBI informant Craig
Monteilh and/or Operation Flex, as well as any information derived from that information.” The letters
also requested that the FBI “expunge all records associated with [Plaintiffs] that describe the exercise of
[their] rights under the First Amendment of the United
States Constitution that were gathered through the surveillance of former FBI informant Craig Monteilh and/
or Operation Flex, as well as any records derived from
that information.” The FBI has to date failed to provide Plaintiffs with those records or otherwise to respond to their requests.
249. Defendant FBI has failed to disclose records as
required by Section 552a(d)(1). The records requested
are not exempt from disclosure pursuant to Section
552a(j-k) or any other applicable law.

143
Ninth Cause of Action
Violation of the Fourth Amendment
Claim under Bivens; 28 U.S.C. § 1331.
(Against All Defendants except the FBI and United
States by all Plaintiffs.)

250. Plaintiffs incorporate Paragraphs 1-249 as if
fully set forth herein.
251. Defendants’ actions as set forth above constitute unreasonable searches in violation of the Fourth
Amendment to the United States Constitution, including but not limited to Defendants’ actions in audio recording Plaintiffs’ communications without a warrant
and where no party to the communication consented to
the recording; video recording in homes and other
places where Plaintiffs had a reasonable expectation of
privacy against video recording; and entering and planting electronic listening devices in mosques without a
warrant.
Tenth Cause of Action
Violation of the Foreign Intelligence Surveillance Act,
50 U.S.C. § 1810
(Against All Defendants by all Plaintiffs.)

252. Plaintiffs incorporate Paragraphs 1-251 as if
fully set forth herein.
253. Defendants, under color of law, acting through
Monteilh, used electronic, mechanical, and/or other surveillance devices, without a warrant, to monitor Plaintiffs and their communications and/or activities, and to

144
acquire information under circumstances in which Plaintiffs had a reasonable expectation of privacy and a warrant would be required for law enforcement purposes.
Eleventh Cause of Action
Federal Tort Claims Act, 28 U.S.C. §§ 1346(b), 2671 et seq.
(Against Defendant United States by all Plaintiffs.)

254. Plaintiffs incorporate Paragraphs 1-253 as if
fully set forth herein.
255. At all times relevant to the complaint, Defendants Armstrong, Allen, Rose, Tidwell and Walls, were
employees of the United States, acting in the scope of
their employment through their own actions and their
directions to employees and agents, under circumstances that would render the United States, if a private
person, liable for damages that their actions caused
Plaintiffs under California law. The United States is
therefore liable to Plaintiffs, as follows, pursuant to 28
U.S.C. §§ 1346(b) and 2674.
256. The United States, if a private person, would
be liable to Plaintiffs for invasion of privacy under California law. Defendants’ acts in conducting audio and
video surveillance of Plaintiffs, through Monteilh and
Operation Flex, in situations in which Plaintiffs’ had a
reasonable expectation of privacy, constitute intrusions
into a private place or matter in a manner highly offensive to a reasonable person.
257. The United States, if a private person, would
be liable to Plaintiffs for violations of the California constitutional right of privacy set forth in Article 1, section
1 of the California constitution. Defendants’ conduct in
conducting audio and video surveillance of Plaintiffs,

145
both through Monteilh and Operation Flex, in situations
in which Plaintiffs’ had a reasonable expectation of privacy, and in compiling and maintaining information on
Plaintiffs based solely on their religion and religious
practice, amounts to a serious invasion of their rights to
privacy.
258. The United States, if a private person, would
be liable to Plaintiffs for violations of California Civil
Code section 52.1. By subjecting Plaintiffs to constant
surveillance because of their religion, then publicly revealing that surveillance, Defendants have interfered,
or attempted to interfere, by threats, intimidation, or coercion with the exercise or enjoyment by Plaintiffs of
their rights to practice their religion and to be free from
religious discrimination under the California Constitution, in violation of California Civil Code § 52.1.
259. The United States, if a private person, would
be liable to Plaintiffs for the intentional infliction of
emotional distress under California law. Defendants’
acts constitute extreme and outrageous conduct, in which
they engaged with the intention of causing, or a reckless
disregard for the probability of causing, emotional distress in plaintiffs; which was the actual or proximate
cause of severe or extreme emotional distress that
Plaintiffs have suffered.
260. Plaintiffs presented the FBI with notification
of the above-alleged incidents and claims for monetary
damages in claims sent to the FBI using Standard Form
95 on or about February 21, 2011. The FBI failed to
make any response to Plaintiffs’ claims within six
months after they were filed.

146
PRAYER FOR RELIEF

Wherefore, Plaintiffs respectfully request that the
Court grant the following relief:
a.

Certify a Class under Rule 23(b)(2), as described
above;

b.

Injunctive relief on behalf of Plaintiffs and all
other putative class members ordering Defendants to destroy or return any information gathered through the unlawful surveillance program
by Monteilh and/or Operation Flex described
above, and any information derived from that
unlawfully obtained information, as well as to
comply with their obligations under the Privacy
Act, 5 U.S.C. § 552a;

c.

Compensatory and punitive damages for violations of the laws of the United States and California, in an amount to be proven at trial;

d.

Liquidated damages in an amount to be proven
at trial pursuant to 50 U.S.C. §§ 1810(a), 1828(a),
and California Civil Code §§ 52(a), 52.1(b);

e.

Reasonable attorneys’ fees and costs;

f.

Any other relief as this Court deems proper and
just.

Dated:

Sept. 13, 2011
Respectfully Submitted,
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
COUNCIL ON AMERICAN-ISLAMIC
RELATIONS, CALIFORNIA

147
HADSELL STORMER KEENY
RICHARDSON & RENNICK LLP
By:

/s/

PETER BIBRING
PETER BIBRING

Attorneys for Plaintiffs

148

ATTACHMENT
1

149
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF LOS ANGELES—WEST COVINA BRANCH

No. KA059040
THE PEOPLE OF THE STATE OF CALIFORNIA
v.
CRAIG F. MONTEILH, DEFENDANT
West Covina, California; Aug. 20, 2008
2:40 P.M.
PROBATION TERMINATION

[1]
UPON THE ABOVE DATE, THE DEFENDANT
NOT BEING PRESENT IN COURT AND NOT REPRESENTED BY COUNSEL; THE PEOPLE BEING
REPRESENTED BY LINDA CHILSTROM, DEPUTY DISTRICT ATTORNEY OF LOS ANGELES
COUNTY, THE FOLLOWING PROCEEDINGS
WERE HELD:
[2]
CASE NUMBER:

KA059040

CASE NAME:

PEOPLE OF THE STAE
OF
CALIFORNIA
VS.
CRAIG MONTEILH

WEST COVINA,
CALIFORNIA

AUG. 20, 2007

150
DEPARTMENT NO. 8

ABRAHAM
HON.
JUDGE

REPORTER:

DIANA WHITESEL, CSR
NO. 6287
2:40 P.M.

TIME:

KHAN,

APPEARANCES:
(LINDA CHILSTROM, DEPUTY DISTRTICT ATTORNEY OF LOS ANGELES COUNTY.)
-oOoPEOPLE ARE GOING TO MOVETO MAKE A MOTION TO TERMINATE PROBATION.
THE CLERK:

THE COURT:

CRAIG F. MONTEILH. KA059040.

MS. CHILSTROM:
YOUR HONOR, I HAVE
BEEN INFORMED BY MR. SATO OF MY OFFICE
THAT HEAD DEPUTY SCOTT CARBAUGH HAS
REQUESTED THAT THIS CASE—THAT THE PROBATION IN THIS MATTER BE TERMINATED.
THE COURT:

CAN YOU GIVE ME A REASON?

MS. CHILSTROM: I DON’T KNOW A REASON.
I WAS JUST TOLD IT WAS UPON THE REQUEST
OF THE HEAD DEPUTY.
THE COURT: I’M GOING TO CONTINUE THIS
UNTIL TOMORROW UNTIL YOU CAN GIVE ME A
REASON. I USUALLY DON’T TERMINATE PROBATION UNLESS THERE IS SOMETHING I CAN
RELY ON.

151
MS. CHILSTROM:

NOT A PROBLEM.

I TAKE IT, WE’RE WAITING FOR MR. LINDARS.
MAY I MAKE A QUICK CALL?
[3]
(PAUSE IN PROCEEDINGS)
YOUR HONOR, COULD THE
COURT RECALL THE LAST CASE?
MS. CHILSTROM:

THE COURT: OKAY. WE’RE STILL ON THE
RECORD IN CRAIG F. MONTEILH.

YOUR HONOR, I JUST
SPOKE WITH MR. SATO.
INITIALLY I WAS
JUST TOLD THAT THE HEAD DEPUTY WANTED
THE PROBATION TERMINATED.
MS. CHILSTROM:

APPARENTLY THE DEFENDANT IS WORKING WITH F.B.I. AGENT KEVIN ARMSTRONG.
HE HAS GIVEN AGENT ARMSTRONG VERY,
VERY VALUABLE INFORMATION THAT HAS
PROVEN TO BE ESSENTIAL IN AN F.B.I. PROSECUTION. IT WAS AGENT ARMSTRONG THAT
CONTACTED THE HEAD DEPUTY AND THE
HEAD DEPUTY INSTRUCTED US TO ASK FOR
TERMINATION.
WELL, OKAY. I KNOW THE
DEFENDANT HIMSELF WAS HERE IN APRIL
AND HAD REQUESTED EARLY TERMINATION.
AND I BELIEVE ON RECOMMENDATION OF
THE DISTRICT ATTORNEY, I DENIED HIS REQUEST.
AND THAT WAS BACK IN APRIL.
THAT’S WHY I WANTED TO FIND OUT WHAT
THE COURT:

152
THE REASONS WHY WERE AT THIS TIME BECAUSE IT’S ONLY BEEN FOUR MONTHS AFTER.
BUT OTHERWISE HE’S PAID HIS FINANCIAL OBLIGATION AND HE’S OTHERWISE
BEEN ON PROBATION—HOW LONG HAS HE
BEEN ON? IT’S KA059040. IS THAT ’03?
MS. CHILSTROM:
THE CLERK:

5, ’03.

IT IS ‘03, YOUR HONOR.

YES, YOUR HONOR, SINCE MAY

ALL RIGHT.
APPARENTLY
HE’S HAD PROBATION EXTENDED. IT MAY
HAVE BEEN BECAUSE OF A WARRANT THAT
HAD BEEN ISSUED WHICH IT WOULD OTHERWISE TOLL THE RUNNING OF HIS PERIOD.
THE COURT:

[3]
I’LL GRANT THE REQUEST FOR THE
REAONS STATED.
MS. CHILSTROM:

THANK YOU

(THE PROCEEDINGS IN THE ABOVE ENTITLED MATTER WERE ADJOURNED.)
-oOo-

153
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES—
WEST COVINA BRANCH

No. KA059040
THE PEOPLE OF THE STATE OF CALIFORNIA,
PLAINTIFF

v.
CRAIG F. MONTEILH, DEFENDANT
DATED: Dec. 2, 2009
REPORTER’S CERTIFICATE

DEPARTMENT 8

HON. ABRAHAM KHAN , JUDGE

I, DIANA WHITESEL, CSR NO. 6287, OFFICIAL
REPORTER OF THE SUPERIOR COURT OF THE
STATE OF CALIFORNIA, FOR THE COUNTY OF
LOS ANGELES, DO HEREBY CERTIFY THAT
THE FOREGOING IS A TRUE AND CORRECT
TRANSCRIPT OF ALL OF THE ADMONITIONS
TAKEN AT THE TIME OF THE TAKING OF THE
PLEA AND PRONOUNCEMENT OF SENTENCE
IN THE ABOVE-ENTITLED CAUSE; AND FURTHER THAT THE VIEWS AND RECOMMENDATIONS OF THE COURT, IF ANY, ARE CONTAINED THEREIN PURSUANT TO SECTION
1203.01 OF THE PENAL CODE THE ABOVE-ENTITLED MATTER.
/s/ DIANA WHITESEL, CSR NO. 6287
DIANA WHITESEL, OFFICIAL REPORTER

154

ATTACHMENT
2

155
U.S. Department of Justice
Federal Bureau of Investigation

Washington, D.C. 20535-0001
June 16, 2010
Adam J. Krolikowski, Esq.
Woods & Krolikowski
1200 Main Street, Suite H
Irvine, CA 92614
RE: Craig Monteilh [Confidential Communication)
Compliance with NDA Notice Requirement
Dear Mr. Krolikowski:
This office is in receipt of your letter to Steven Kramer dated June 15, 2010. In your letter you state that
Mr. Montielh has “been asked to review and sign declarations prepared by the ACLU for a lawsuit they will be
filing concerning civil rights violations by the FBI within the Islamic Community during the time period of Operation Flex.” I am aware that you have sent previous
letters to the FBI concerning the Non-Disclosure Agreement that Mr. Monteilh signed on October 5, 2007, however; this is the first letter in which you reference a particular FBI operation or investigation. In advance of
June 17, 2010, please provide us with any information
that you intend to include in these declarations that is/or
may be covered by the Non-Disclosure Agreement.
The FBI maintains that all the obligations created under the Non-Disclosure Agreement remain in effect.

156
Notification by Mr. Monteilh that he intends to disclose
information covered by this agreement does not limit or
nullify the obligations that he accepted by signing this
agreement.
Sincerely,
/s/ HENRY R. FELIX
HENRY R. FELIX
Associate General Counsel
Civil Litigation Unit II
Office of the General Counsel
Federal Bureau of Investigation
PA 400
935 Pennsylvania Ave., NW
Washington, D.C, 20535
Phone: 202-220-9328
Fax: 202-220-9355

157
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SANTA ANA DIVISION

Case: SA11-CV-00301 CJC (VBKx)
YASSIR FAZAGA, ET AL., PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
DEFENDANTS

Date: Jan. 30, 2012
Time: 1:30 p.m.
MEMORANDUM OF POINTS AND AUTHORITIES IN
SUPPORT OF MOTION TO DISMISS AMENDED
COMPLAINT AND FOR SUMMARY JUDGMENT

*

*

*

*

*

INTRODUCTION

On September 13, 2011, plaintiffs filed a First
Amended Complaint (FAC) in this action. See Dkt. 49.
Defendants Federal Bureau of Investigation (FBI),
Robert Mueller, Director of the FBI, and Steven Martinez, Assistant Director of the FBI’s Los Angeles Field
Office, sued in their official capacities, renew their motion to dismiss and for summary judgment, joined by
Defendant United States with respect to new claims
raised in the FAC under the Federal Tort Claims Act
(“FTCA”), 28 U.S.C. § 2671, et seq.

158
This action puts at issue whether the FBI engaged in
impermissible counterterrorism investigative activity in
Southern California. Plaintiffs are three residents of
Southern California who allege that, through an investigation dubbed “Operation Flex,” the FBI utilized a paid
informant (Craig Monteilh) to “indiscriminately collect
personal information on hundreds and perhaps thousands of innocent Muslim Americans in Southern California . . . simply because the targets were Muslim.” See FAC ¶¶ 1-3, 86, 89. Plaintiffs also assert
that Operation Flex was part of the FBI’s effort, after
the terrorist attacks of September 11, 2001, to focus
counterterrorism investigations on Muslim communities
in the United States under applicable policies issued after 9/11. See id. ¶¶ 24, 32-37.
Plaintiffs seek damages against several current and
former FBI agents and officials in their individual capacities, see id. ¶¶ 18-22; Claims 1-7, 9-10; injunctive relief against the FBI and official capacity defendants in
the form of the disclosure or destruction of the investigative information, see id. ¶¶ 15-17, Prayer for Relief
¶ b; and damages against the United States of America
pursuant to the FTCA, see FAC ¶¶ 254-260, Prayer for
Relief ¶¶ c-d. Plaintiffs also seek certification of a class
of “[a]ll individuals targeted by Defendants for surveillance or information-gathering through Monteilh and
Operation Flex, on account of their religion, and about
whom the FBI thereby gathered personally identifiable
information.” Id. ¶ 219; see also id. ¶¶ 220-225.
The FBI has made clear that counterterrorism investigations may not be based solely on religion or First
Amendment protected activities; indeed, the very policies plaintiffs again cite in their Amended Complaint set

159
forth these FBI policies. It should be apparent, however, that moving beyond these important general principles to the details of a specific investigation in order to
rebut plaintiffs’ claims would risk or require the disclosure of sensitive investigative information.
While the FBI has previously acknowledged that
Monteilh was a confidential source, a range of details
concerning Operation Flex, for which Monteilh provided
information, remains properly protected counterterrorism investigative information. This includes, principally, evidence detailing the nature and scope of Operation Flex—precisely what that investigation entailed
and why it was undertaken, the identity of particular
subjects, and the reasons they were investigated. This
evidence is by no means at the margins of this lawsuit.
The purpose of the plaintiffs’ claims is to ascertain what
Operation Flex entailed and to litigate its alleged unlawfulness. Accordingly, as set forth in more detail below,
the Government renews its response to these allegations
by seeking to protect certain evidence that cannot be
disclosed in the interests of national security but without seeking dismissal of all claims on that basis.
First, the Attorney General’s state secrets privilege
assertion of August 1, 2011, identifies and seeks to protect certain investigative information implicated by the
allegations in this case—(i) the identities of particular
subjects of counterterrorism investigations, including in
Operation Flex; (ii) the reasons those investigations occurred; and (iii) particular sources and methods utilized
by the FBI in the investigations—because the privilege
is “necessary to protect against the risk of significant
harm to national security.” See Declaration of Eric H.

160
Holder (“Holder Decl.”) ¶¶ 3-4, 12 (Dkt. 32-3, filed August 1, 2011). The basis for the Attorney General’s
privilege assertion is set forth to the extent possible on
the public record in the Attorney General’s unclassified
declaration, as well as in an unclassified declaration of
Mark Giuliano, Assistant Director of the FBI’s Counterterrorism Division (Dkt. 33, filed August 1, 2011). Details concerning why this information is properly protected from disclosure are set forth in the classified declaration of Mr. Giuliano submitted on August 1, 2011, for
the Court’s ex parte, in camera review. See Notice of
Lodging at Dkt. 35. 1 In accord with a policy announced
on September 23, 2009, the Attorney General’s privilege
assertion in this case is “necessary to protect against the
risk of significant harm to national security.” See
Holder Decl. ¶ 12 and Exhibit 1 thereto (State Secrets
Policy).
Importantly, however, the Attorney General’s privilege assertion is limited in nature, and the Government’s
request for dismissal is narrowly tailored. The Government does not seek dismissal of all claims at the outset based on the privilege assertion, nor to bar disclosure of all information concerning Operation Flex or
Monteilh’s activities. The Government’s motion relies
Mr. Giuliano has executed a supplemental classified declaration
that updates the status of certain investigations discussed in his
prior classified declaration. See Notice of Filing Supplemental Classified Declaration filed herewith. Through these classified ex parte,
in camera submissions, the Government seeks to inform the Court
at the outset of this case as to the sensitive, privileged facts that the
Government believes must be protected from disclosure and excluded from the case. The Government does not consent to the disclosure of the information described in the classified Giuliano declarations to plaintiffs or their counsel.
1

161
first on considerations apart from state secrets that require dismissal of plaintiffs’ claims. The Government’s
motion then seeks to distinguish between claims for
which privileged evidence would be required and claims
that may not require such evidence. Where litigation
of a claim would risk or require the disclosure of privileged information, and the claim is not otherwise dismissed on non-privilege grounds, the need to protect
properly privileged information would require dismissal
of that claim.
With respect to non-privilege grounds for dismissal,
the United States seeks dismissal of the newly raised
FTCA claims for failure to state a claim upon which relief can be granted, for the reasons detailed below. In
addition, the FBI and official capacity defendants first
seek dismissal or, in the alternative, summary judgment
on the grounds that the relief sought by plaintiffs
against these defendants—the disclosure and expungement of alleged records—is not authorized or available
under the Privacy Act or other law. Because this is the
only relief plaintiffs seek for all of their claims against
these defendants, the Court should dismiss the entire
Amended Complaint as to the FBI and Defendants
Mueller and Martinez on this ground. In addition,
plaintiffs’ claims against the FBI, official capacity defendants, and the United States brought pursuant to
Section 1810 of the Foreign Intelligence Surveillance
Act (“FISA”), 50 U.S.C. § 1810, should be dismissed because sovereign immunity bars this cause of action as to
the United States and Government officials sued in their
official capacities.
Absent dismissal on the non-privilege grounds advanced herein, the FBI and official capacity defendants

162
do not seek to dismiss plaintiffs’ Fourth Amendment
and FISA claims based on the state secrets privilege.
At least at this stage of the proceedings, sufficient nonprivileged evidence may be available to litigate these
claims should they otherwise survive motions to dismiss
on non-privilege grounds. The FBI has previously disclosed in a separate criminal proceeding that Monteilh
collected audio and video information for the FBI, and
some of that audio and video information was produced
in that prior case. See Public Declaration of Mark. F.
Giuliano (“Pub. Giuliano Decl.”) ¶ 12 (Dkt. 33). The
FBI has been reviewing additional audio and video collected by Monteilh for possible disclosure in connection
with further proceedings on the issue of whether the
FBI instructed or permitted Monteilh to leave recording
devices unattended in order to collect non-consenting
communications. See id. The FBI expects that the
majority of the audio and video will be available in connection with further proceedings. Thus, while it remains possible that the need to protect properly privileged national security information might still foreclose
litigation of these claims, at present the FBI and official
capacity defendants do not seek to dismiss these claims
based on the privilege assertion.
In contrast, however, litigating plaintiffs’ allegations
of an indiscriminate investigation based solely on religion would risk or require the disclosure of properly
privileged information and, unless these claims are dismissed on nonprivileged grounds, the Government
seeks their dismissal as to all defendants at the outset
based on the state secrets privilege. While presented
under various statutory and constitutional theories,
plaintiffs’ discrimination claims raise one issue: whether
the FBI, through its agents, impermissibly investigated

163
and collected information on plaintiffs (and other putative class members) based solely on their religion. See
FAC, Causes of Action 1 to 7, at 62-65; see also id.
Cause of Action 11 at 67-68 (FTCA). These claims put
at issue core privileged information concerning the
scope and purpose of Operation Flex. Because plaintiffs allege that the FBI indiscriminately collected information based solely on religion, any rebuttal of this
claim would risk or require disclosure of whom and what
the FBI was investigating under Operation Flex and
why. This is precisely the kind of sensitive investigative information that cannot be disclosed without risking
significant harm to national security.
The Court should first consider the impact of the
state secrets privilege assertion on claims brought against
the individual capacity defendants. These individuals
have threshold legal defenses under the Bivens and
qualified immunity doctrines. Moreover, because litigation of plaintiffs’ religious discrimination claims against
the individual capacity defendants will inherently put at
issue and risk the disclosure of privileged information,
these claims should be dismissed at the outset as to the
individual capacity defendants. Mohammed v. Jeppesen
Dataplan, Inc., 614 F.3d 1070, 1080-81 (9th Cir. 2010)
(state secrets privilege may be asserted at the pleading
stage rather than waiting for an evidentiary dispute).
Similarly, because privileged information will also be inherently at risk of disclosure in any litigation of the religious discrimination claims against the FBI, official capacity defendants, and the United States, dismissal of
these claims as to these defendants based on the privilege assertion would also be appropriate at this stage.
To the extent the Court wishes to evaluate further the
impact of the privilege assertion on claims against the

164
Government, it should at least dismiss plaintiffs’ religious discrimination claims against the individual capacity defendants, in light of their unique threshold legal
defenses, and require plaintiffs to demonstrate in proceedings under Fed. R. Civ. P. 16 and 26 what discovery
it intends to seek against the Government Defendants
concerning these claims.
Proceeding in the foregoing manner, the Government
seeks to advise the Court at the outset of the underlying
national security information that lies at the heart of
this case and must be protected, while narrowly tailoring its request for dismissal by presenting non-privilege
defenses first, seeking dismissal of some but not all
claims on privilege grounds, and focusing on the impact
of the privilege on the threshold defenses of the individual capacity defendants, before addressing whether any
remaining claims against the Government Defendants
should also be dismissed on privilege grounds.
*

*

*

*

*

165
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

Case No.: SA CV 11-00301 CJC (VBKx)
YASSIR FAZAGA, ET AL., PLAINTIFFS
v.
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
DEFENDANTS

DECLARATIONS OF CRAIG MONTEILH
SUBMITTED BY PLAINTIFFS IN SUPPORT OF
THEIR OPPOSITIONS TO MOTIONS TO DISMISS

INDEX OF DECLARATIONS
1. Declaration of Craig Monteilh (April 23, 2010) ............ 99
2. Declaration of Craig Monteilh re Fazaga
(October 11, 2011) ........................................................ 134
3. Declaration of Craig Monteilh re Malik (October
11, 2011) ........................................................................ 139
4. Declaration of Craig Monteilh re AbdelRahim
(August 11, 2011) ......................................................... 146

166
DECLARATION OF CRAIG F. MONTEILH

I, Craig F. Monteilh, make this declaration of my own
personal knowledge and if called to testify, I could and
would do so as follows:
1. From about July 2006 until October 2007, I
worked for the United States Federal Bureau of Investigation (“FBI”) as an undercover informant assigned to
infiltrate the Muslim community in Southern California.
During this time, I spent about six or seven days a week
posing as a Muslim convert named Farouk al-Aziz, conducting surveillance and gathering information on a
wide variety of individuals and organizations in the Muslim community.
Background, Training, and Placement as an Undercover
Informant

2. In around early 2004, I met some police officers
in Orange County who were working on a FBI narcotics
task force, and discovered that I knew information from
time I had spent in prison that was relevant to some of
their investigations. I began working for the task force
as a confidential informant, under the supervision of an
FBI agent assigned to the task force, Special Agent
Christopher Gicking, and his supervisor, Special Agent
Tracy Hanlon, who worked in the FBI’s criminal division in Santa Ana. Over the next two years, I continued to work for the FBI, supervised by Agents Gicking
and Hanlon, on a series of assignments as an undercover
informant on different criminal enterprises.
3. In about May 2006, Agents Hanlon and Gicking
asked if I wanted to work in a new type of assignment
for the national security division of the FBI, investigating potential terrorists and infiltrating mosques. I

167
said I was interested and they arranged a meeting in or
around June 2006 with FBI Special Agent Kevin Armstrong and another FBI agent, also named Kevin.
They told me they worked for the FBI’s counterterrorism division in Santa Ana, California, and were assigned
to the Orange County Joint Terrorism Task Force
(“JTTF”). Agent Armstrong told me that the head of
their team, FBI Special Agent Paul Allen, was in Washington, D.C., but wanted to meet with me the following
week. Agent Armstrong told me I would no longer be
working with criminal division, but would work for counterterrorism from then on and that he and Agent Allen
would be assigned to supervise and direct my work, or
to be my “handlers.” (References to “my handlers”
here mean Agents Armstrong and Allen.)
4. The next week I met with Agent Armstrong and
Agent Allen, who showed me FBI credentials and identified himself as the head of a counterterrorism team at
the JTTF. During this meeting, we discussed my
physical appearance and skin tone, and Agents Allen
and Armstrong suggested that I could pass as Syrian or
Algerian. I had another meeting with Agents Armstrong and Allen, just a few days later, where Agent Allen asked me various questions about my background
and knowledge of politics and world affairs, which I understood was to gauge my suitability to work as an informant.
5. When Agents Armstrong and Allen hired me to
work for the counterterrorism division, the FBI increased my pay from the $3,000 to $4,000 per month I
made working for the criminal division to about $6,000
per month. Over the course of the next fourteen months,

168
the FBI, through my handlers, increased my compensation as I became more accepted by the Muslim community and more useful as an informant, so that my compensation topped out at about $11,200 per month.
6. Eventually, my handlers told me that the FBI
used the name “Operation Flex” for the surveillance
program that used me. My handlers told me this repeatedly, and I heard other agents refer to it as well.
My handlers told me that this was a reference to me,
since I conducted informant work in gyms under the
cover of working as a fitness consultant, both when I
worked for the criminal division and for counterterrorism. But my handlers told me that Operation Flex was
a broader surveillance program that went beyond just
my work.
7. In about July 2006, my FBI handlers put me
through a training program in which they had me learn
the basics of the Arabic language and the religion of Islam. They explained that the purpose of this training
was to make the account of my background more credible. Agent Armstrong also trained me in the martial
art of Krav Maga. My handlers also talked to me extensively about how, once I began my assignment, I
should progress in exhibiting the culture and customs of
Islam. This training lasted approximately two weeks
of twelve to fourteen hour days, with little time off, and
took place in a large warehouse that my handlers drove
me to while I was blindfolded. Agents Armstrong and
Allen supervised the training.
8. In about late July 2006, my handlers told me to
make an appointment to see Sheikh Sadullah Khan, an
imam at the Islamic Center of Irvine (“ICOI”), a mosque
in Irvine, California. My handlers told me to tell Khan

169
that I was of Syrian and French descent and that I
wanted to embrace my Islamic roots and formally convert to Islam. My handlers gave me no background on
Khan, but just told me to stick to this story. I made the
appointment and then met with Khan a few days later in
his office at ICOI, in the presence of two imams from
mosques in Garden Grove and Anaheim. After a conversation with Khan, he told me I could take shahaddah
(make a public declaration of my faith) the next day at
the jummah prayer (the Friday prayer that is the most
important service of the week). I reported this to
Agent Allen and he instructed me to do so, so I came
back to ICOI the next day and took shahaddah before a
congregation of hundreds of Muslims. I immediately began to attend the mosque on a daily basis.
9. About a week after I took shahaddah, I took the
Muslim name Farouk al-Aziz.
I attended prayers
daily, often multiple times a day. At first I attended
prayers only at ICOI, but as time went on, my handlers
encouraged me to go to other mosques around the area
as well. Muslims who met me in the mosque generally
embraced me as a new convert. On my handlers’ instructions, I took every opportunity to meet people, get
their contact information, meet them privately to get to
know them, find out their background, find out their religious and political views, and get any information on
them I could for the FBI.
10. My handlers told me that because of my criminal
background, any information I collected would have to
be recorded. My handlers told me, “If it isn’t recorded,
it didn’t happen.” My handlers initially gave me a
small audio recording device called an “f-bird,” but in
about September 2006 replaced that with a cell phone

170
and two key fobs (which looked like remote controls for
car locks) with audio recording devices in them that
could be used to record conversations that went on
around me. I used these recording devices to record
all day, every moment I worked undercover, regardless
who I was meeting or what was discussed. I would turn
on one of the devices in the car before I left my house,
and not turn it off until I arrived home. My handlers
instructed me to record everything, without any limitations. Agent Allen told me later on that there was a
team transcribing all the conversations I recorded, and
although I frequently discussed recordings with my
handlers, they never stated or even suggested that they
attempted to minimize intrusions by listening only to
snippets of conversations to see if they were relevant.
11. Beginning in about February 2007, on various
occasions, my handlers outfitted me with video surveillance equipment that recorded through a camera hidden
in a button in the front of my shirt. They told me that
the video surveillance equipment also recorded audio.
In the beginning, the video equipment was somewhat
difficult to set up, and required my handlers’ assistance,
so I did not use it regularly. By about April 2007, my
handlers had improved the design of the video equipment and I would use video surveillance several days per
week. My handlers instructed me to use the video camera for various specific purposes to capture the internal
layout of mosques, to film basketball or soccer games to
see who associated with whom, to film guest lectures to
see what was said and who attended, or when I went into
people’s houses. My handlers would also instruct me
to go open particular doors in homes or mosques and
film the room behind.

171
12. On my handlers’ instructions, I also composed
daily notes of my activities and the surveillance I had
undertaken. These notes were extensive—my handlers instructed me to “empty my head” about what I
had learned that day—so that I regularly spent an hour
or two each evening writing my notes. After a while,
these notes became voluminous, and my handlers instructed me to prepare separate “supplemental notes”
containing any sensitive or particularly valuable information. These were all handwritten. I gave them to
my handlers when I met them twice a week.
13. Over the course of my work for the FBI, my handlers at various times discussed with me what happened
to these notes. Agent Armstrong once told me that
these notes were used as part of packages to obtain warrants for further surveillance on the individuals or organizations about whom I wrote. Both handlers talked
to me at various times about federal judges reading my
notes. My handlers also told me that their supervisors
were reading the notes: Agent Allen once told me that
my notes were seen in “the Beltway,” that they were
seen by people with “a lot of authority,” and that the Assistant Director in Charge in the FBI’s Los Angeles
field office, who at that time was Stephen Tidwell, read
all my notes.
14. From about August 2006 to October 2007, I met
with Agents Allen and Armstrong about twice per week
for meetings to discuss my assignments, for me to read
through my notes with them so they could ask further
questions, for them to give me instructions based on the
information I provided, so I could give them my daily
notes, and so they could either exchange my recording

172
devices for fresh ones or upload the recordings to a computer while we spoke. These meetings were held in
public places, outside the areas where the Muslim community lived. About once per month, I met with my
handlers in a room at the Anaheim Hilton Hotel, where
they questioned me on the information I provided and
gave me instructions in greater detail. I would also receive my payment at these monthly meetings. I would
sign off on these payments under my code name, Oracle.
At the meetings in the hotel, other agents were sometimes present.
15. My handlers also gave me an email address under an alias to use to send time-sensitive information
that could not wait until our next meeting, such as a
Muslim’s imminent travel plans.
16. Agents Allen and Armstrong monitored and supervised my work as an undercover informant quite
closely. Through my notes and our twice weekly meetings, I told them everything I was doing and every piece
of information I could recall. They gave me instructions, or “tasking orders,” regularly. They gave me
both standing instructions on kinds of information to
gather whenever I could—for example, to meet and get
contact information for a certain number of Muslims per
day—and also gave me specific instructions either in response to information I provided or based on information they wanted—such as, for example, instructions
to get inside a certain house within the week or to have
lunch with a particular person two times. My handlers
also gave me standing orders to call one of them every
day, even on my days off. I did this, and I would call
one or both of them each day to apprise them of my day’s
activities.

173
17. Agents Allen and Armstrong did not, however,
limit me to specific targets on which they wanted information. When I first met with Sadullah Khan at ICOI
and began infiltrating the community, my handlers did
not give me any specific targets, but instead told me to
gather as much information on as many people in the
Muslim community as possible. For example, my handlers at first told me I would make my initial contact
with the community by attending services at a mosque
in Anaheim, but eventually advised me to attend ICOI
instead because it was closer to where I lived, so I could
spend more time there.
18. My handlers told me to look for and identify to
them people with certain backgrounds or traits, such as
anyone who studied fiqh, who openly criticized U.S. foreign policy, including the U.S. military’s presence in
Muslim countries; who had any kind of military training;
who was an imam or sheikh; who went on Hajj; who
played a leadership role at a mosque or in the Muslim
community; who expressed sympathies to mujahideen;
who was a quiet loner; who was a “white” Muslim; or who
went to a madrassa overseas. But my handlers did not
tell me to limit the information I collected to those people. They would occasionally take people I identified
and tell me to spend more time with them or find out
more about them, but these were always people I identified to them during the course of the operation, not
people who had been targeted from the outset. I had
no specific targets at the outset. To the contrary, my
handlers tasked me with immersing myself in the Muslim community and gathering as much information on as
many people and institutions as possible.

174
My Assignments and Activities as an Undercover Informant

19. My handlers gave me a standing tasking order
that applied throughout the duration of my undercover
work to get as much information as possible on any Muslim I came into contact with at the mosques or in the
Muslim community. Agent Allen told me, “We want to
get as many files on this community as possible.” My
handlers explained to me that the United States was five
to ten years behind Europe in the extent of Islamic presence, and that they needed to build files on as many individuals as possible so that when things started to happen, they would know where to go. They said they
were building files in areas with the biggest concentrations of Muslim Americans—New York; the Dearborn,
Michigan area; and the Orange County/Los Angeles
area.
20. One thing my handlers wanted me to collect was
contact information, particularly email addresses and
phone numbers. At times, my handlers even gave me
a quota to collect contact information for ten new Muslims per day. I reported this information in my daily
notes. My handlers also told me that they monitored
my email and cell phones to obtain the telephone numbers and email addresses of people with whom I corresponded. Agent Allen instructed me to give out my cell
phone number widely so that people would call me or
give me their cell numbers in return, so that the FBI
could collect those numbers. My handlers also instructed me to email frequently with people, so that the
FBI could collect their email addresses. My handlers
told me that they used the cell phone numbers and email

175
addresses of individuals who contacted me to obtain information from those individuals’ phone and email accounts, including the list of people they contacted. My
handlers gave me a particular email address under an
alias to which they instructed me to forward these
emails.
21. Agents Allen and Armstrong told me that they
kept the numbers and emails I collected in a database
that could be monitored for international calls, or crossreferenced against phone calls or emails to persons of
interest who were believed to be linked to terrorism.
They also told me that the emails could be used to determine if the person was visiting certain websites, and
with whom they were emailing. I also joined email distribution lists for many of the mosques I surveilled so
that I could obtain the mosque membership lists and all
of the email addresses. I would forward messages
from the mosques to the FBI so they would be informed
about events and bulletins, and so they would have the
email addresses of anybody else who received the message.
22. During the course of my work, I had discussions
with my handlers about whether what I was doing was
productive, and whether the information I collected was
actually being used. They assured me that all the information I collected was retained, and that they didn’t
discard any of the information. My handlers also told
me that this information was used to build files on individuals. My handlers told me that every person who I
contacted—whose phone number I got, who I emailed,
who I identified through photographs—had an individual file in which the information I gathered was retained.

176
23. My handlers also tasked me with gathering information on mosques in the Orange County and Los
Angeles areas.
They instructed me, among other
things, to map the mosques by locating entrances, exits,
rooms, bathrooms, locked doors, storage rooms, as well
as security measures and whether any security guards
were armed. In some mosques, I used hidden video
equipment attached to a camera in my shirt button to
take images of the layout of the mosque. My handlers
informed me that this information would be used by the
FBI to enter the mosques in case they needed to raid it
or if they needed to enter and place electronic surveillance equipment in them. My handlers also instructed
me to try to get the security codes for the alarm systems
at several mosques. I managed to obtain the codes for
one mosque by arriving early for dawn prayer and
watching the person who opened the mosque punch the
code in. I gave this information to my handlers. My
handlers told me that they had the security codes to at
least one other mosque, as well. They told me that they
used the security codes to send agents into these two
mosques at night.
24. My handlers also tasked me with getting brochures on charities that were distributed in the mosques,
visiting the mosques’ libraries or book areas to look for
extremist books, collecting newsletters and bulletins to
see what activities were going on in the mosque, and collecting names of individuals who attended, as well as
their cell phone numbers and license plates.
25. In addition to information about the membership of each mosque, my handlers also wanted the names
of all board members, imams, people who taught classes
at the mosques, and other leadership within the mosques.

177
26. Over the course of my work, I went to about ten
mosques and conducted surveillance and audio recording in each one. I spent the most time at ICOI, which
I attended daily, but I spent significant time at other
mosques, including the Orange County Islamic Foundation mosque in Mission Viejo, Durul Falah in Tustin,
Omar al-Farouq mosque in Anaheim, Islamic Society of
Orange County in Garden Grove, Al-Fatiha in the West
Covina/Azusa area, the mosque in Lomita, and King
Fahd mosque in Culver City. For about five or six
months I went at least once a week to each of these
mosques. I would go to as many as four different
mosques in a day. Even if I didn’t pray at each mosque,
I would go to the mosque and talk to people, or meet
people at the mosque and go to the gym with them. I
also went a few times to West Coast Islamic Center in
Anaheim and a mosque in Upland.
27. Agent Armstrong told me that the FBI had
every mosque—the ones I went to and the ones I didn’t
go to—under surveillance.
28. My handlers informed me that electronic surveillance equipment was installed in at least eight area
mosques including ICOI, and the mosques in Tustin,
Mission Viejo, Culver City, Lomita, West Covina, and
Upland. He told me at one point that they could get in
a lot of trouble if people found out what surveillance they
had in the mosques, which I understood to mean that
they did not have warrants.
29. At times, if I was left alone in a mosque office, I
would look in drawers, which I understood to be consistent with my instructions to gather as much information as possible. I wrote these incidents up in my
supplemental reports, and was never told not to do this.

178
30. My handlers instructed me to keep an eye out for
people who tended to attract young Muslims and to identify and gather information on such people. They told
me that they wanted to investigate anyone who had the
attention of the youth or influence over young people to
see if they were radicalizing them. For example, there
was a popular youth group on Tuesdays at ICOI run by
the imam, Sadullah Khan. Students from the Muslim
Student Union at the University of California, Irvine
(“UCI”) would attend. To implement my handlers’ instructions, on many occasions I recorded the youth
group meetings at ICOI by leaving my possessions, including my key fob, near where the group met in the
prayer hall so that all of their discussions could be recorded. I did this by going into the prayer hall during
their meetings to pray, and then leaving behind my possessions, as if I had forgotten them or just chosen to
leave them there while I did other things. I would go
to another part of the mosque or the courtyard, and return sometime later to collect my things. I told my handlers I did this in my written reports. My handlers
never instructed me to stop this practice, and in fact discussed with me the contents of the recordings obtained
in this manner.
31. Beginning in about September 2006, my handlers gave me a standing task to gather information on
Muslims’ charitable giving. My handlers instructed
me to collect any pamphlet or brochure at any mosque
that concerned charitable donations. They also told
me to inquire of Muslims about which charities and
madrassas to give to. I did this, and gave the names of
the charities and madrassas to my handlers. My handlers specifically told me to ask people about madrassas
or charities sympathetic to the mujahideen or jihad; to

179
inquire about charities providing money to Somalia,
Yemen, Pakistan and Afghanistan; and to inquire about
money going to Lebanon and Palestine. They also instructed me to ask people how to avoid having my donations traced by the U.S. government. My handlers said
that if a worshipper paid by check, the FBI could trace
that check from the person’s bank account to the organization. My handlers, in several conversations, told me
that the FBI would open a file on any person who wrote
a check to any Islamic charity they were interested in,
not just those officially designated as terrorist organizations.
32. My handlers also instructed me to attend Muslim fundraising events, to interact with the community
and gather information, to identify people who attended
and who they came with, and, if there were any speakers, to record what those speakers said. On my handlers’ instruction, I attended a benefit for ICOI at a hotel in Irvine, where on their orders I purchased a vase
for about $900 to bolster my credibility among the community.
33. My handlers also instructed me to attend lectures by Muslim scholars and other guest speakers. I
attended lectures of Yusuf Estes, a white Muslim
scholar from Texas, and Hamza Yusuf, another white
Muslim scholar from Oakland. My handlers wanted to
know both what the lecturers said and who attended
these lectures, so they set me up with a video surveillance device that had a camera in a shirt button. I went
early and got a seat in the front row where I could clearly
record the lecture. Afterwards, when people were socializing, I walked around filming attendees with my

180
camera. I also collected license plate numbers from
the parking lots to identify those who attended.
34. During my time working on Operation Flex, I
told people in the Muslim community that I worked as a
fitness consultant. In about November 2006, Agent Allen instructed me to start going to the gym to work out
with people I met from the Muslim community in order
to get close to them and obtain information about them.
They did not limit the scope of their instructions; the directive included anyone from any mosque without any
specific target, for the purpose of collecting as much information as possible about Muslim men in the community. I went to various 24-Hour Fitness and L.A. Fitness gyms around the Orange County area. These
workouts provided an easy opportunity to talk with people and to elicit a wide variety of information pursuant
to my handlers’ instructions. For example, I would
talk to people about their lives and get information
about their problems that my handlers could use to pressure them to provide information or become informants.
I also learned people’s travel plans and their political or
religious views, and could elicit responses that the FBI
might use to justify further surveillance by asking
pointed questions about Islam or politics. I recorded
these conversations using the equipment on my key fob
or cell phone. This surveillance was so fruitful that my
handlers eventually told me they were seeking approval
to have me open a Muslim gym.
35. During my regular meetings with my handlers,
they showed me photographs of Muslims from the community and asked me to identify the people in them.
Frequently, these were photographs of people I worked

181
out with taken at the entrance to the gym. My handlers told me that they had an arrangement with the
gyms to obtain photographs from the security cameras.
Other photographs came from parking lots, parks, restaurants, or other public places. When I asked how
they got the other photographs, they told me they had
“assets in place.” They asked me to provide as much
information as possible about each person—they told me
to “empty my head” on the individuals. They wanted to
know, among other things, what mosque they attended,
their ethnicity or country of origin, the languages they
spoke, the people they associated with, what kind of car
they drove, their occupation or whether they were a student, as well as any other information I could obtain.
36. Agent Allen told me that Islamic restaurants in
Anaheim and Irvine were under video surveillance, so
they could see who associated with whom. Agent Allen
also said they surveilled soccer and basketball games for
the same reason. I frequently met people in restaurants and cafés and recorded conversations there.
37. I also had standing orders to enter and observe
Muslim schools whenever possible. When I first reported entering a Muslim school, my handlers questioned me intently on whether I had witnessed children
chanting from the Quran. When I said I hadn’t, they
asked me again and told me that if I had, that would take
the case to a “new level.” My handlers more than once
told me to look for Quranic reciters at the schools. My
handlers also instructed me to look for photos of extremists, books by extremists, and whether the children were
learning subjects besides Islam, like math, English or
history. My handlers said that they did not want an Islamic school to be an “American madrassa.”

182
38. I attended an Arabic language class at ICOI
from about December 2006 to March 2007. My handlers instructed me to obtain the lists of the individuals
who attended the class, which I provided to my handlers.
My handlers told me that they retained the information
about who took the class.
39. I also attended a course in fiqh, or Islamic law
which pertains to morals and etiquette. My handlers
were interested in fiqh because parts of fiqh address
military training. At my handlers’ request, I got a copy
of the list of people who attended the class. Because
this list included the languages that class members
spoke, it provided a clear indication of their ethnicity or
country of origin as well.
40. My handlers were only interested in Muslims,
and set aside any non-Muslims who were identified
through surveillance I performed. For example, on
several occasions when my handlers asked me to identify individuals from photographs taken by surveillance
cameras at the entrances to the gyms, they would
present me photographs of individuals who were not
Muslim—usually Latino—whom I might have spoken to
or who had simply helped me lift weights. When I indicated to my handlers that the individual was not a
Muslim, the picture was discarded.
41. My handlers were interested in websites that
they believed were jihadist, including MissionIslam.com
and CagePrisoners.com (a site devoted to raising awareness about the detainees at Guantanamo Bay). Agent
Allen told me to encourage people I spoke with to go to
these websites because they could document people’s
visits to the website and use that either to pressure them

183
to become informants or to justify further surveillance
on them.
42. My handlers encouraged me to bring up Muslim
scholars and thinkers who they believed were extremist
in my conversations with individuals in the community.
This included Hassan al-Banna, Sayyid Qutb, Sheikh
Suhaib Webb, Yusuf al-Qaradawi, Yusef Estes, Ayman
al-Zawahiri, Anwar al-Awlaki, and others.
Increasing Infiltration of the Muslim Community

43. The people I met at the mosques helped me learn
how to pray, learn how to dress, and learn Islamic culture and etiquette. My handlers told me to allow Muslims I met to “radicalize” me gradually, and saw the help
the community was giving me as the first steps toward
such radicalization. I felt the people who helped me
were sincere in wanting me to develop in my Muslim
faith and wanting to have me as part of the community
and part of the mosque. My handlers instructed me
not to talk too openly about jihad at first, but to go to
prayers at the mosque and be seen. My handlers were
very pleased that I developed a rapport with the community so quickly.
44. As months went on and I was increasingly accepted by the Muslim community and the leadership at
mosques, and I continued to work generally six or seven
days a week, my handlers seemed to place increasing
trust in me. While at first they told me as little as possible about what else they knew about the community
and what other intelligence efforts were ongoing, after
several months they began to tell me more about what
other kinds of surveillance they were undertaking, how
they knew certain things, and how the intelligence I

184
gathered was being used, so that I could understand how
to work effectively.
45. In about October 2006, on the instruction of
Agent Allen, I began to try to appear more Muslim. I
went to the mosque early and prayed loudly, and wore
traditional clothes that people at the mosque had given
me. My handlers told me that nobody in the community leadership, people of interest, or youth suspected
that I was an informant. I asked how he knew, and he
eventually told me that they listened to a number of conversations in which people were discussing me outside.
I realized that these were conversations that I could not
have recorded, which meant that my handlers were getting this information from other electronic surveillance.
46. My handlers also instructed me to start attending fajr (dawn) prayers, which are held about 4 a.m., or
ishaa (late) prayers, which are held about 9:30 p.m.
My handlers told me that people who attended prayers
very early in the morning or late at night, and especially
both, were very devout and therefore more suspicious.
They instructed me to obtain the names and the license
plate numbers of individuals who attended these prayers. When I agreed to go to fajr prayer four days a
week, my pay increased substantially.
47. My handlers instructed me to memorize certain
ayas and surahs (verses and chapters from the Quran)
and to ask Muslims about them. My handlers told me
that they had picked these verses because they believed
them to be susceptible to a jihadist interpretation, so
that people’s reactions to them would help discern who
was and was not a threat. They told me that discussions about these verses would elicit responses that
could be used to justify additional surveillance

185
measures. A true and correct copy of a tasking order
in Agent Allen’s handwriting specifying certain verses
is attached hereto as Exhibit A.
48. My handlers also instructed me to elicit reactions from people by talking provocatively about U.S.
foreign policy—for example, by raising the issue of civilian Muslim men, women, and children killed in conflicts
in Iraq, Afghanistan, Palestine, and Lebanon. By stirring people to speak out of anger, they told me, I could
again elicit responses that could be used to justify additional surveillance measures against those people.
49. Beginning in about January 2007, an individual
who called himself George began coming roughly every
month to meetings with my handlers. George said he
was “from Langley,” which I understood to mean that
he worked for the Central Intelligence Agency headquartered in Langley, Virginia. When I once mentioned him as working for the CIA, Agent Allen said
something to the effect, “We don’t say that. Say he is
‘from Langley.’ ” No one ever told me George’s last
name. George spoke Arabic very well and knew a
great deal about Islam—he would speak Arabic with me
and comment on my improved fluency, as well as ask me
questions about Islam and the Quran to monitor my progress in acquiring the appearance of being a devout
Muslim. George also instructed me on my grooming
and physical appearance to make it seem that I was increasingly devout. For example, at one point he instructed me to develop a sore on my forehead from
bending my head to the carpet in prayer, to make clear
that I was praying all the time.
50. On about four different occasions, during the
meetings with my handlers at the hotel room, they showed

186
me a huge photo array on a large board consisting of the
photos of around two hundred Muslims from the Orange
County/Los Angeles area. My handlers used different
sets of photographs for each of these meetings, so
showed me many hundreds of photographs over the four
meetings. They instructed me to arrange the photos
from the most dangerous to the least based on my
knowledge and experience. The entire leadership of
the Islamic community were in the photos—sheikhs,
imams, board members, prayer leaders, leaders of civic
organizations, and youth groups. It took hours. They
also asked me to assist them in organizing the photos
according to categories such as financial, operative, and
leadership. We also divided photos into possible cells
according to mosques and ethnicity or nationality. I
did not know all of the people in the photographs, but
my handlers had information on people I did not know
enough to place them in the various arrangements.
The first of these meetings was in about March 2007,
and the last was in about September 2007.
51. Over the course of several conversations, my
handlers told me that they considered the leaders in the
Muslim community—board members and leadership at
mosques and leaders of Muslim organizations—to be potential threats and that they regularly surveilled them
and maintained more detailed files of information on
their background and activities. They told me that the
leadership of the community could give orders or fatwas
that someone in the community would carry out.
52. Because I was single in my undercover identity,
people in the community considered me an eligible Muslim and various individuals wanted to introduce me to
Muslim women. Agents Allen and Armstrong, and

187
George from Langley, wanted me to date as a way to get
information. When I asked how I should go about dating, and what happened if things began to get intimate,
my handlers told me that if I was getting good information, I should let things “take their natural course,”
and then they said “just have sex.” I had sexual relationships with women in the Muslim community for the
purposes of information gathering pursuant to these instructions.
53. My handlers were always interested in obtaining
new informants within the Muslim community. They
spoke to me about “MICE,” an acronym for Money Ideology Compromise Ego, or the various ways people can
be convinced to be informants. They often focused on
the element “compromise,” which consisted of obtaining
information on potential informants that could be used
against them if they refused to inform. Subjects that
would potentially lead to compromise included immigration issues, sexual activity, business problems, or crimes
like drug use. My handlers instructed me to pay attention to people’s problems, to talk about and record them.
I reported problems that several individuals told me
about, including marital problems, business problems,
and petty criminal issues. My handlers on several occasions talked to me about different individuals that
they believed might be susceptible to rumors about their
sexual orientation, so that they could be persuaded to
become informants through the threat of such rumors
being started, even though my handlers had no evidence
that such rumors would be true.
54. My handlers also often referred to the principle
that “everybody knows somebody.” They explained
that if someone is from Afghanistan, that meant that

188
they would likely have some distant member of their
family or acquaintance who has some connection with
the Taliban. If they are from Lebanon, it might be
Hezbollah; if they are from Palestine, it would be Hamas. By finding out what connections they might have
to these terrorist groups, no matter how distant, they
could threaten the individuals and pressure them to provide information, or could justify additional surveillance.
55. On one occasion, my handlers instructed me to
develop my relationship with a person who told me that
his father was sick in a foreign country and in a lot of
pain. I had a significant amount of Vicodin, a prescription pain reliever, left over from a surgery I had previously undergone. I discussed with Agent Allen that
providing this person some Vicodin would help build the
relationship and build my reputation as a devout Muslim
who had access to black market items. Agent Allen instructed me to provide the person with 60 tablets of my
leftover Vicodin, which I did. On another occasion,
Agent Allen instructed me to provide prescription anabolic steroids to another two individuals to similarly further my credibility, which I did.
56. In about early spring of 2007, after I provided
some information my handlers believed was very valuable, my handlers told me, “You’re gold in L.A. You’re
gold in Washington.” They said that higher ranking officials wanted to use me in other places as well. Agent
Allen told me several times that information I provided
had been used in presidential daily briefings. They
told me that my work was followed by people “at the
highest levels.” They told me that the operation I was
working on was among the ten most important intelligence investigations going on in the country. Agent

189
Allen told me in about March or April 2007 that he had
meetings with Stephen Tidwell and one of his supervisors from Washington, D.C., Joseph Billy, Jr., about the
operation. Around the same time period, Agent Allen
told me that he had to fly to D.C. with his supervisor,
Pat Rose, in part to meet with high-level FBI officials to
get approval to open a gym for Muslims that would function in part as a mosque with a prayer room, and that I
would run. He called me from D.C. to tell me that the
gym had been approved.
57. During about spring 2007, Agent Allen told me
that I needed to be careful how I wrote my notes, and
that I needed to be very precise and detailed, because
people in Washington were reading and summarizing
the reports to make things “sexier” than I had intended
so as to accomplish their own goals. He told me that I
needed to be careful always to use precise and detailed
language so that more could not be read into the reports
than I intended.
58. During the course of the operation, I learned
there were a large number of FBI informants in the Orange County Muslim community. My handlers told me
at various times that the Muslim community was “saturated” or “infested” with informants, and said it was like
the societies of cold war East Germany and Cuba, where
everyone was informing on one another. During the
meetings in the hotel room when my handlers and I arranged photographs of people in the Muslim community,
many of the photographs had asterisks by the names.
Several of the people marked were people my handlers
had already told me were informants, so I asked my handlers if the asterisks indicated informants, and they
eventually confirmed that they did. At each of the four

190
meetings, there were dozens of people labeled as informants, and I believe over the four meetings I saw well
over one hundred people marked as informants. I personally interacted with more than forty people my handlers told me were informants. My handlers told me
that the other informants had been recruited from the
community because the FBI had pressured them in
some fashion, and they told me that they did not trust
the informants they had recruited from within the Muslim community.
59. As I continued as a constant presence at ICOI
and the community became more comfortable with me,
I began to participate in the prayers to a greater degree.
I gave the adhan, or call to prayer as well as the alFatiha, or opening to the evening prayer. On a few occasions, when prayer leaders went out of town, I led the
dhuhr, or midday prayers, and the fajr, or dawn prayers. My handlers were extraordinarily happy that I
had been given the responsibility to lead prayers, as
they believed it showed an acceptance of me by the community.
60. After several months of working, my handlers
told me more about how some aspects of their investigation worked. Agent Armstrong told me that although
the terrorist watchlist was maintained by the Department of Homeland Security, the information in that list
was based on information collected by the FBI. He
told me that information I collected would get shared
with Homeland Security and other agencies. For example, my handlers were interested in travel plans of
Muslims—after a while I asked why they wanted to
know. They eventually indicated that the reason they

191
wanted to know this was to share it with Homeland Security to monitor or search people during their travels.
61. My handlers also told me that information I obtained would be shared with other agencies. They told
me that information I obtained on finances or foreign
assets was shared with the Treasury Department.
Several times when I had information about people’s immigration issues, my handlers told me that they would
send the information to immigration officials. My handlers told me that they were “in the business of sharing
information” about terrorism with other agencies.
62. I also learned about the voluntary interviews the
FBI would ask of people from the Muslim community.
My handlers told me that they would usually bring people in to an FBI interview only after I had obtained some
useful background on the person—usually by recording
some embarrassing personal information or a statement
of political beliefs that they would not want to admit to
the FBI. They could then use that information to pressure the person to provide information, or could ask
about that information in order to get the person to deny
it, which would set up the allegation that they had lied
to the FBI during the interview, which would in turn
provide leverage to get the person to provide information. They told me that they tried to put interviewees at ease by saying that they were investigating someone else.
63. It became clear to me that there was audio surveillance either on the telephones or in offices of a large
number of leaders in the Muslim community. For example, on one occasion around when ICOI was attempting to get a restraining order against me, some people
were saying I was an informant. At that time, Agent

192
Allen called me and said words to the effect, “You need
to call [Person A] right now. He’s on the fence about
you and talking to [Person B] on the phone right now.
Call him and break in and take him to dinner.” I could
hear the voices of the people he was talking about in the
background. Agent Allen made similar calls to me several times about different people.
64. During many conversations with my handlers
over the course of my work, my handlers told me that
not everything our operation was doing was legal. My
handlers told me that because the U.S. was fighting an
enemy that was not sovereign, they had to carry out policies that were contrary to the Constitution.
65. On several occasions in restaurants, I left my recording devices (a key fob or my cell phone) in a place
where it could record a conversation while I went elsewhere. Sometimes I did this with groups that met in
the mosques: if there was a youth group or a group
that met with a particular scholar, I went over to put
down my things, including the recording device, and
greet people, then went to a different part of the room
to pray. In restaurants or cafés, too, on more than one
occasion when I was speaking to one group and saw another group come in, I moved to the new group while
leaving my cell phone at the first so as to record both
conversations at once. I stated that I did this in my
notes to my handlers and was never instructed to stop.
66. On several occasions, I left my recording devices
in locations in mosques in the area. For example, in
King Fahd Mosque in Culver City, several times I came
in with a friend who changed in the office from business
clothes to more traditional dress before we went into the
mosque to pray. While he did so I left my keys in the

193
office so that the key fob would record staff and board
members who came in and talked. I retrieved my keys
from the office when we were finished in the mosque. I
did this several times, and in several different mosques.
I stated that I did this in my notes to my handlers and
was never instructed to stop.
67. I once asked Kevin Armstrong about covert
video recording surveillance he had told me was being
conducted at a local bookstore. He said that while you
needed warrants for criminal investigations, “National
security is different. Kevin is God.” I understood
him to mean that he did not have warrants for the surveillance at the bookstore. Agent Armstrong also told
me on more than one occasion that they did not always
need warrants, that if they did not have a warrant they
could not use the information in court, but that it was
still useful to have the information. He mentioned that
they could attribute the information to a confidential
source if they needed to.
68. In about June 2007, my handlers told me the
FBI was planning an action to make a number of arrests
based on intelligence that I had gathered. My handlers
took me to the Anaheim Hilton hotel where I stayed out of
contact for several days at the FBI’s expense. My handlers told me that the operation would soon be over.
My handlers told me that more than seventy agents had
amassed in the Santa Ana office to conduct pre-dawn arrests of twenty-seven people, but that the office of FBI
Director Mueller had called from Washington, D.C., and
ordered the agents to stand down and not go through
with the arrests. My handlers were very upset about
this. After the aborted arrests, I returned to my role

194
as an undercover informant, doing exactly the same
work as before.
69. Both my handlers and other agents explicitly
told me that Islam was a threat to America’s national
security.
70. One individual I made contact with had a pending federal criminal case. Agent Armstrong, who was
a former Assistant U.S. Attorney, initially told me to be
careful not to discuss his case because there would be
problems because he was represented by counsel. But
he was overruled by others, including Agent Allen, and
I was then instructed to talk with him about his case. I
understand that the information I gleaned was used in
his criminal case.
71. Over the course of fourteen months of working
as an informant in the Los Angeles and Orange County
Muslim community, I estimate that, on my handlers’ instructions, I passed hundreds of phone numbers and
thousands of email addresses of Muslims to the FBI. I
provided background information on hundreds of individuals. I made hundreds of hours of video recordings
that captured the interiors of mosques, homes, businesses, and the associations of hundreds of people. I
made thousands of hours of audio recording of conversations I participated in and where I was not present, as
well as recordings of public discussion groups, classes,
and lectures.
Termination of My Assignment

72. In about March 2007, Agent Allen provided me a
written letter from an Assistant U.S. Attorney named
Deirdre Eliot to engage in jihadist rhetoric and to en-

195
gage in other criminal activity with immunity. I understand that this letter gave me blanket immunity for all
my conduct as an undercover informant. I signed the
letter, but Agent Allen took the letter back and did not
allow me to keep a copy.
73. My handlers had instructed me to ask general
questions about jihad from the beginning of my assignment. In early 2007, my handlers instructed me to
start asking more pointedly about jihad and armed conflict, then to more openly suggest my own willingness to
engage in violence. In one-on-one conversations, I began asking people about violent jihad, expressing frustration over the oppression of Muslims around the world,
pressing them for their views and suggesting that I
might be willing or able to take action. In about late
spring of 2007, people at ICOI began to get concerned
about me. After one incident where I said some extreme things in order to test the reaction of others, several individuals reported me to local police and to the
FBI. When the authorities did not respond with any
urgency, people became suspicious that I might be
working for the FBI. Congregants at ICOI brought an
action for a restraining order to bar me from the mosque.
On June 19, 2007, I understand that there was a hearing
in which testimony was presented and the restraining
order issued barring me from entering the mosque. I
continued my undercover work at other mosques in the
area, but the restraining order and the fact that various
members of the community had become suspicious
about me made it much more difficult to get close to people and to gather information.
74. During the time ICOI was attempting to obtain
a restraining order against me, Agent Allen instructed

196
me to go back into the mosque. I feared for my safety
since I knew some people suspected I was an informant.
I told Agent Allen I would only go in if I was armed with
a knife, and that I would defend myself if someone gave
me reason to. My handlers acknowledged what I said,
but did nothing to stop me from doing so. I went into
ICOI on two subsequent occasions with a knife strapped
to my leg.
75. At some point during the spring of 2007, my handlers mentioned to me that the Assistant Director in
Charge of the FBI’s Los Angeles Field Office had told
the Muslim community that there would be no undercover informants placed in mosques at a meeting held
only about a month or so before I had taken shahaddah.
The Assistant Director in Charge at that time was Stephen Tidwell. I was surprised, and my handlers said
that, at that time, they had already been looking for
someone to send into the mosques and Tidwell had approved recruitment of an informant.
76. During the summer of 2007, around the time
ICOI was seeking the restraining order and afterwards,
I was repeatedly approached for an interview by a reporter from the Los Angeles Times named H.G. Reza.
My handlers disliked this reporter—they told me that
he was an enemy of the United States and that he was
under surveillance. On one occasion, my handler called
me to tell me not to go to a particular gym because Reza
was waiting for me in the parking lot. When I asked
him how he knew that, he said “We’re the fucking FBI.
We know everything.” In October 2007, FBI counsel
Stephen Kramer paid me $25,000 cash to assure that I
would not disrupt the rest of the case, and explicitly told

197
me that the payment was in part so I would not speak
with Reza.
77. In about June 2007, when some people in the
community were beginning to suspect I was an informant, I had discussions with my handlers about being paid
substantial additional sums of money to go to jail or
prison to help bolster my credibility in the community
and convince people that I was not a confidential informant. We discussed having me very publicly arrested in
the parking lot of a mosque, and the details of the pay
and arrangements to make life tolerable in prison. My
handlers eventually told me that this plan failed because
a federal judge had refused to go along with it.
78. During about the summer of 2007, my handlers
told me that the Assistant Special Agent in Charge in
Santa Ana, Barbara Walls, did not trust me and did not
want me working any more. They told me there was
significant conflict between Agent Walls and field
agents over how to handle the operation, and that there
had been an audit team sent from Washington, D.C., to
examine Agent Walls’ handling of one potentially valuable piece of information I provided. Because of this
conflict and complications surrounding the restraining
order, my handlers told me in about September 2007
that I would be going on “hiatus” from my undercover
work in the Orange County Muslim community.
79. During one of my final meetings with my handlers, at which Agent Walls was also present, she warned
me to stay silent about my participation in the operation.
She said that if word got out that the FBI had sent an
informant into mosques and the community, that it
would destroy the relationship between the Islamic community and the FBI. She said that “we assured them”

198
that the FBI would not send undercover informants into
mosques.
80. In October 2007, I had a last meeting, where my
handlers had instructed me to bring back the laptop
computer and surveillance equipment they had issued
me. I said to them that I guessed the operation was
over. Agent Allen said emphatically no, the operation
had just begun. He said that my role was over, but that
Operation Flex and the FBI’s operations in Orange
County and Los Angeles would continue. He also said
that the information I had provided was an invaluable
foundation for the FBI’s continuing work. He also said
that after some down time, I would have the option of
working in New York or other places.
81. Prior to February 2009, I never confirmed to anyone outside of law enforcement and my immediate family that I was working as an informant for the FBI.
That month, FBI Agent Thomas Ropel III testified in a
bail hearing in a federal criminal case about information
used in that prosecution that he said had been provided
by an undercover informant, and described the undercover informant such that many people in the Muslim
community could clearly identify the informant as me.
Several days later, an article appeared in the Los Angeles Times containing statements I made to a reporter
about being an FBI informant. I am not aware of any
information either publicly released by the FBI or otherwise available to any member of the Orange County
Muslim community prior to February 2009 that would
allow them to do anything more than speculate that I
might have been an FBI informant.

199
Ongoing Surveillance

82. Between about December 2007 and August 2008,
I was incarcerated for reasons that are currently the
subject of a federal civil action against the Irvine Police
Department, the FBI, and others. Concerning that
matter, my handlers told me that their supervisors in
the FBI office did not want me to be publicly identified
as an FBI informant, so I ended up pleading guilty on
their instructions, and spent eight months in jail as a result.
83. After I got out of prison in about August 2008, I
contacted the Irvine Police Department to voice concerns about my safety from members of the Muslim
community that might suspect me of being an informant.
I was visited by a detective, as well as a sergeant that I
recognized as someone who had once escorted me when
I was undercover with my handlers. The sergeant
knew very specific information about individuals I had
surveilled who I had concerns about, and told me in this
meeting that he worked for JTTF. He told me that
several individuals I asked him about were still under
surveillance. He also specifically mentioned that surveillance was ongoing at gyms and at least two mosques.
84. In recent months, I have begun returning to local gyms where Muslims work out. In one gym in Irvine, on two different occasions since about September
2009, I saw a Muslim who I knew to be an informant,
who looked at me and quickly looked away guiltily.
Both times I saw the informant, when I went out to the
parking lot, I saw a white SUV with people inside who I
recognized as members of the JTTF that I saw when I
worked undercover. On one of these occasions, I saw
one of the individuals holding a camera in both hands as

200
if he were using it. They saw me, looked surprised, and
also looked away. I believe that they were actively engaged in surveillance of the gym, perhaps through the
informant.
I declare under penalty of perjury of the laws of the
State of California and the United States that the foregoing is true and correct. Executed this 23rd day of
April, 2010 in Orange, California.
/s/ CRAIG F. MONTEILH
CRAIG F. MONTEILH

201
DECLARATION OF CRAIG F. MONTEILH

I, Craig F. Monteilh, make this declaration of my own
personal knowledge and if called to testify, I could and
would do so as follows:
1. From about July 2006 until about October 2007,
I worked for the United States Federal Bureau of Investigation (“FBI”) as an undercover informant assigned to infiltrate the Muslim community in Southern
California. During this time, I generally spent about
six or seven days a week posing as a Muslim convert
named Farouk al-Aziz, conducting surveillance and
gathering information on a wide variety of individuals
and organizations in the Muslim community. My “handlers,” or the FBI agents who directed my operations,
during this time were FBI Special Agent Paul Allen and
FBI Special Agent Kevin Armstrong.
2. On my handlers’ instructions, I made audio recordings of everything I did while working as an informant, including all the conversations I had, using recording devices they had given me. I recorded all day,
every day. My handlers told me that if something was
not recorded, it was as if it didn’t happen.
3. My handlers were interested in the mosque at
Mission Viejo, the Orange County Islamic Foundation
(“OCIF”). They considererd the imam of the mosque,
Yassir Fazaga, to be a radical for several reasons: My
handlers told me Fazaga directed students on how to
conduct demonstrations and encouraged them to speak
out. They told me that when the FBI Assistant Director in Charge of the Los Angeles Field Office, Stephen
Tidwell, attended a meeting at an Orange County
mosque in about spring 2006, Fazaga openly pressed

202
Tidwell about FBI informants in mosques, and when
Tidwell denied putting informants in mosques, Fazaga
had openly said he did not believe Tidwell. My handlers also told me Fazaga was a person of interest because he was a board member of “In Focus News,” a
prominent Muslim newspaper that was vocal in speaking out against U.S. government actions that negatively
affected Muslims and which my handlers believed was
anti-American and linked to Muslim civil rights groups.
4. My handlers also believed that OCIF was linked
to another mosque they were interested in, the Islamic
Center of Irvine, because the two mosques held joint
events and jointly organized foreign trips, including the
hajj pilgrimage to Mecca. They referred to OCIF as a
“definite hotspot.”
5. My handlers also believed that the mosque was
radical because it had certain religious scholars as guest
speakers who my handlers believed were radical—
particularly Yusef Estes, Suhaib Webb, and a local
imam, Ahmad Sakr. My handlers told me that a moderate mosque would not have chosen these guest speakers. On my handlers’ instructions, I attended the Yusef
Estes lecture and video recorded the event using a camera hidden in a shirt button that my handlers provided.
On my handlers’ instructions, I video recorded the entire lecture, the literature Estes had set out, and the
people who attended.
6. I attended OCIF a number of times to conduct
surveillance.
7. On my handlers’ instructions, I used a video
camera hidden in a shirt button that my handlers provided me to take video of the interior of OCIF. My

203
handlers instructed me to get a sense of the schematics
of the place—entrances, exits, rooms, bathrooms, locked
doors, storage rooms, as well as security measures and
whether any security guards were armed. I understood that this information would be used to place surveillance equipment inside the mosque. I later asked
Agent Armstrong if they had used the information I had
gathered to enter the mosque, and he said that they had.
8. On my handlers’ instructions, I also made video
recordings of an area in the back of the mosque where
there were religious books available for congregants to
use, so that my handlers could determine if any of the
literature there was extremist.
9. My handlers instructed me to make contacts
within the Mission Viejo congregation. I worked out
on various different occasions with about 40 of their congregants, usually in groups. For anyone I worked out
with, I got their email address and cell phone number
and passed that information on to my handlers. I understood from my handlers that the FBI used this contact information to further track these individuals’ communications and conduct surveillance of them.
10. My handlers instructed me to gather additional
information on a few individuals within the congregation
who seemed to have the most direct access to Fazaga.
I talked to these individuals and obtained their email addresses, cell phone numbers, and addresses, as well as
basic background information such as their occupation,
whether they were married or had children, and what
prayers they attended. I passed the information on to
my handlers.

204
11. My handlers instructed me to monitor Fazaga at
the prayers he conducted: to record and report on
what he said, to talk with him afterwards and see who
else talked to him afterwards, and to note individuals
who appeared to be close to him. They wanted me to
get into a circle of people close enough to Fazaga that he
would talk freely in front of me. I also monitored what
was said by a member of the congregation who substituted for Fazaga during one of the prayers I attended.
12. It was significant to my handlers when a prominent member of the community introduced me to
Fazaga while I was recording with a hidden video camera, in about April 2007. At that meeting, I asked
Fazaga to work out with me and he agreed. My handlers were excited by this prospect, but I never actually
worked out with him. I obtained Fazaga’s cell phone
number and email address (not through Fazaga, but
through others) and passed these on to my handlers.
My handlers told me they used the email addresses and
telephone numbers I gathered to monitor communications and conduct further surveillance.
13. I also passed to my handlers the license plate
numbers of cars Fazaga traveled in and the people I saw
him associate with.
14. My handlers told me that there was another informant within the mosque with access to Fazaga, but
that they did not fully trust him, so I was tasked with
getting close to him to establish his reliability. My
handlers also told me there were a number of other informants at the mosque, but that they did not have access to the imam.

205
15. My handlers instructed me that whenever I saw
Fazaga at another mosque or anywhere outside OCIF, I
should call them and let them know immediately. I did
this at least once when I saw him at another mosque.
16. On one occasion, during Friday afternoon prayer
at OCIF, the mosque had booth set up to collect donations for a cause—I believe for some kind of relief for
Muslims abroad. Pursuant to my handlers’ standing
orders that I monitor donations, I stood near the booth
and used the hidden video camera I was wearing to make
video recordings of people who went up to the booth to
contribute money.
17. I never observed anything that gave me any reason to believe that Fazaga or any of the congregants or
leadership of OCIF were involved in violence or terrorism in any way.
I declare under penalty of perjury of the laws of the
State of California and the United States that the foregoing is true and correct. Executed this [11]th day of
October, 2010 in Los Angeles, California.
/s/ CRAIG F. MONTEILH
CRAIG F. MONTEILH

206
DECLARATION OF CRAIG F. MONTEILH

I, Craig F. Monteilh, make this declaration of my own
personal knowledge and if called to testify, I could and
would do so as follows:
1. From about July 2006 until about October 2007,
I worked for the United States Federal Bureau of Investigation (“FBI”) as an undercover informant assigned to infiltrate the Muslim community in Southern
California. During this time, I generally spent about
six or seven days a week posing as a Muslim convert
named Farouk al-Aziz, conducting surveillance and
gathering information on a wide variety of individuals
and organizations in the Muslim community. My “handlers,” or the FBI agents who directed my operations,
during this time were FBI Special Agent Paul Allen and
FBI Special Agent Kevin Armstrong.
2. On my handlers’ instructions, I made audio recordings of everything I did while working as an informant, including all the conversations I had, using recording devices they had given me. I recorded all day,
every day. My handlers told me that if something was
not recorded, it was as if it didn’t happen.
3. In some of my earliest meetings with my handlers, they showed me a picture of a young man named
Ali Malik. They told me he had been a surfer kid in
Newport Beach who wore dyed hair, but had travelled
to Yemen to attend a madrassa, and had returned to the
U.S. wearing traditional Muslim dress and a full beard.
4. My handlers told me Malik’s change in behavior
in embracing religion and traditional dress was highly
suspicious and for that reason they needed to investigate him. They also told me they were suspicious of

207
Malik because he was involved with people from the
“MSU.” “MSLJ” stands for “Muslim Student Union,”
which is the name of Muslim student groups at many
colleges and universities, including U.C. Irvine. My
handlers told me that they were investigating several individuals who were part of the MSLJ at U.C. Irvine, because they thought these individuals had ties to extremists, they thought that an imam who helped found the
MSUs was radical, and they did not like the MSU’s activities because it organized demonstrations and was vocal in its criticisms of IJ.S. foreign policy. They mentioned several times a mock wall at U.C. Irvine that the
MSU had created that was supposed to represent the
wall between Palestine and Israel. They said that the
MSU was under surveillance and had its own separate
task force dedicated to that surveillance. But they also
used the term “MSIJ” more broadly to include not just
particular student groups on particular campuses, but
young Muslims who were active in the Muslim religious
community and who associated with other young Muslims who were MSU members. Malik was lumped in
with the MSU because he associated with other people
from the MSU at Irvine and other young Muslims, even
though he did not go to U.C. Irvine.
5. My handlers also told me Malik’s father was a
hero who had fought against the Soviets in Afghanistan.
This background was another reason they were suspicious of Malik.
6. Agent Armstrong told me that before he was assigned to be my handler, he had been assigned to investigate the MSUs and young Muslims, including Ali Malik.

208
7. My handlers told me that the way that Malik
groomed his beard indicated that he was a radical.
8. My handlers already had a significant amount of
information on Malik and his family before I was assigned to do anything. They wanted me to get more information on one of his brothers; on another individual
who Malik was close to; on Malik’s associations from the
Irvine mosque, and on who Malik hung out with at the
gym.
9. My handlers said that they knew Malik had been
to a madrassa (an Islamic religious school) in Yemen,
but did not know the name of the school. They also told
me that they knew he had been blocked from entering
Saudi Arabia after he had traveled to Yemen, but they
did not know why. They tasked me with finding out
what school he had been to and why he had been denied
entry into Saudi Arabia.
10. Very soon after I formally converted to Islam, I
met Malik at the gym and began talking to him. I also
spoke with him at the mosque. Sheikh Sadullah Khan
saw me talking to him at the mosque and asked Malik to
show me how to pray. Malik willingly helped me. He
also bought me a very basic book on Islam. On the instructions of my handlers, I later used this book to ask
Malik about the sections of the book that mentioned jihad, in hopes of eliciting some response that might incriminate Malik or justify further surveillance. I recall
that Malik told me that the best interpretation of jihad
was as “spiritual” jihad, or the personal struggle to improve one’s life. On my handlers instructions, I also
asked him about certain imams and religious scholars in
order to discern his religious views, and pressed him on
questions of U.S. foreign policy, in an attempt to record

209
him saying something that could be construed as extremist that would justify further surveillance, or possibly be used to pressure Malik to give information to the
FBI. Malik seemed surprised by my questions during
these conversations and repeatedly urged me to concentrate on learning the basics of Islam.
11. I saw Malik frequently during Ramadan in the
fall of 2006, but after that only about once a week, at
mosque or at the gym, and often in passing. My handlers urged me to have a meal or tea with Malik, and I
tried to make plans several times, but he had a busy
schedule and we never did. I would sometimes time my
visits to a local gym to coincide with the time I knew he
went there after his classes, and would try to talk to him
at the gym, on my handlers’ instructions.
12. Sometime in early 2001, Ali Malik suggested to
me in some conversations that he was having problems
with his wife, who lived in Chicago. When I reported
this to my handlers, they told me that I should try to
work out with Malik at the gym and act as a comforting
friend in order to have him open up and offer information. On my handlers’ instructions, I did this and
recorded Malik talking about his marital problems. I
provided these recordings to my handlers. My handlers told me the recordings would be useful in pressuring Malik to provide information, because they thought
the recordings contained embarrassing facts he would
not want revealed.
13. In about April 2007, my handlers started discussing the possibility of sending me abroad to a
madrassa to study Islam and Arabic, in hopes that I
would get sent from there to a terrorist training camp.
I started asking about a school to go to, saying I wanted

210
to go to Pakistan. Malik told me that he had attended
Dar al-Mustafa in Tarim, outside Sana, in Yemen. I reported this to my handlers, who were very excited about
the information. Agent Allen moved quickly to investigate and told me it was a radical school and that he believed that Malik did not get into Saudi Arabia after his
trip to Yemen because he had been studying at a radical
school. My handlers also told me they thought people
at the school could refer students to terrorist training
camps, so that if I went, they might refer me to a camp.
14. I found out from the Dar al-Mustafa brochure
online that I needed an imam’s signature to apply. I
approached Sadullah Khan, in about early May 2007,
about going to the school in that summer. Khan said he
would provide a letter for me, but I ended up not applying because people in the mosque got a restraining order
against me.
15. My handlers thought Malik had ties to an organization, the “Islamic Society of North America” (“ISNA”),
because it was headquartered in Chicago, where Malik’s
wife lived. My handlers instructed me to ask Malik
about ISNA, which I did. Malik said they were doing
good things, but did not indicate he was a part of it. I
recorded these conversations and reported them to my
handlers.
16. My handlers told me they thought Malik might
be selling prescription drugs, because he did not have a
job and had money to go out with friends, and to travel
to see wife in Illinois. My handlers told me they
thought this might be true of several young people at the
Irvine mosque. I never discovered anything in any of
my time undercover about Malik or any of the other

211
young people selling prescription drugs or engaging in
other illegal activity to make money.
17. On several occasions, I used the recording devices provided to me by my handlers (disguised as a key
fob or cell phone) to record groups of young Muslims
talking in the prayer hall after ishaa prayer. On these
occasions, I greeted people, left my things—including
the recording device—near to where they were talking,
then went to another part of the mosque or a different
part of the prayer hall to pray so that my recording device would capture their conversation when they did not
think I could hear. Several times Ali Malik was one of
the people in the group I recorded. I recorded his conversations when I was not present, then gave my handlers notes that detailed the people I saw there so they
would be able to identify the voices. I put in my notes
to my handlers that I did this to record conversations
where I was not physically present, and they never told
me not to do this.
18. Malik told me more than once that he heard I
was going regularly to fajr, or early morning prayer.
He commended me on my commitment—he said that he
had gotten into the routine of attending fajr prayers
daily when he had been studying abroad, but that it was
easy to fall back in attending prayers only when it was
convenient and that he needed to get back to that kind
of regimen. My handlers thought this was significant
information that indicated Malik was returning to extremist beliefs, which justified further surveillance.
19. I gave significant information on Malik to my
handlers. In addition to the surveillance described
above, including giving my handlers recordings of all my
conversations, my handlers several times showed me

212
photos with people they said had been seen with Malik
and asked me to identify them. The pictures sometimes had Malik in them.
20. Malik was one of the individuals who my handlers told me were to be arrested in raids in about June
2007 that were ultimately aborted.
21. I never observed anything that gave me any reason to believe that Malik was involved in violence or terrorism in any way. I declare under penalty of perjury
of the laws of the State of California and the United
States that the foregoing is true and correct. Executed
this [11]th day of October, 2010 in Los Angeles, California.
/s/ CRAIG F. MONTEILH
CRAIG F. MONTEILH

213
DECLARATION OF CRAIG F. MONTEILH

I, Craig F. Monteilh, make this declaration of my own
personal knowledge and if called to testify, I could and
would do so as follows:
1. From about July 2006 until about October 2007,
I worked for the United States Federal Bureau of Investigation (“FBI”) as an undercover informant assigned to infìltrate the Muslim community in Southern
California. During this time, I generally spent about
six or seven days a week posing as a Muslim convert
named Farouk al-Aziz, conducting surveillance and
gathering information on a wide variety of individuals
and organizations in the Muslim community. My “handlers,” or the FBI agents who directed my operations,
during this time were FBI Special Agent Paul Allen and
FBI Special Agent Kevin Armstrong.
2. On my handlers’ instructions, I made audio recordings of everything I did while working as an informant, including all the conversations I had, using recording devices they had given me. I recorded all day,
every day. My handlers told me that if something was
not recorded, it was as if it didn’t happen.
3. A few weeks after I publicly made a declaration
of faith and started attending mosque, a group of young
men approached me at mosque and, impressed that I
was still attending mosque so regularly, told me that
most of the group lived together and invited me to socialize with them at their house. My handlers were excited by this invitation. They told me that the home on
Carver Street where the young men lived was already
under surveillance because it was shared by five young,
unmarried Muslim Egyptian men with different skills

214
and backgrounds—including a computer analyst, a pharmacist, an accountant, and one who handled logistics—and
my handlers believed they might be a Muslim Brotherhood cell.
4. A few days after this invitation, I identified to
my handlers that one of the young men who lived at the
Carver street house, Yasser Abdel Rahim, was a person
who seemed to attract and have influence with young
Muslims. My handlers told me they thought Rahim
was the leader of the cell, and that I should spend time
at the Carver street house and with Rahim in particular,
and gather as much information as I could. I did so,
and recorded all the conversations I had with Rahim and
the other members of the house. I gave these recordings to my handlers, along with notes about my observations.
5. My handlers instructed me to get into every
room in the Carver street house to see what was in
there, and include that information in my reports, which
I did. Later, in about February or March of 2007, my
handlers set me up with a video camera hidden in a shirt
button and instructed me to conduct video surveillance
of the layout and contents of the house, which I did.
6. On my handlers’ instructions, I spent a lot of
time at the Carver street house and with Rahim and his
roommates. I never observed anything that gave me any
reason to believe that Rahim or his roommates were involved in violence or terrorism in any way. They spent
most of their time watching TV news (mostly Al-Jazeera),
sports (football—bowl season, basketball, and soccer),
talking politics, eating food, and playing X-box.

215
7. Shortly after I first met them, Rahim and one of
his roommates bought me some books on Islam, and
later asked me what I thought of them. Some time after that, Rahim agreed to meet with me weekly to teach
me various prayers. My handlers were excited by this
because they thought Rahim was radicalizing me and
would want me to be part of the Muslim Brotherhood.
My handlers asked for the first sheet of paper on which
Rahim had written a prayer for me to learn. When
they gave it back to me a few days later, they told me
they had lifted Rahim’s fingerprints from it.
8. I informed my handlers that Rahim always led
prayer in the house. This point interested them, because they said it showed leadership, and confirmed that
I should focus surveillance on him.
9. My handlers said that Rahim had a criminal record, and they suspected he might be dealing drugs, but
never suggested any particular evidence or investigation of narcotics activity, and I never observed any indication that any members of the house engaged in criminal activity.
10. I gathered and passed to my handlers information about Rahim’s travel plans, particularly when
Rahim was going to or from Egypt to see his family or
his fiancé’s family. After one of these trips to Egypt,
Rahim complained that he had questioned for a long
time when he re-entered the country—that he expected
some delay but this had been way too long. I told one
of my handlers this and he said, “ ‘We’re onto him,” and
indicated that they had been responsible for that questioning.

216
11. Rahim was very athletic. He played pick-up
soccer with other Muslim youth. I attended some of
these games and took down the license plates of people
who attended, and once made a video recording with the
hidden camera my handlers provided me, in order to
document who was attending and socializing with one
another.
12. From my conversations with Yasser, I discovered that he traveled a lot to Portland for his job. I reported this information to my handlers, who were interested. They had a particular group of Muslims in Portland surveilled and believed he went there to report or
get instructions from this group. I had a standing order to report all travel plans, and would find out Rahim’s
travel plans and tell my handlers. My handlers several
times told me that they had Rahim surveilled in Portland after I had informed them he would be traveling
there.
13. Rahim offered to introduce me to Sheikh Suhaib
Webb, a white American religious scholar who studies in
Cario. My handlers knew Webb and told me that although he portrayed himself as a moderate, he was an
extremist, so they were very interested and instructed
me to pursue this. Rahim gave me Webb’s telephone
number and email address, and my handlers told me to
call or email Webb to make contact and establish a relationship, in hopes that Webb might give me some instructions. I called his cell phone and talked to a family
member and emailed with him, but my operation ended
before I met him.
14. Rahim’s fiancée lived in Detroit. I talked to
Rahim about her and her family, and transmitted what
information I learned to my handlers. I also got her

217
email address from emails he had forwarded that came
from her, and passed that on to my handlers. My handlers were suspicious of his fiancé’s family because they
were prominent people who traveled to Egypt often.
They later told me his fiancé’s family in Detroit was under surveillance as well.
15. On different occasions, my handlers told me that
the FBI had electronic listening devices in the house, as
well as in Rahim’s car and phone. For example, one
day, one of my handlers called to tell me that a friend
had driven up to the house quickly in an agitated state
and asked me to go down there to find out what was going on. When I asked how he knew this, he indicated
they had video outside the house. Another time, my
handlers asked me about something that happened inside the house that I hadn’t yet put in my notes. I
asked how they knew, and they told me that they had
audio surveillance in the home.
16. My handlers told me that Rahim was donating
money to a charitable organization in Egypt. They told
me that these donations had been tracked by the Treasury Department. They told me that these donations
were not unlawful, but that they could make them seem
suspicious in order to threaten him and pressure him to
provide information and become an informant.
17. On many Tuesday nights, the imam from the
Garden Grove mosque, Mustafa Kamil, would give Arabic language teachings at the Islamic Center of Irvine.
Rahim often attended. On several occasions, I used recording devices provided to me by my handlers to record
these teachings and the discussions after. On these occasions, I went into the prayer hall and listened to some

218
of the teaching. Since I did not want to arouse suspicion by staying when I was just starting to learn Arabic,
I would leave my things—including the recording device
(disguised as a key fob or cell phone)—near to where the
group was talking, and then go to another part of the
mosque or a different part of the prayer hall to pray.
My recording device would capture their conversation
when they did not think I could hear. Rahim was part
of the group I recorded on several occasions.
18. On my handlers instructions, I asked Rahim
questions about jihad and pressed him on his views
about religious matters and certain religious scholars,
particularly Egyptian ones, in order to get him to say
something that might be incriminating or provide a way
to pressure him to provide information to the FBI.
Rahim told me that there was more to Islam than jihad:
that jihad is a personal struggle, and that to the extent
that there is such thing as a fighting jihad, the Quran
places very strict rules that prohibit harming plants or
trees, infants, elderly or women, and that terrorists who
say they are engaged in jihad are not, they are just committing murder. When I asked about religious scholars like Hassan al-Banna and Sayid Qutb, who my handlers told me to ask about because they are considered
extremist, he said that he did not agree with them, but
thought that the Egyptian government should not have
executed them.
19. Rahim was one of the individuals who my handlers told me was to be arrested in the aborted raids of
June 2007.

219
I declare under penalty of perjury of the laws of the
State of California and the United States that the foregoing is true and correct. Executed this [11]th day of
August, 2010 in Orange, California.
/s/

CRAIG F. MONTEILH
CRAIG F. MONTEILH

220
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 12-56867, 12-56874, 13-55017
YASSER FAZAGA, ET AL., PLAINTIFFS-APPELLANTS
v.
FEDERAL BUREAU OF INVESTIGATIONS, ET AL.,
DEFENDANTS-APPELLEES
Filed: June 25, 2015
MOTION FOR LEAVE TO FILE
SUPERSEDING BRIEFS

The federal defendants-appellees (the Federal Bureau of Investigation and two FBI employees in their
official capacities) hereby move for leave to file superseding unclassified and classified briefs, to account for
the declassification of information that was previously
included in the government’s classified brief. As explained below in this motion, the simple clerical course
we propose is designed to avoid any confusion by the
Court and the parties as to which information is currently classified and which is not. It will thus make
matters simple for the panel of judges eventually assigned to this case because they will not have to deal
with excessive multiple filings. More important, our
proposal will substantially reduce the chances of inadvertent disclosures of classified information as this case
is considered by the Court.

221
Counsel for the individual-capacity defendants have
authorized us to represent that they do not oppose this
motion. Counsel for the plaintiffs have informed us that
they oppose this motion and intend to file a written response.
1. Plaintiffs initiated this action against the United
States, the FBI, FBI officials in their official capacities,
and five current and former FBI agents in their individual capacities. The Department of Justice represents
only the United States, the FBI, and the official-capacity defendants; the individual-capacity defendants are
represented by private counsel. Plaintiffs’ claims relate to the alleged activities of a former confidential informant for the FBI in a group of counterterrorism investigations.
The district court dismissed all claims against the
government and the official capacity defendants, and
dismissed all claims against the individual defendants
except for a claim premised on the Foreign Intelligence
Surveillance Act (FISA). The district court entered final judgment under Rule 54(b) on all claims that had
been dismissed. Plaintiffs appeal from that final judgment, and the individual defendants appeal from the denial of qualified immunity on the FISA claim.
Plaintiffs’ appeal concerns the district court’s determination that certain of plaintiffs’ claims must be dismissed under the state secrets privilege. That privilege may be invoked by the head of an agency (here, the
Attorney General of the United States) to protect information whose disclosure could reasonably be expected
to cause significant harm to national security. See generally United States v. Reynolds, 345 U.S. 1 (1953); Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1079

222
(9th Cir. 2010) (en banc). The Attorney General filed a
public declaration in district court invoking the privilege. The government also filed three documents classified at the “Secret” level: a declaration from the Assistant Director of the FBI’s Counterterrorism Division,
Mark Giuliano (Dkt. 35); a legal memorandum (Dkt. 36);
and a supplemental declaration from Mr. Giuliano (Dkt.
56). The district court reviewed those materials in camera,
see Minute Order (Dkt. 46), and they were not reviewed
by plaintiffs’ counsel or counsel for the individualcapacity defendants.
2. Plaintiffs filed their opening brief on November
17, 2014. On March 17, 2015, the government filed a public brief as appellee containing the information and legal
argument that could be filed on the public record. On
the same date, the government filed, ex parte, a classified brief and classified excerpts of record, each of which
contains classified information that was filed in the district court. Plaintiffs sought reconsideration of this
Court’s order granting leave to file a classified brief, and
this Court referred plaintiffs’ motion to the merits
panel, but directed that the classified brief be provisionally maintained on an ex parte basis pending resolution
of the motion. Order, May 12, 2015.
On April 29, 2015, the individual defendants filed
their briefs as appellees/cross-appellants. Plaintiffs’ response/reply brief is currently due July 23, 2015.
3. Several months after the government’s brief was
filed, the FBI declassified a single paragraph of the
Classified Declaration of Mark Giuliano, which had previously been classified at the Secret level. The declassified information relates to the agreement entered into
between the FBI and Craig Monteilh, the confidential

223
informant whose conduct is at issue in this case, regarding the use of recording equipment. The declassified
paragraph is attached to this motion, along with an exhibit that is referenced in the declassified paragraph.
The declassified paragraph does not contain information as to which the government has ever asserted
the state secrets privilege in this case, as it does not
“tend to confirm or deny whether a particular individual
was or was not the subject of an FBI counterterrorism
investigation,” does not “tend to reveal the initial reasons . . . for an FBI counterterrorism investigation
of a particular person . . . , any information obtained during the course of such an investigation, and
the status and results of the investigation”; and does not
“tend to reveal whether particular sources and methods
were used in a counterterrorism investigation of a particular subject.” Holder Decl. ¶ 4 [ER 285]. To the
contrary, the now-declassified paragraph of Mr. Giuliano’s declaration expressly contemplated that this information would be subject to declassification review. See
Classified Giuliano Decl. ¶ 22 (attached) (“[W]ith respect to plaintiffs’ specific assertion that the FBI acquiesced in Monteilh’s leaving recording devices unattended inside mosques, the FBI is assessing whether
specific instructions to Monteilh concerning this particular ‘unattended device’ issue can be disclosed without
harm to national security.”).
Because we filed our appellate brief at a time when
the now-declassified paragraph was classified at the Secret level, the information in that paragraph was omitted from our public filing, and instead discussed in two
sentences of our classified filing. To clarify the record
for the parties and the Court, and to provide the Court

224
with a current and accurate representation of which information is classified and which has been publicly disclosed, we respectfully request leave to file superseding
briefs. The only changes are the insertion of the declassified information into the public brief, and the removal of that information from the classified brief (along
with conforming changes to the tables and certificates).
We have attached to this filing a redline version of
the single page of the public brief that has been changed.
We are also attaching to this filing a complete version of
the superseding public brief that we seek leave to file.
If the Court grants this motion, we will file a superseding classified brief under appropriate procedures. The
classified brief will be modified only by deleting the two
sentences containing the information that is now included in the superseding public brief.
4. The filing of superseding briefs at this stage will
provide the judges eventually assigned to this case with
the simplest and cleanest format for the briefing, which
will contain classified information. As the same time,
it will not prejudice the other parties. The individualcapacity defendants, who have already filed briefs after
the government filed its brief, have all indicated that
they consent to this motion. Plaintiffs have not yet
filed any briefs in response to the government’s brief,
and their response/reply brief is not due until July 23,
four weeks from the filing of this motion. Those four
weeks should provide adequate time for plaintiffs to
carry out the simple and mechanical task of adjusting
any citations to the government’s brief that appear in
their response/reply brief to adjust for the modest
change in pagination that results from inserting a few

225
sentences into the government’s public brief. (The declassified information itself was provided to plaintiffs
last week.)
Plaintiffs have indicated to government counsel that
plaintiffs would prefer that the government file a separate document, apart from its public brief and its classified brief, to reveal the declassified information. If we
took this approach, the Court would have to juggle public briefs, classified briefs, and a separate filing indicating which part of the classified brief has now been declassified. It will plainly be easier for the judges eventually assigned to this case to have to deal only with a
single brief from the government that contains only unclassified information, and a separate, single, short classified brief that contains the classified information, with
up-to-date classification markings. The ease of reference and the reduced risk of confusion, particularly with
regard to which information is classified and which may
be revealed to the public, obviously far outweighs the
modest burden on plaintiffs of changing a few page citations to the government’s brief in the next four weeks.
Moreover, by having a single brief that is unclassified
and a single brief that is classified, we can reduce the
likelihood of an unfortunate inadvertent disclosure of
classified information as the case proceeds.
5.

This motion may be publicly filed.

For the foregoing reasons, we respectfully request
that this Court grant leave to file superseding public and
classified briefs.

226
Respectfully submitted,
/s/ DANIEL TENNY
DANIEL TENNY
DOUGLAS N. LETTER
Attorneys
Civil Division, Room 7215
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-1838
JUNE 2015

227

ATTACHMENT 1
DECLASSIFIED MATERIALS

228
Declassified Paragraph of Giuliano Declaration

22. In addition, with respect to plaintiffs’ specific assertion that the FBI acquiesced in Monteilh’s leaving recording devices unattended inside mosques, the FBI is
assessing whether specific instructions to Monteilh concerning this particular “unattended device” issue can be
disclosed without harm to national security. The FBI
can advise the Court at this stage that Monteilh agreed
in writing to keep FBI issued recording devices with
him at all times while they were turned on. He executed the attached FBI form FD-473 on November 17,
2006 (attached at Tab 6) which states in pertinent part:
I, Craig Monteilh, hereby authorize members of
SARA 6 and Special Agents of the Federal Bureau of
Investigation, United States Department of Justice,
to place a Body Recorder on my person for the purpose of recording any conversations with various CT
[subjects] and others yet unknown which I may have
on or about11/17/06 and continuing thereafter until
such time as either I revoke my permission or the
FBI terminates the investigation.
I have given this permission to the above-named
Special Agents voluntarily and without threats or
promises of any kind. I understand that I must be
a party to any conversation in order to record that
conversation. I therefore agree not to leave the recording equipment unattended or take any other action which is likely to result in the recording of conversations to which I am not a party.

229

230

ATTACHMENT 2

BRIEF REDLINE

231
*

*

*

*

*

* * * methods were used in a counterterrorism investigation of a particular subject.” Id. ¶ 4 [ER 285].
The Attorney General’s declaration was accompanied
by, and specifically cross-referenced, a more detailed
classified declaration from the Assistant Director of the
FBI’s Counterterrorism Division, Mark Giuliano, which
was filed ex parte and under seal. Holder Decl. ¶ 3 [ER
284]. That One paragraph of that declaration is has
been declassified since the district court’s decision.
That paragraph reveals that Monteilh specifically
agreed in writing with the FBI not to leave the recording device unattended while it was turned on. Classified Giuliano Decl. ¶ 22 [Classified ER 23-24]. On November 17, 2006, Monteilh signed a statement that he
“must be a party to any conversation in order to record
that conversation.”
Id. ¶ 22 [Classified ER 24].
Other aspects of the classified declaration, which remain
classified, are described in the government’s classified
brief in this Court, which is being separately filed ex
parte and under seal.
Assistant Director Giuliano also submitted a public,
unclassified declaration. The declaration explained
that terrorist groups are “putting more emphasis on
finding recruits or trainees from the West.” Public
Giuliano Decl. ¶ 7 [ER 228]. In addition, as evidenced
by several incidents * * *

232
CRAIG F. MONTEILH
FORMER FBI INFORMANT
20 REMINGTON IRVINE, CALIFORNIA,
TELEPHONE (949) 395-1124
June 20, 2019
Molly Dwyer
Clerk of Court
Office of the Clerk
U.S. Court of Appeals for the Ninth Circuit
P.O. Box 193939
San Francisco, CA 94119-3939
RE: Yassir Fazaga et., al., v FBI
Case Nos. 12-56867, 12-568745, & 13-55017
Dear Ms. Dwyer:
Craig F. Monteilh responding to the government’s in
camera filing and declassification of a document on June
25, 2015.
I am aware that the Attorney General and FBI’s classified in camera filings were not viewed by counsel for
the Plaintiffs nor counsel for the individual capacity Defendants.
I am the FBI’s confidential informant whose conduct
is at issue in this case. When the government files in
camera classified documents and materials that information submitted to Judges are subjected to the government’s interpretation and context.
When the government declassified a specific document that I signed it no longer remained subjected to

233
the government’s interpretation and context. I am asserting that the government misled the Court and misused classified materials and I’m able to corroborate my
assertion.
In the government’s filing they address the “plaintiffs’ specific assertion that the FBI acquiesced in Monteilh’s leaving recording devices unattended inside
mosques.”
They address this assertion by adding, “The FBI can
advise the Court at this stage that Monteilh agreed in
writing to keep FBI issued recording devices with him
at all times while they were turned on. He executed
the attached FBI form FD-473 on November 17, 2006.
. . . ”
Government attorneys also argued this point in front
of the panel on December 7, 2015. I did sign that FBI
form, however, it had nothing to do with the surveillance
devices I left unattended inside mosques.
The document I signed is specific. It states that I
authorized the FBI to “place a Body Recorder on my
person for the purpose of recording any conversations
with various CT and others as yet unknown. . . . ”
A body recorder and key fobs are entirely different
recording devices and require separate FBI forms to
sign. I left vehicle remote control devices with recording equipment fitted inside unattended inside mosques.
The body recorder was a prototype video recorder in
its early stages that would later be condensed and fitted
in a shirt button. The body recorder was a bulky device fitted under my armpit which was impossible for me
to remove. That’s why it had to be “placed on” me.

234
The document I signed regarding key fob recording
devices does not have any language instructing me to
keep devices with me at all times. The government
knows this and that’s why they sought to mislead the
Court.
Now with respect to corroborating my assertion of
government misconduct, my handwritten notes and supplemental attached notes will demonstrate to the Court
the actual use of this body recorder. I know where to
look. After all, they’re my notes. I wrote them.
Thank you for the Court’s consideration.
Respectfully submitted,
By:

/s/ CRAIG F. MONTEILH
CRAIG F. MONTEILH
20 Remington
Irvine, CA 92620
(949) 395-1124
Former FBI Confidential Informant
Principal Witness

